APPENDIX

1a

APPENDIX A

2018-Ohio-3551
STATE of Ohio, Appellee
v.
Douglas PRADE, Appellant
No. 28193
Court of Appeals of Ohio,
Ninth District, Summit County.
Dated: September 5, 2018

APPEAL FROM JUDGMENT, ENTERED IN THE
COURT OF COMMON PLEAS COUNTY OF
SUMMIT, OHIO, CASE No. CR 1998-02-0463.
DAVID BOOTH ALDEN, LISA B. GATES, and
EMMETT E. ROBINSON, Attorneys at Law, for
Appellant.
MARK B. GODSEY and BRIAN C. HOWE,
Attorneys at Law, for Appellant.
SHERRI BEVAN WALSH, Prosecuting Attorney,
and HEAVEN DIMARTINO, Assistant Prosecuting
Attorney, for Appellee.
DECISION AND JOURNAL ENTRY
TEODOSIO, Judge.

2a
Defendant-Appellant, Douglas Prade, appeals from
the judgment of the Summit County Court of Common
Pleas, denying his motion for a new trial. This Court
affirms.
I.
Almost twenty years ago, a jury convicted Mr. Prade
for the aggravated murder of his ex-wife, Dr. Margo
Prade. In 2013, a trial court found him actually
innocent due, in large part, to new DNA evidence. The
court granted Mr. Prade’s motion for post-conviction
relief, but also found that he was entitled to a new trial
“should [its] order granting post-conviction relief be
overturned pursuant to appeal * * *.” On appeal, this
Court did, in fact, overturn the post-conviction ruling.
See State v. Prade, 2014-Ohio-1035, 9 N.E.3d 1072.
We did not address the alternative ruling for a new
trial, however, because it was conditional in nature
and, as such, did not constitute a final, appealable
order. See id. ¶ 15, fn. 3. See also State v. Prade, 9th
Dist. Summit No. 26814 (Mar. 27, 2013) (dismissing
State’s first attempted appeal from the new trial
order). It was our mandate that the post-conviction
ruling be reversed and the cause remanded for further
proceedings consistent with our opinion.1 Prade,
2014-Ohio-1035, at ¶ 131, 9 N.E.3d 1072.

1 Mr. Prade sought to appeal from this Court’s judgment, but
the Ohio Supreme Court declined jurisdiction over his appeal.
See State v. Prade, Ohio Supreme Court Case No. 2014-0432, 139
Ohio St.3d 1483, 12 N.E.3d 1229 (July 23, 2014). He also later
sought a writ of prohibition in the Ohio Supreme Court, arguing
that this Court lacked jurisdiction to review and overturn a
finding of actual innocence. Upon review, the Ohio Supreme

3a
Following our remand, the State immediately
appealed from the new trial ruling to protect its
appellate rights in the event that our decision had
rendered the trial court’s conditional ruling final. This
Court dismissed the appeal, however, and reiterated
that the new trial ruling was not final and appealable.2
See Sate v. Prade, 9th Dist. Summit No. 27323 (Aug.
14, 2014). The State then filed a motion in the trial
court, requesting reconsideration of the new trial
ruling. Though Mr. Prade opposed that request and
asked the court to simply reenter the new trial ruling
on an unconditional basis, the court refused to do so.3
Subsequently, Mr. Prade filed a supplemental
memorandum in support of his motion for a new trial.
The trial court accepted numerous briefs from both
parties and ultimately set the matter for an
evidentiary hearing, limited to testimony from the
four DNA experts who had testified at the postconviction hearing. When the hearing concluded, the
court took the matter under advisement and allowed
the parties to file post-hearing briefs. Upon review of
all the motions, briefs, testimony, and evidence in the

Court denied his writ. See State ex rel. Prade v. Ninth Dist. Court
of Appeals, 151 Ohio St.3d 252, 2017-Ohio-7651, 87 N.E.3d 1239.
2

Though Mr. Prade attempted to appeal this Court’s finality
determination, the Ohio Supreme Court declined jurisdiction
over his appeal. See State v. Prade, Ohio Supreme Court Case
No. 2014-1992, 142 Ohio St.3d 1449, 29 N.E.3d 1004 (Apr. 29,
2015).
3

Notably, the trial judge who had awarded Mr. Prade a new
trial on a conditional basis was no longer on the bench when this
matter was remanded. Another trial judge, who had not heard
the post-conviction evidence, inherited the case.

4a
case, the court then denied Mr. Prade’s motion for a
new trial.
Mr. Prade now appeals from the trial court’s
judgment and raises one assignment of error for our
review.
II.
ASSIGNMENT OF ERROR
THE
TRIAL
COURT
ERRED
IN
RECONSIDERING,
AND
ABUSED
ITS
DISCRETION IN DENYING, THE MOTION FOR A
NEW TRIAL.
In his sole assignment of error, Mr. Prade argues
that the trial court erred when it reconsidered and
denied his motion for a new trial. He argues that,
upon remand from this Court, the trial court should
have simply reentered the 2013 new trial ruling on an
unconditional basis. Alternatively, he argues that the
court abused its discretion when it rejected his motion
on its merits. We disagree with both propositions.
Reconsideration of the New Trial Ruling
When the question presented on appeal is strictly
one of law, this Court applies a de novo standard of
review. State v. Fry, 9th Dist. Medina No. 16CA0057M, 2017-Ohio-9077, 2017 WL 6459869, ¶ 4. “A de novo
review requires an independent review of the trial
court’s decision without any deference to [its]
determination.” State v. Consilio, 9th Dist. Summit
No. 22761, 2006-Ohio-649, 2006 WL 335646, ¶ 4.
“The law-of-the-case doctrine provides that legal
questions resolved by a reviewing court in a prior
appeal remain the law of that case for any subsequent
proceedings at both the trial and appellate levels.”

5a
Giancola v. Azem, Slip Opinion No. 2018-Ohio-1694, –
–– N.E.3d ––––, ¶ 1, citing Nolan v. Nolan, 11 Ohio
St.3d 1, 3, 462 N.E.2d 410 (1984). “[T]he doctrine
functions to compel trial courts to follow the mandates
of reviewing courts” such that trial court are “without
authority to extend or vary the mandate given.” Nolan
at 3–4, 462 N.E.2d 410. Yet, the doctrine “ ‘comes into
play only with respect to issues previously determined
* * *.’ ” Giancola at ¶ 16, quoting Quern v. Jordan, 440
U.S. 332, 347, 99 S.Ct. 1139, 59 L.Ed.2d 358 (1979), fn.
18. It does not bind trial courts with respect to issues
that fall outside the compass of a reviewing court’s
mandate. Giancola at ¶ 16, quoting Quern at 347, fn.
18, 99 S.Ct. 1139, quoting Sprague v. Ticonic Natl.
Bank, 307 U.S. 161, 168, 59 S.Ct. 777, 83 L.Ed. 1184
(1939).
Mr. Prade argues that the trial court erred when it
reconsidered his motion for a new trial because, in
doing so, it ignored a mandate from this Court.
According to Mr. Prade, this Court ordered the trial
court, on remand, to reenter the 2013 new trial ruling
on an unconditional basis so as to generate a final,
appealable order. He argues that the trial court acted
without authority when it chose to disregard that
mandate and reconsider the ruling.
The record does not support Mr. Prade’s contention
that this Court issued a mandate, ordering the trial
court to reenter the 2013 new trial ruling. This Court
has referenced the 2013 new trial ruling, in varying
degrees, on three separate occasions. On the first
occasion, the State attempted to appeal from the
ruling, and this Court dismissed its appeal. See State
v. Prade, 9th Dist. Summit No. 26814 (Mar. 27, 2013).
In doing so, we unequivocally held that the new trial

6a
ruling was not a final, appealable order. See id., citing
46 Am. Jur. 2d Judgments § 168 (“If a judgment looks
to the future in an attempt to judge the unknown, it is
wholly void because it leaves to speculation and
conjecture what its final effect may be.”). Because the
ruling was not final, it was not properly before us, so
we did not issue any mandate.
On the second occasion, this Court referenced the
new trial ruling in the procedural history portion of
our decision on the trial court’s post-conviction ruling.
See Prade, 2014-Ohio-1035, at ¶ 13, 9 N.E.3d 1072.
We specifically noted, however, that the new trial
ruling itself was not at issue in the appeal. Id. at ¶ 15,
fn. 3. Accordingly, we issued no mandate with respect
to that ruling.
The third occasion arose when the State once again
attempted to appeal from the new trial ruling,
following this Court’s decision on the postconviction/actual innocence ruling. See State v. Prade,
9th Dist. Summit No. 27323 (Aug. 14, 2014). In
dismissing the State’s second attempted appeal, we (1)
reiterated our prior determination that the new trial
ruling was “conditional and, therefore, not final and
appealable,” and (2) found that determination to be
“the law of the case with respect to this proceeding.”
Id., citing State v. Prade, 9th Dist. Summit No. 26814
(Mar. 27, 2013). We then went on to discuss the actual
language the trial court had employed in its entry and
why that language was problematic. We noted, in
dicta, alternative language that the court could have
used to achieve a final order. In summarizing that
discussion, we wrote: “Thus, in order to make its
decision to grant the motion for new trial a final order,
the trial court must simply reenter its order granting

7a
the motion for new trial on an unconditional basis.”
Prade, 9th Dist. Summit No. 27323, at *2 (Aug. 14,
2014). That language, however, did not equate to a
mandate ordering the trial court to take that action on
remand. Compare App.R. 27. Because the State’s
attempted appeal stemmed from a non-final order, our
jurisdiction was limited. See Ohio Constitution,
Article IV, Section 3(B)(2) (appellate court jurisdiction
limited to reviewing final orders of lower courts).
Consistent with that limited jurisdiction and our prior
determination, our decisive ruling was that the matter
be dismissed for lack of a final, appealable order. Any
additional language in our journal entry was, at best,
dicta and was not binding authority on the lower court.
See Giancola, 2018-Ohio-1694, ––– N.E.3d ––––, at
¶ 16 (law of the case doctrine only pertains to issues
previously decided by a superior court and matters
within the compass of its controlling mandate).
This Court has long held that “interlocutory orders
are the proper subject of motions for reconsideration.”
State v. Ford, 9th Dist. Summit No. 23269, 2006Ohio6961, 2006 WL 3825194, ¶ 5. Accord Stow v. Sexton,
9th Dist. Summit No. 17263, 1996 WL 11985, *1, 1996
Ohio App. LEXIS 43, *4 (Jan. 10, 1996). When this
Court reversed the trial court’s post-conviction ruling
and remanded this matter, the parties were placed in
the position of being back before the trial court without
it having issued an unconditional ruling on
Mr. Prade’s motion for a new trial. See Giancola at
¶ 21, quoting State ex rel. Douglas v. Burlew, 106 Ohio
St.3d 180, 2005-Ohio-4382, ¶ 11, 833 N.E.2d 293,
quoting State ex rel. Stevenson v. Murray, 69 Ohio
St.2d 112, 113, 431 N.E.2d 324 (1982) (“ ‘ ‘[U]pon
remand from an appellate court, the lower court is

8a
required to proceed from the point at which the error
occurred.’ ’ ”). The trial court, therefore, had the
authority to reconsider the initial ruling on Mr.
Prade’s motion for a new trial. See Ford at ¶ 5; Sexton
at *4. Mr. Prade’s argument to the contrary lacks
merit.
Denial of the Motion for New Trial
Crim.R. 33(A) allows a defendant to move for a new
trial when his substantial rights have been materially
affected. The rule enumerates several grounds upon
which a defendant may seek a new trial, including
newly discovered evidence. Crim.R. 33(A)(6).
To warrant the granting of a motion for a new
trial based upon newly discovered evidence, the
defendant must show that the evidence:
“(1) discloses a strong probability that it will
change the result if a new trial is granted, (2) has
been discovered since the trial, (3) is such as
could not in the exercise of due diligence have
been discovered before the trial, (4) is material to
the issues, (5) is not merely cumulative to former
evidence, and (6) does not merely impeach or
contradict the former evidence.”
State v. Tolliver, 9th Dist. Lorain No. 16CA010986,
2017-Ohio-4214, 2017 WL 2541224, ¶ 18, quoting
State v. Petro, 148 Ohio St. 505, 76 N.E.2d 370 (1947),
syllabus. This Court applies an abuse of discretion
standard of review when reviewing a trial court’s
decision to grant or deny a motion for new trial based
on newly discovered evidence. Tolliver at ¶ 18. An
abuse of discretion indicates that the trial court was
unreasonable, arbitrary, or unconscionable in its
ruling. Blakemore v. Blakemore, 5 Ohio St.3d 217,

9a
219, 450 N.E.2d 1140 (1983). When applying the
abuse of discretion standard, an appellate court may
not substitute its judgment for that of the trial court.
Pons v. Ohio State Med. Bd., 66 Ohio St.3d 619, 621,
614 N.E.2d 748 (1993).
The last judgment we issued in this matter outlined,
in exhaustive detail, the evidence that emerged at Mr.
Prade’s trial. See Prade, 2014-Ohio-1035, at ¶ 2070, 9
N.E.3d 1072. Rather than reproduce that discussion,
we incorporate it herein and merely highlight certain
pieces of evidence for purposes of context.
Dr. Margo Prade was murdered on the morning of
November 26, 1997, in the parking lot of her medical
office. A lone assailant waited for her, approached her
mini-van, entered on the front passenger’s side, and
shot her six times before fleeing. Signs of a struggle
were evident from the scene inside the van, but none
of Dr. Prade’s personal belongings were taken. The
murder weapon was never found and there were no
witnesses to the actual murder. Yet, a bite mark,
evidently left by the killer, was found on the underside
of Dr. Prade’s upper, left arm. She was wearing her
lab coat at the time of her murder, so the section of the
coat that encompassed the bite mark (“the bite mark
section”) was removed for DNA testing. At trial, the
jury heard testimony from DNA experts as well as bite
mark identification experts.
With regard to the DNA testing, the jury heard from
Thomas Callaghan, a forensic DNA examiner for the
FBI. He explained that the FBI used polymerase
chain reaction testing (“PCR testing”) to test three
cuttings from the bite mark section. Because the bite
mark section was saturated with Dr. Prade’s blood,

10a
however, the PCR testing only uncovered a single
DNA profile consistent with her DNA. No additional
profile that might have belonged to the killer emerged.
Consequently, even if the killer had left DNA on the
bite mark section, the FBI’s tests were unable to detect
it.
With regard to bite mark identification, the jury
heard from three dental experts. See Prade, 2014Ohio-1035, at ¶ 63–70, 9 N.E.3d 1072. Dr. Lowell
Levine, the State’s first expert, testified that the bite
mark pattern left on Dr. Prade was consistent with
Mr. Prade’s dentition, meaning that he could have
caused it. Dr. Thomas Marshall, the State’s second
expert, testified that the bite mark pattern left on Dr.
Prade matched Mr. Prade’s dentition, meaning that he
definitively caused it. Finally, Dr. Peter Baum, Mr.
Prade’s expert, testified that it was virtually
impossible for Mr. Prade to bite anything due to a
poorly fitted upper denture.
Each expert was
subjected to rigorous cross-examination and each
made various concessions. For instance, Dr. Levine
readily admitted that Dr. Prade’s clothing could have
affected the bite mark impression, that someone other
than Mr. Prade could have caused it, and that he could
only say, based on the limited value of the impression,
that Mr. Prade might have been responsible for it.
Accordingly, the jury heard a range of testimony on
the issue of bite mark identification.
The jury also heard a wealth of circumstantial
evidence tending to implicate Mr. Prade. See id. at
¶ 121–127. There was evidence that he was verbally
and physically abusive towards Dr. Prade during their
marriage and engaged in stalking behavior both before
and after they separated (e.g., wiretapping her calls,

11a
tracking her whereabouts, and accessing her medical
office in the middle of the night). There was evidence
that her murder occurred at a time when: (1) she was
contemplating a new marriage and more children; (2)
she planned on seeking a child support increase; (3)
Mr. Prade’s finances were in jeopardy; and (4) an
insurance policy on her life, for which Mr. Prade was
the sole beneficiary, was set to expire. With regard to
the latter, there was evidence that, shortly before the
murder, Mr. Prade handwrote a tally sheet,
subtracting his debts from that policy amount.
Two witnesses placed Mr. Prade at the murder
scene. The first witness said he saw Mr. Prade
walking in an area adjacent to Dr. Prade’s medical
building shortly before the murder. The second
witness said he saw Mr. Prade driving a car and
speeding from the medical building’s parking lot at a
time when the murder would have just occurred. The
gym where Mr. Prade claimed he was exercising
during the murder was only a six minute drive from
the murder scene, and Mr. Prade was unable to tender
a solid alibi witness. Moreover, there was evidence
that he appeared to have just showered when he
arrived at the murder scene some two hours after the
murder, despite his claim that he had spent the last
two hours exercising.
Dr. Prade’s murder itself “was premeditated and
very personal,” id. at ¶ 125, as her killer shot her six
times at close range and delivered a severe bite mark
during the struggle. The evidence also “refuted any
theory that a stranger had killed [her],” id., as her
killer approached her van in full view and entered in
spite of the van’s auto-lock feature (meaning that she
either unlocked the door or her killer had keys to the

12a
van). Her killer was familiar with her schedule and
lay in wait for her arrival. Additionally, there was
significant testimony, from multiple sources, that the
only person Dr. Prade feared and repeatedly had
issues with was Mr. Prade.
New DNA results that Mr. Prade obtained in 2012,
more than 14 years after Dr. Prade’s murder, were the
catalyst behind his request for a new trial. The new
tests were conducted using Y chromosome short
tandem repeat testing (“Y-STR testing”) and, for the
first time, male DNA was discovered within an area of
the bite mark section. Because Mr. Prade was
definitively excluded as the source of that male DNA,
he argued that there was a strong probability the new
DNA evidence would result in a different verdict, if
submitted to a jury. He further argued that he was
entitled to a new trial because, since 1998, bite mark
identification testimony had undergone significant
criticism. For ease of analysis, we separately address
the new DNA evidence and the new bite mark
identification evidence that Mr. Prade presented.
DNA Evidence
Prior to Mr. Prade’s trial, two laboratories examined
the bite mark section: the FBI and the Serological
Research Institute (“SERI”). As noted, the FBI
originally tested three areas of the bite mark section
using PCR testing and only obtained a single DNA
profile consistent with Dr. Prade’s DNA. Because YSTR testing did not exist at the time, the FBI was
unable to test the three cuttings solely for the presence
of male DNA. Nevertheless, the FBI swabbed the
three cuttings it made to create three extracts and
retained those extracts for future use.

13a
When the FBI completed its testing, SERI received
the bite mark section and tested it for amylase, a
component of saliva. SERI mapped the entire bite
mark section for amylase, meaning that its serologist
(1) placed the entire bite mark section face down on a
petri dish prepared with a hardened, gel solution, (2)
weighed down the bite mark section to ensure proper
contact, (3) left the bite mark section in place for
several minutes, (4) lifted the bite mark section away,
and (5) stained the gel solution in the petri dish with
iodine to identify positive amylase patterns. The
mapping test gave rise to three areas of “probable
amylase activity,” so SERI took cuttings from the bite
mark section at each of those three areas. SERI then
took two actions: it microscopically examined the
three cuttings and it performed an amylase diffusion
test in an attempt to extract and quantify any amylase
in those three areas. The results of the diffusion test
were that “[n]o amylase activity was detected.”
Meanwhile, the microscopic examination of the three
cuttings showed “few nucleated epithelial cells” (i.e.,
cells from the surface of one’s body, including the
mouth) on two of the cuttings and none on the third.
Following the FBI and SERI’s respective tests, the
bite mark section was introduced as an exhibit at Mr.
Prade’s trial and admitted into evidence. There was
testimony that, at trial, it was placed in an unsealed
envelope before being admitted into evidence. It was
then stored in that same unsealed envelope for more
than ten years.
At the end of 2010, the DNA Diagnostics Center
(“DDC”) took possession of the bite mark section as
well as the three extracts that the FBI originally had
created and retained. For reasons unknown, DDC was

14a
not able to obtain any DNA from the FBI’s three
extracts (i.e., not even Dr. Prade’s). As to the bite
mark section, DDC made a new cutting, extracted the
DNA contained therein, and performed Y-STR testing
on it. As explained in much greater detail in this
Court’s prior opinion, DDC obtained a partial male
profile from that extract (19.A.1) and was able to
exclude Mr. Prade as the source of that DNA. See
Prade, 2014-Ohio-1035, at ¶ 74, 9 N.E.3d 1072. That
test, however, only returned limited results. It was
estimated that the 19.A.1 extract only contained about
three to five cells (a far cry from the ideal testing
amount of 150 cells), and DDC was only able to
identify three out of possible sixteen genetic markers.
Seeking to capture more DNA and achieve a better
result, DDC decided to perform another test.
For its second test, DDC took three additional
cuttings from the bite mark section, extracted DNA
from them, and combined that extracted DNA with the
19.A.1 extract to form a new extract (19.A.2). When
DDC tested the new extract (19.A.2), it uncovered
about ten cells and achieved results at seven genetic
markers, but detected the partial profiles of at least
two males. See id. at ¶ 75–76. Mr. Prade was excluded
as a source of any of the DNA found within the 19.A.2
extract. Importantly, however, the predominant male
profile that emerged when DDC tested its first extract
(19.A.1) was different than the predominant male
profile that emerged when it tested its second extract
(19.A.2). See id. at ¶ 74–75, 115. Accordingly,
questions arose as to whether DDC had uncovered any
DNA that actually belonged to Dr. Prade’s killer or
whether it had only uncovered low-level DNA that was
present due to contamination and/or transfer.

15a
Following DDC’s tests, the bite mark section was
sent to the Bureau of Criminal Investigation (“BCI”)
for additional testing. BCI took one additional cutting
from the bite mark section and performed Y-STR
testing on the cutting itself, a swab from the front side
of the cutting, and a swab from the back side of the
cutting. BCI was unable to obtain any DNA profile
from the cutting itself, but the swabs of the cutting
produced a partial male profile. Even so, the swabs
returned results on so few genetic markers that BCI
did not have enough information to draw any
conclusions about the DNA it detected. See id. at ¶ 90.
Apart from testing the bite mark section, BCI also
conducted tests on other areas of Dr. Prade’s lab coat
to address the concern of widespread contamination.
BCI took cuttings from four other areas of the lab coat
and performed Y-STR testing on each area. See id. at
¶ 91. Its analyst failed to find any male DNA on any
of the four tested areas.
In reconsidering Mr. Prade’s motion for a new trial,
the trial court reviewed and heard anew a significant
amount of testimony from experts who attempted to
interpret all of the foregoing results. It was Mr.
Prade’s contention that at least some of the male DNA
found within the bite mark section belonged to Dr.
Prade’s killer, so a new jury, hearing for the first time
that he was not the source of any of that DNA, would
exonerate him. Upon review of the evidence, however,
the trial court rejected his contention. While the court
agreed that Mr. Prade had set forth newly discovered
DNA evidence, it found that he had failed to satisfy his
burden under State v. Petro. See Petro, 148 Ohio St.
505, 76 N.E.2d 370 at syllabus. The court determined
that the new DNA results were cumulative of the old

16a
results to the extent that both excluded Mr. Prade.
Further, it determined that the new results were of
questionable value because “more likely than not the
existence of the two partial male DNA profiles [that
DDC discovered] occurred due to incidental transfer
and/or contamination rather than containing the true
DNA from [the] killer.” When considering the new
results in light of the overwhelming, circumstantial
evidence against Mr. Prade at his trial, the court did
not find there to be a strong probability that the new
results would be outcome determinative if a new trial
was granted. See id. Consequently, it refused to
award Mr. Prade a new trial on the basis of the new
DNA results.
Mr. Prade argues that the court abused its
discretion when it concluded that the new DNA results
did not warrant a new trial. He argues that the new
results are not cumulative in nature and create a
strong probability that a new jury would reach a
different result. As to the latter point, he maintains
that multiple experts agreed it was highly likely that
Dr. Prade’s killer left DNA on her lab coat when biting
her. He asserts that it was unreasonable for the court,
in reviewing all the expert testimony, to conclude that
all of the new DNA results were attributable to
contamination and/or transfer DNA. Because the new
results create reasonable doubt as to his guilt, Mr.
Prade argues, the court ought to have granted his
motion for a new trial.
One of the experts Mr. Prade presented in support
of his motion for a new trial was Dr. Rick Straub, a
Ph.D. in genetics and independent consultant on
forensic DNA testing. It was Dr. Straub’s opinion that
Dr. Prade’s killer left his DNA on her lab coat and that

17a
the new DNA found within the bite mark section was
“highly likely to be from the killer.” He reasoned that
the mouth is such a rich source of DNA that one would
expect to find the killer’s DNA “ ‘before one would find
the Y-STR profile of a male who engaged in incidental
touching of the lab coat before or after the attack.’ ”
Prade, 2014-Ohio-1035, at ¶ 80, 9 N.E.3d 1072. While
SERI was unable to detect any quantifiable amount of
amylase during its diffusion test in 1998, Dr. Straub
had no doubt that its initial mapping test detected
amylase. He explained that both the serologist’s notes
and a photograph of the completed mapping test
supported that conclusion, as did the fact that the
microscopic examination of two of the cuttings had
revealed epithelial cells. Even so, he acknowledged
that the serologist only saw a “few” epithelial cells and
ultimately reported that “[n]o amylase activity was
detected.”
Dr. Straub conceded that the second extract DDC
tested (19.A.2) uncovered the partial profiles of at
least two males. He further conceded that there was
not a significant difference in the amount of cells
attributable to each male. Dr. Straub believed that
one of the males was the killer, but he was unable to
say which male it was. He also was unable to say
when or how at least one additional male’s DNA came
to be deposited on the bite mark section, other than to
say that “[i]t would have had to have gotten on that
lab coat in some way, shape or form.”
Assuming that the killer did deposit his DNA on the
bite mark section, Dr. Straub testified to a number of
factors that could have affected how much of that DNA
remained by 2010. He indicated that DNA naturally
degrades over time and the fact that both the FBI and

18a
SERI had already taken a total of six cuttings from the
bite mark section “definitely de-crease[d] [the] chances
of finding a significant amount of DNA * * *.” He also
agreed that SERI’s amylase mapping test was
destructive in nature. He testified that “once you run
that test, there’s a really high probability that most of
[the DNA] cells are removed from the material * * *.”
Given the limited results that DDC obtained, Dr.
Straub agreed that any rich supply of DNA left by the
killer had been removed or degraded. He further
agreed that if all of the new DNA results were
attributable to contamination Mr. Prade’s exclusion
result “would be meaningless.”
The second DNA expert that Mr. Prade presented in
support of his motion for a new trial was Dr. Julie
Heinig, the Assistant Laboratory Director for DDC. In
Dr. Heinig’s opinion, it was “highly probable” that Dr.
Prade’s killer left DNA on her lab coat and that DDC
uncovered it when testing the bite mark section. Much
like Dr. Straub, she described the mouth as a rich
source of DNA. She relied on that fact and the fact
that a serologist had seen epithelial cells on cuttings
taken from the bite mark section in 1998 to reach her
conclusion that the male DNA found within the bite
mark section was “substantially more likely” to have
come from the killer than from another male who had
incidentally come into contact with that area. Prade,
2014-Ohio-1035, at ¶ 76, 9 N.E.3d 1072. Although
DNA naturally degrades over time, Dr. Heinig was of
the opinion that at least some of the killer’s DNA still
would have been present when DDC tested the bite
mark section. She indicated multiple times that she
found it unlikely DDC had only uncovered male DNA

19a
that was present due to contamination and/or
transfer.
Dr. Heinig acknowledged that the type of mapping
test SERI performed on the bite mark section in 1998
was no longer routinely employed because it was a
“very destructive” test. In fact, she stated that she
“would expect [that test] to remove all of the cellular
material” on an item. With respect to contamination,
she agreed that the bite mark section was placed in an
unsealed envelope at trial, was entered as an exhibit,
and was stored in the unsealed envelope until DDC’s
technicians received it more than ten years later. She
also agreed that the bite mark section had been tested
numerous times over the years, thereby increasing the
risk of possible contamination. She conceded that
contamination and/or transfer DNA is one explanation
for the appearance of below-threshold results at
genetic markers within a tested sample.
As to the test DDC performed on the extract labeled
19.A.2, Dr. Heinig agreed that the extract contained
the DNA of at least two males. She admitted that she
was unable to label either male’s profile as the major
or minor one due to the limited results her lab
obtained. Indeed, she could not even quantify the
extremely low number of cells that DDC had obtained
from its tests. See id. at ¶ 78. Assuming that one of
the profiles belonged to the killer, she was unable to
say which one it was or when any of the DNA
associated with those profiles had been deposited. She
“conceded that, in order to have two different male
profiles, either contamination or DNA from transfer
DNA had to have occurred.” Id. Further, she agreed
that Mr. Prade’s exclusion result was meaningless if

20a
all of the new DNA results were attributable to
contamination.
One of the experts the State presented in opposition
to Mr. Prade’s motion for a new trial was Dr. Elizabeth
Benzinger, the Director of Research, Training, and
Development at BCI. Dr. Benzinger opined that the
male DNA found within the bite mark section was
“ ‘most easily explained by incidental transfer
(patients, police, lab workers, court officials).’ ” Id. at
¶ 85. She reached that conclusion based on the
extremely limited results that DDC and BCI obtained
and the fact that, within those low-level results, DDC
uncovered the partial profiles of multiple males. She
testified that there is currently no mechanism for
dating DNA, so it was impossible to determine when
the DNA that DDC found was deposited. Though
SERI reported probable amylase activity when
conducting its mapping test in 1998, Dr. Benzinger
opined that the lack of results on its subsequent,
diffusion test cast doubts on the serologist’s
interpretation of the first test. Even if Dr. Prade’s
killer did leave behind some quantity of amylase and
DNA on the bite mark section, however, Dr. Benzinger
testified that it may not have been a high quantity to
begin with and other factors such as degradation and
destruction due to previous testing may have affected
that quantity.
The second witness to testify for the State was Dr.
Lewis Maddox, the DNA technical leader for BCI.
Much like Dr. Heinig, Dr. Maddox opined that the
male DNA found within the bite mark section was best
explained by contamination and/or transfer. He noted
that, even back in 1998, SERI only observed “a few
nucleated epithelial cells on two of the sampled areas

21a
and none on the third area.” He also noted that SERI
was unable to confirm the presence of amylase within
the bite mark section through quantification. He could
not say if that was because there was so little there or
because the mapping test had resulted in a false
positive. Either way, however, Dr. Maddox would
have expected to see quantifiable results “had there
been a ‘slobbering killer,’ as suggested by one of the
defense witnesses at trial.” Prade, 2014-Ohio-1035, at
¶ 89, 9 N.E.3d 1072.
As to the results of DDC’s tests, Dr. Maddox
confirmed that they were all “low level” results and
“definitely [from] more than one contributor * * *.” He
explained that no strong profile emerged such that
there was “not a great difference between [the] two
profiles” detected within the 19.A.2 extraction. Had
the killer left a significant amount of DNA on the bite
mark section, Dr. Maddox indicated that he would
have expected “ ‘a male profile of strong significant
signal’ “ to have emerged. Id. He was unable to say
with any degree of confidence that the male DNA
found within the bite mark section came from the
killer. He noted that BCI had not detected any male
DNA on four other areas of Dr. Prade’s lab coat (i.e.,
areas outside the bite mark section). According to Dr.
Maddox, that fact caused him concern as an analyst
because it suggested that the reason the bite mark
section gave rise to inconsistent, low-level results
while the lab coat did not was that the bite mark
section had been “the primary focus of attention” over
the years and handled by a significant number of
individuals. He indicated that, overall, the results
DDC obtained did not appear to be very useful.

22a
Having reviewed the record, this Court cannot
conclude that the trial court abused its discretion
when it rejected Mr. Prade’s request for a new trial on
the basis of the new DNA results. See Tolliver, 2017Ohio-4214, at ¶ 18. That is because, even if the new
results are not cumulative of the old ones, Mr. Prade
has not shown that there is a strong probability the
new results would lead to a different outcome if
introduced at a new trial. See State v. Holmes, 9th
Dist. Lorain No. 05CA008711, 2006-Ohio-1310, 2006
WL 709100, ¶ 15 (new trial petitioner “has the burden
of demonstrating that the newly discovered evidence
created a strong probability of a different result if a
new trial was granted”). The “ ‘mere possibility’ ” that
a new trial might lead to a different outcome is an
insufficient basis upon which to grant a motion for a
new trial. State v. Murley, 2d Dist. Champaign No. 08CA-26, 2009-Ohio-6393, 2009 WL 4547850, ¶ 26,
quoting 90 Ohio Jurisprudence 3d, Trial, Section 665
(2009). See also State v. Pannell, 9th Dist. Wayne No.
96CA0009, 1996 WL 515540, *4–5, 1996 Ohio App.
LEXIS 3967, *13–14 (Sept. 11, 1996).
Although both of Mr. Prade’s experts were of the
opinion that it was “highly likely” or “highly probable”
that DDC discovered the killer’s DNA within the bite
mark section, both made several critical concessions.
For example, both conceded that DDC detected the
partial profiles of at least two males within the bite
mark section and that neither one emerged as the
significantly stronger profile. See Prade, 2014-Ohio1035, at ¶ 115, 9 N.E.3d 1072. There was testimony
that, for that to have happened, some degree of
contamination had to have occurred. Further, while
Mr. Prade’s experts rejected the notion that all of

23a
DDC’s results were attributable to contamination,
they both conceded that, within a year of the murder,
SERI was unable to detect any quantifiable amount of
amylase. See id. at ¶ 117 (noting that SERI’s failure
to detect any quantifiable amount of amylase
“undercut[ ] the assumption * * * that there had to be
DNA from the biter on the lab coat due to the large
amount of DNA in saliva.”). They also both agreed
that SERI subjected the entire bite mark section to a
very destructive mapping test. Indeed, Dr. Heinig
went so far as to say that she “would expect [that test]
to remove all of the cellular material” on an item.
(Emphasis added.) That portion of her testimony was
inconsistent with her foundational logic that the
killer’s DNA must have endured due to the wealth of
DNA contained in one’s mouth.
Moreover, she
conceded that contamination is one explanation for the
type of low-level results that DDC’s and BCI’s tests
produced. In reviewing all of the evidence, the trial
court reasonably could have questioned the ultimate
opinions of Mr. Prade’s experts.
Neither Mr. Prade’s experts, nor the State’s experts
could say when or how the male DNA that DDC
uncovered was deposited on the bite mark section.
The trial court heard testimony that DNA naturally
degrades over time and that, by 2010, the bite mark
section had already been highly sampled and
subjected to several rounds of testing. Not even the
three original extracts that the FBI sealed and
retained produced any results when DDC tested them,
despite widespread agreement that, at the very least,
Dr. Prade’s DNA should have been present. As such,
there was ample reason for the trial court to conclude
that both the passage of time and the amount of

24a
exposure the bite mark section had endured over the
years were factors that bore upon the meaningfulness
of the new DNA results. Given that fact and the fact
that the State’s experts both attributed the new
results to contamination, the court reasonably could
have concluded that the new results were of
questionable value. It also reasonably could have
concluded that those results would not be outcome
determinative if introduced at a new trial. See Petro,
148 Ohio St. 505, 76 N.E.2d 370 at syllabus.
This Court has recognized that “a new trial is an
extraordinary measure and should be granted only
when the evidence presented weighs heavily in favor
of the moving party.” State v. Gilcreast, 9th Dist.
Summit No. 21533, 2003-Ohio-7177, 2003 WL
23094873, ¶ 54. As detailed in our prior opinion, the
State set forth an overwhelming amount of evidence
against Mr. Prade at his trial. See Prade at ¶ 20–70,
121.
The picture painted by that evidence was one of
an abusive, domineering husband who became
accustomed to a certain standard of living and
who spiraled out of control after his successful
wife finally divorced him, forced him out of the
house, found happiness with another man, and
threatened his dwindling finances. The evidence,
while all circumstantial in nature, came from
numerous, independent sources and provided
answers for both the means and the motive for
the murder.
Id. at ¶ 121. Although Mr. Prade’s DNA profile did not
match either of the partial profiles that DDC
discovered, the partial profiles were of an entirely

25a
questionable value, given the significant and valid
concerns that they all stemmed from contamination.
Compare State v. Jones, 9th Summit No. 26568, 2013Ohio-2986, 2013 WL 3486843, ¶ 15–21 (retrial
warranted where new DNA testing uncovered clear
major and minor male DNA profiles and none of the
tests identified the defendant as a contributor); State
v. Georgekopoulos, 9th Dist. Summit No. 22491, 2005Ohio-5106, 2005 WL 2374938 (retrial warranted
where new photographic evidence showed that the
State’s theory of the case was an impossibility). As
noted, “ ‘[t]he mere possibility of a different outcome is
insufficient’ ” to warrant the granting of a motion for
new trial. Murley, 2009-Ohio-6393, at ¶ 26, quoting
90 Ohio Jurisprudence 3d, Trial, Section 665 (2009).
Bearing in mind the deferential standard of review
that applies in this matter, we must conclude that the
trial court acted within its sound discretion when it
refused to award Mr. Prade the extraordinary
measure of a new trial. See Tolliver, 2017-Ohio-4214,
at ¶ 18; Gilcreast at ¶ 54. Because Mr. Prade did not
show that the new DNA results “disclose[d] a strong
probability that [they] [would] change the result if a
new trial [was] granted,’ ” the trial court’s decision to
deny his motion for a new trial on that basis was
neither
unreasonable,
nor
arbitrary,
nor
unconscionable. Petro at syllabus. This Court rejects
his argument to the contrary.
Bite Mark Identification
As noted, three dental experts testified at Mr.
Prade’s trial and offered a range of testimony related
to the bite mark impression left on Dr. Prade’s lab coat
and the bruising pattern left on her skin. In his
original motion for a new trial, Mr. Prade included a

26a
request for relief based on evidence that, since 1998,
the science behind bite mark identification had
sustained significant criticism. He presented the
testimony of Dr. Mary Bush, an expert in forensic
odontology research, who testified in great detail that
neither the uniqueness of human dentition, nor its
ability to transfer onto human skin in a unique way
had been scientifically proven. See Prade, 2014-Ohio1035, at ¶ 92–95, 9 N.E.3d 1072. Additionally, he
pointed the court to a number of scholarly works,
including a 2009 report from the National Academy of
Sciences, questioning the reliability of bite mark
identification testimony.
In response to Mr. Prade’s motion, the State offered
the testimony of Dr. Franklin Wright, Jr., an expert in
forensic odontology. Id. at ¶ 96–101. Dr. Wright
criticized several aspects of Dr. Bush’s research
methodology and the conclusions she drew therefrom.
He opined that “bite mark evidence is generally
accepted within the scientific community, but its value
in any specific case depends upon the subjective
interpretation of the analyst examining it.” Id. at
¶ 96. He testified that bite mark evidence was best
used “as part of * * * the total evidence[ ] that exists in
[a] case” and cautioned against its use as the sole piece
of evidence in a case. As to the bite mark testimony
that the State presented at Mr. Prade’s trial, Dr.
Wright acknowledged that it was problematic in
several respects. Id. at ¶ 101. In particular, he took
issue with (1) Dr. Marshall’s decision to testify in
absolute terms that Mr. Prade was the biter, and (2)
Dr. Lowell’s ultimate conclusion that Mr. Prade’s
dentition was consistent with the bite mark. He
explained that he was critical of Dr. Lowell’s

27a
conclusion because Dr. Lowell admitted that he had
struggled to identify individual characteristics when
studying pictures of the bite mark.
Following this Court’s remand in response to the
trial court’s actual innocence ruling, Mr. Prade
supplemented his motion for a new trial with
additional evidence. First, he supplied the court with
a DVD recording of a television broadcast interview,
wherein three of the jurors from his trial discussed
how the State’s bite mark evidence had influenced
their verdict. Second, he supplied the court with the
affidavit of another expert, Dr. Iain Alastair Pretty.
Dr. Pretty attested to recent, significant changes to
the guidelines for forensic bite mark analysis, as
established by the American Board of Forensic
Odontology (“the ABFO”). He stated that, under the
new guidelines, the ABFO would disavow any expert
opinion that purported to identify a specific individual
as the one who actually caused a bite mark in an open
population case (i.e., a case where “the universe of
potential suspects is unknown”). He reviewed several
photographs of the bite mark injury to Dr. Prade’s arm
and noted that he was unable to discern any individual
tooth characteristics. He opined that, if the case were
retried today, “there could be no opinion presented,
consistent with ABFO guidelines, that pur-port[ed] to
link the victim’s injury to Mr. Prade’s (or anyone
else’s) dentition.”
The trial court, on remand, declined to receive any
oral testimony on the issue of bite mark evidence when
it conducted additional hearings on the new DNA
results. Instead, it allowed the parties to brief the
issue and reviewed their written materials in
conjunction with the testimony produced at the

28a
original hearings on Mr. Prade’s motion for a new
trial. The trial court ultimately determined that Mr.
Prade’s newly submitted evidence did not warrant a
new trial. The court found that “[t]he reliability of bite
mark evidence [had] been a matter of contention for
decades – long before the 1998 trial[–]” and that Mr.
Prade’s evidence merely reiterated the “same basic
criticisms” that had existed at the time of trial. It
found that Mr. Prade’s evidence was largely
cumulative of the specific expert testimony offered at
the trial, as the jury had heard a wide range of
testimony on the reliability of bite mark identification.
See Petro, 148 Ohio St. 505, 76 N.E.2d 370 at syllabus.
Further, it found that the evidence merely impeached
certain aspects of that testimony, see id., and did not
eclipse the staggering amount of circumstantial
evidence that had implicated Mr. Prade. The court
concluded that Mr. Prade was not entitled to a new
trial because he had failed to set forth newly
discovered evidence or show that there was a strong
probability his newly submitted evidence would lead
to a different result if a new trial was granted. See id.
Mr. Prade’s argument on appeal is two-fold. First,
he argues that the trial court abused its discretion
when it refused to consider the television broadcast
interview that he attached to his supplemental motion
for a new trial. He argues that the interview
evidenced the fact that at least three of the jurors who
convicted him did so solely on the basis of the State’s
bite mark evidence. According to Mr. Prade, the
interview was admissible in support of his motion for
a new trial because he introduced it to show how the
new bite mark evidence would change the result in

29a
this matter, not to “invalidate or challenge the original
verdict in the sense Evid.R. 606(B) contemplates.”
Second, Mr. Prade argues that the trial court
abused its discretion by denying his motion for a new
trial on its merits. He argues that the evidence he
submitted about the reliability of bite mark
identification casts serious doubts upon the expert
testimony that the State introduced at his trial. He
asserts that it was unreasonable for the court to
portray the newly submitted evidence as cumulative
of the old evidence because the newly submitted
evidence demonstrated that, if the matter were retried
today, the State would be unable to offer any expert
testimony linking him to the bite mark. Because
unreliable bite mark testimony resulted in his
conviction, he argues, there is a strong probability that
the newly submitted evidence would change the result
in this matter if a new trial was granted.
Upon review, this Court cannot address the merits
of Mr. Prade’s first argument that the trial court
abused its discretion by excluding the television
broadcast interview. That is because he has not
provided us with an adequate record for our review.
State v. Farnsworth, 9th Dist. Medina No. 15CA0038M, 2016-Ohio-7919, 2016 WL 6948079, ¶ 16 (“It is the
appellant’s responsibility to ensure that the record on
appeal contains all matters necessary to allow this
Court to resolve the issues on appeal.”). According to
Mr. Prade, the court conducted a hearing on June 12,
2015, and, at that hearing, entered its ruling on the
admissibility of the interview. The record, however,
does not contain a transcript from that hearing. Nor
does it contain any oral or written ruling from the trial
court, addressing the admissibility of the interview.

30a
As such, we cannot say whether the court found the
interview inadmissible, or, if it did, whether it
committed reversible error in doing so. See State v.
Ecker, 9th Dist. Summit No. 28431, 2018-Ohio-940,
2018 WL 1320743, ¶ 20 (absent an issue of law, an
appellate court generally applies the abuse of
discretion standard when reviewing evidentiary
determinations). Because Mr. Prade has not supplied
this Court with an adequate record, we cannot review
his argument on that point. See State v. Milano, 9th
Dist. Summit No. 28674, 2018-Ohio-1367, 2018 WL
1750475, ¶ 15, fn. 1, quoting State v. Knox, 9th Dist.
Lorain No. 16CA010985, 2018-Ohio-43, 2018 WL
327831, ¶ 12 (an appellant “may not hope to ‘predicate
reversal upon the basis of a silent record’ ”).
Accordingly, we must presume regularity in the
proceedings below insofar as Mr. Prade’s argument
concerns the television broadcast interview. See State
v. Burden, 9th Dist. Summit No. 28367, 2017-Ohio4420, 2017 WL 2672460, ¶ 7.
Having reviewed the record, we must conclude that
the trial court acted within its discretion when it
refused to award Mr. Prade a new trial on the basis of
the bite mark evidence he presented. See Tolliver,
2017-Ohio-4214, at ¶ 18. Crim.R. 33(A)(6) only
permits a defendant to seek a new trial upon the
discovery of “new evidence” that he or she “could not
with reasonable diligence have discovered and
produced at the trial.” Accord Petro, 148 Ohio St. 505,
76 N.E.2d 370 at syllabus. If a defendant could have
discovered and produced evidence for trial, then that
evidence is not the proper subject of a motion filed
under Crim.R. 33(A)(6). State v. Patton, 9th Dist.
Summit No. 17432, 1996 WL 63028, *3–4, 1996 Ohio

31a
App. LEXIS 482, *9 (Feb. 14, 1996). Likewise, a
defendant cannot prevail upon a Crim.R. 33(A)(6)
motion if the motion rests upon evidence that is merely
cumulative
of
former
evidence
or
merely
impeaches/contradicts it. Petro at syllabus. Accord
Jalowiec, 2015-Ohio-5042, at ¶ 40, 52 N.E.3d 244;
State v. Diaz, 9th Dist. Lorain No. 02CA008069, 2003Ohio-1132, 2003 WL 1038143, ¶ 32. Because Mr.
Prade failed to set forth “new evidence” that was
neither cumulative of the trial testimony, nor served
merely to impeach or contradict it, he was not entitled
to relief under Crim.R. 33(A)(6).
In essence, Mr. Prade set forth evidence that, since
1998, additional research has resulted in amended
guidelines, recommendations, and opinions about the
reliability of bite mark identification evidence and the
conclusions that an expert might reliably draw in any
given case. As noted, however, the original jury in this
matter heard a wide range of testimony on bite mark
identification. See Prade, 2014-Ohio-1035, at ¶ 63–70,
129, 9 N.E.3d 1072.
That testimony included
significant criticisms about the reliability of bite mark
identification, as elicited by defense counsel on crossexamination. Indeed, even on direct examination, the
State’s first expert (Dr. Levine) drew attention to the
limitations of such evidence, stressed that it should
not be used as the only evidence in any case, and
indicated that, at best, he could only say that Mr.
Prade could have made the bite mark in this case.
Given the nature of the testimony introduced at trial,
it was not unreasonable for the trial court to reject Mr.
Prade’s motion on the basis that his newly submitted
evidence was merely cumulative of the trial testimony
or merely served to impeach or contradict portions of

32a
it (e.g., Dr. Marshall’s opinion that Mr. Prade
definitively caused the bite mark). See Petro, 148 Ohio
St. 505, 76 N.E.2d 370 at syllabus. More importantly,
however, it was not unreasonable for the court to reject
Mr. Prade’s motion because it was unsupported by any
newly discovered evidence.
As noted, Crim.R. 33(A)(6) only provides an avenue
for relief when a defendant uncovers “new evidence.”
The record supports the trial court’s determination
that Mr. Prade’s newly submitted evidence merely
spoke to the “same basic criticisms” that had plagued
bite mark identification evidence “for decades.” While
the specific experts or studies Mr. Prade identified in
his motion for new trial might not have been available
to him in 1998, there was nothing to prevent him from
discovering and producing for trial other similar
opinions and studies about the unreliability of bite
mark identification evidence.4 He chose not do to so.
Instead, he relied upon vigorous cross-examination
and a defense expert who opined that he was incapable
of inflicting the bite mark in this case. Mr. Prade
cannot now attempt to cast additional criticisms about
the reliability of bite mark evidence as “new evidence.”
See Crim.R. 33(A)(6); Petro, 148 Ohio St. 505, 76
N.E.2d 370 at syllabus. Moreover, even assuming that
he did, in fact, introduce some “new evidence” in
support of his motion, the trial court reasonably could
have determined that it was unlikely to change the
outcome here. See Jalowiec, 2015-Ohio-5042, at ¶ 38,
4

Notably, in opposing Mr. Prade’s request for a new trial, the
State offered a wealth of citations to articles and other literature
that predated Mr. Prade’s trial and criticized the reliability of bite
mark identification.

33a
52 N.E.3d 244 (“Evidence that impeaches or
contradicts the evidence at trial is not excluded from
consideration per se, but the character of that evidence
is relevant to whether a different result is a strong
probability [under Petro ].”).
The State set forth an overwhelming amount of
evidence against Mr. Prade at trial. See Prade, 2014Ohio-1035, at ¶ 20–70, 121, 9 N.E.3d 1072. It is not
clear that any one piece of evidence, including the bite
mark testimony, led the jury to convict him. His
argument that, if this matter were retried today, the
State would be unable to offer any admissible,
inculpatory expert testimony linking him to the bite
mark in this case is wholly speculative.
That
determination would be left to the sound discretion of
the trial court in its gatekeeping function under
Daubert v. Merrell-Dow Pharmaceuticals, Inc., 509
U.S. 579, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993), and
this Court is not at liberty to predict which experts the
State would actually tender or what testimony the
trial court would or would not allow in the event of a
retrial. See, e.g., State v. Jackson, 9th Dist. Summit
Nos. 27132, 2015-Ohio-5246, 2015 WL 9048666, ¶ 51–
54; State v. Reives-Bey, 9th Dist. Summit No. 25138,
2011-Ohio-1778, 2011 WL 1378939, ¶ 18. Even if it is
possible that the new bite mark evidence would lead
to a different result upon retrial, “ ‘[t]he mere
possibility of a different outcome is insufficient’ “ to
warrant the granting of a motion for new trial.
Murley, 2009-Ohio-6393, at ¶ 26, quoting 90 Ohio
Jurisprudence 3d, Trial, Section 665 (2009). Having
carefully reviewed the record and continuing to bear
in mind the deferential standard of review that applies
in this matter, we must conclude that the trial court

34a
acted within its sound discretion when it refused to
award Mr. Prade the extraordinary measure of a new
trial. See Tolliver, 2017-Ohio-4214, at ¶ 18; Gilcreast
at ¶ 54. Accordingly, his sole assignment of error is
overruled.
III.
Mr. Prade’s sole assignment of error is overruled.
The judgment of the Summit County Court of Common
Pleas is affirmed.
Judgment affirmed.
SCHAFER, P. J.
HENSAL, J.
CONCUR.

35a

APPENDIX B

The Supreme Court of Ohio

State of Ohio
v.
Douglas Prade

<<
<<
<<
<<
<<
<<
<<
<<

Case No. 2019-0019
ENTRY

Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Summit County Court of Appeals; No. 28193)

________________________
SHARON L. KENNEDY
Acting Chief Justice

The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

36a

APPENDIX C

IN THE COURT OF APPEALS
NINTH JUDICIAL DISTRICT
STATE OF OHIO
COUNTY OF SUMMIT
STATE OF OHIO,
Appellee,
v.
DOUGLAS PRADE,
Appellant.

)
)ss:
)
)
)
)
C.A. No. 28193
)
)
JOURNAL ENTRY
)
)
)

Appellant has moved this Court to reconsider its
September 5, 2018 judgment, affirming the trial
court’s decision to deny his motion for a new trial. The
State has responded in opposition, and Appellant has
filed a reply brief.
In determining whether to grant an application for
reconsideration, a court of appeals must review the
application to see if it calls to the attention of the court
an obvious error in its decision or if it raises issues not
considered properly by the court. Garfield Hts. City
School Dist. v. State Bd. of Edn., 85 Ohio App.3d 117,
127 (10th Dist.1992). On appeal, this Court presumed
regularity in these proceedings insofar as Appellant’s

37a
argument concerned the trial court’s ruling on the
admission of a television broadcast interview
(Exhibit 61). State v. Prade, 9th Dist. Summit No.
28193, 2018-Ohio-3551, § 51. Because the record did
not contain a transcript of a hearing that took place on
June 12, 2015, we concluded that we were unable to
review Appellant’s argument. Id. Appellant argues
that this Court committed an obvious error in that
decision because the trial court reached its
admissibility determination at a hearing that occurred
on November 5, 2015, not June 12th. According to
Appellant, at the June 12th hearing, the trial court
simply heard arguments from the parties on the
admissibility of the exhibit and took the matter under
advisement.
Because the court’s ultimate
admissibility determination on November 5th was
part of the record, Appellant argues, this Court erred
by not considering his argument on its merits.
Appellant is correct that, on November 5th, the trial
court referenced Exhibit 61 and noted that it was
excluded. Specifically, it stated:
Defense Exhibit 50 * * * [t]hat’s being excluded.
So is 50, 51, 52, 53, 54, 55, 56, 57, 58, 59, 60, and
61. All not admitted for today and yesterday’s
proceeding.
Yet, the court did not otherwise discuss Exhibit 61
or the basis for its ruling. On appeal, Appellant
asserted that he introduced Exhibit 61 at a hearing
that occurred on June 12th. He asserted that the
State objected to the admission of the exhibit because
its admission violated Evid.R. 606(B), and the trial
court sustained the State’s objection. He then argued

38a
at length that the admission of the exhibit did not
violate the evidence aliunde rule.
Because the record on appeal did not contain a
transcript from the June 12th hearing, this Court had
no way to determine what occurred at that proceeding.
When referencing Exhibit 61 at the November 5th
hearing, the trial court made no reference to the
evidence aliunde rule. Nor did it indicate that it had
taken Exhibit 61’s admissibility under advisement
such that it had yet to rule on that issue. Appellant
essentially asked this Court to infer that the trial
court had excluded Exhibit 61 on the basis of the
evidence aliunde rule.
Without the June 12th
transcript, however, this Court lacked any context for
the trial court’s ruling, could not confirm that the
evidence aliunde rule was the basis for its ruling, and
was unable to determine that its ruling took place on
November 5th rather than June 12th.
While
Appellant might have thought otherwise at the time,
the June 12th transcript was necessary for this Court
to conduct an adequate review.
We must conclude that Appellant it not entitled to
reconsideration. On appeal, we ultimately determined
that we could not review Appellant’s argument
because he failed to supply us with an adequate
record. See Prade, 2018-Ohio-3551, at ¶ 51. Appellant
has not shown that this Court committed an obvious
error in reaching that conclusion. See Garfield Hts.
City School Dist., 85 Ohio App.3d at 127. To the extent
Appellant moves to supplement the record with the
missing transcript pursuant to App.R. 9(E), the
motion is denied. Appellant chose not to file the
June 12th transcript on direct appeal. Its omission
was not inadvertent or due to an error on the part of

39a
the court reporter. Compare Reichert v. Ingersoll, 18
Ohio St.3d 220, 222 (1985). Given that Appellant had
an opportunity to submit the transcript and that his
appeal has already been decided, his request to
supplement the record is denied.
For the foregoing reasons, the application for
reconsideration is denied.

________________________
THOMAS A. TEODOSIO
JUDGE
Concur:
Schafer, P. J.
Hensal, J.

40a

APPENDIX D

IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO

STATE OF OHIO
Plaintiff,
v.
DOUGLAS
PRADE
Defendant

)
)
)
)
)
)
)
)
)
)

CASE NO.: CR 1998-020463
JUDGE CHRISTINE
CROCE
ORDER ON
DEFENDANT’S
MOTION FOR NEW
TRIAL

This matter comes before the Court on Defendant
Douglas Prade’s Motion for New Trial. The Court has
been advised, having reviewed the Motion; prehearing and post-hearing briefs; the DNA expert
testimony and exhibits from the November 2015
hearing; the transcripts and exhibits from the October
2012 hearing; the transcripts and exhibits from the
underlying trial; the applicable Ninth District Court of
Appeals and Ohio Supreme Court decisions relating to
this Defendant; and applicable law.

41a
PROCEDURAL HISTORY
This Court will not address the full procedural
history of this case, but rather, it will address the
history as it relates to the pending Motion for New
Trial. On January 29, 2013, the Honorable Judge
Judy Hunter issued a 25 page decision regarding the
Defendant Douglas Prade’s Petition for Post
Conviction Relief and Motion for New Trial. Judge
Hunter granted the Petition for Post Conviction Relief
and, in the alternative, held that the Motion for New
Trial be granted should the Petition be overturned on
appeal.
The State separately appealed the Order granting
the Petition for Post Conviction Relief (C.A. No. 26775)
and the Motion for New Trial (C.A. No. 26814 and C.A.
No. 27323). With respect to the Petition for Post
Conviction Relief, the Ninth District Court of Appeals
reversed the trial court — concluding that, based upon
the enormity of evidence in support of the Defendant’s
guilt, and the fact that the meaningfulness of DNA
exclusion was far from clear, this Defendant did not
meet his burden of establishing by clear and
convincing evidence his actual innocence. State v.
Prade, 9th Dist. No. 26775, 2014-Ohio-1035, ¶145.
With respect to the Motion for New Trial, the Ninth
District Court ultimately found that the trial court’s
order granting the Motion for New Trial was not a
final and appealable order, but rather, a conditional
order. As such, the Ninth District Court determined
that the Order on the Motion for New Trial needed to
be issued on an unconditional basis. Id. The Ohio
Supreme Court declined to hear the appeals on either
the Petition for Post Conviction Relief or the Motion

42a
for New Trial. (Case No. 2014-0432 and Case No.
2014-1992).
At an oral hearing on June 12, 2015, the Defendant
argued that this Court should grant a new trial based
on newly discovered DNA evidence; newly discovered
evidence in the area of forensic odontology, as well as
eyewitness identification; and be permitted to submit
testimony and argument as to each of those issues
during any subsequent hearings. After hearing oral
arguments, this Court ruled that in deciding the issue
of a new trial, it would only take testimony; as it
related to newly discovered DNA evidence. Further,
this Court held it would accept written briefs as to
whether it should grant a new trial on newly
discovered evidence in the area of forensic odontology
and any other arguments for a new trial based solely
on newly discovered evidence.
The parties have fully briefed the issues, as well as
provided testimonial evidence at a hearing regarding
the DNA Y - Chromosome Short Tandem Repeat (YSTR) testing. This matte is now ripe for ruling.
MOTION FOR NEW TRIAL STANDARD – THE
PETRO TEST
Crim.R. 33(A)(6) provides that a new trial may be
granted “when new evidence material to the defense is
discovered which the defendant could not with
reasonable diligence have discovered and produced at
trial.”
To warrant the granting of a motion for a new
trial in a criminal case, based upon the ground of
newly discovered evidence, it must be shown that
the new evidence (1) discloses a strong
probability that it will change the result if a new

43a
trial is granted, (2) has been discovered since the
trial, (3) is such that could not in the exercise of
due diligence have been discovered before the
trial, (4) is material to the issues, (5) is not merely
cumulative to former evidence, and (6) does not
merely impeach or contradict the former
evidence.
State v. Petro (1947), 148 Ohio St. 505, syllabus.
And finally, in order to properly address a motion
for new trial, the trial court must look at the new
evidence in the context of all the former evidence at
trial. State v. Gillispie, 2nd Dist. No. 24456, 2012Ohio-1656, ¶35.
In general, the stronger the evidence of guilt
adduced at trial, the stronger the newly
discovered evidence would have to be in order to
produce a strong probability of a different result.
Conversely, the weaker the evidence of guilt at
trial, the less compelling the newly discovered
evidence would have to be in order to produce a
strong probability of a different result. In view of
the beyond-a- reasonable-doubt burden of proof,
newly discovered evidence need not conclusively
establish a defendant’s innocence in order to
create a strong probability that a jury in a new
trial would find reasonable doubt.
Id.
STRONG PROBABILITY
“A new trial is an extraordinary measure and should
be granted only when the evidence presented weighs
heavily in favor of the moving party.” State v.
Gilcreast, 9th Dist. No. 04CA0066, 2005-Ohio-2151,
¶55. “To warrant the granting of a new trial, the new

44a
evidence must, at the very least, disclose a strong
probability that it will change the result if a new trial
is granted.” State v. Cleveland, 9th Dist. No.
08CA009406, 2009-Ohio-397, ¶491 In other words
there must be a strong probability that the new
evidence would change the verdict. State v. Brown,
9th Dist. No. 26309, 2012-Ohio-5049, ¶4; and State v.
Jalowiec, 9th Dist. No. 14CA010548, 2015-Ohio-5042,
¶30. A defendant bears the burden of demonstrating
this strong probability. Cleveland, at ¶49. See also
State v. Gilliam, 9th Dist. No. 14CA010558, 2014Ohio-5476, ¶12.
NEW EVIDENCE DISCOVERED SINCE TRIAL/
DUE DILIGENCE
“New evidence is that which has been discovered
since trial was held and could not in the exercise of due
diligence have been discovered before that.” State v.
Lather, 6th Dist. No. OT-03-041, 2004-Ohio-6312, ¶11,
citing Petro.
MATERIALITY
Evidence is “material to the issues” when there is a
“reasonable probability,” that had the evidence been
disclosed or available at trial, the result of the trial
would have been different. State v. Roper, 9th Dist.
No. 22494, 2005-Ohio-4796, ¶22.
“Reasonable
probability” of a different trial result is demonstrated
by showing that the omission of new evidence would
“undermine the confidence in the outcome of the trial.”
Id.

1 There appears to be no Ohio case law that specifically defines

“strong probability.”

45a
CUMULATIVE
While there appears to be no Ohio case law that
specifically defines “not merely cumulative to former
evidence”, “cumulative − in law” has been defined as
“designating additional evidence that gives support to
earlier evidence. Webster’s New World Dictionary of
the American Language (College Ed. 1966).
“Science is an ever-evolving field, and criminal
defendants should not be afforded a new trial every
time the scientific testing methods for forensic
evidence change.” State v. Johnson, 8th Dist. No.
93635, 2014-Ohio-4117, ¶26.
IMPEACHMENT
With respect to impeachment, “newly discovered
evidence that merely impeaches or contradicts the
former evidence ‘very well could have resulted in a
different verdict,’ but that is not enough to satisfy the
test for granting a new trial.” Brown, at ¶4, quoting
State v. Pannell, 9th Dist. No. 96CA0009, 1996 Ohio
App. LEXIS 3967, 1996 WL 515540, *3 (Sept. 11,
1996). Rather, the character of that evidence is
relevant as to whether a different result is a strong
probability. Jalowiec, at ¶38.
ANALYSIS
EYEWITNESS IDENTIFICATION EVIDENCE
Dr. Goodsell, the Defendant’s expert in the area of
eyewitness memory and identification, testified at the
October 2012 hearing regarding the three stages of
memory (encoding, storage, and retrieval), as well as
several factors that can affect memory and the
accuracy of eyewitness identification.

46a
The validity of eyewitness memory and
identification has been questioned for years both
Defense attorneys and experts alike. The accuracy of
eyewitnesses in describing the height, weight, eye
color and physical description of a suspect/defendant,
as well as cross-racial identification, have been the
subject of vigorous cross examinations and many
appeals.
In analyzing everything before the Court, this Court
finds that the expert eyewitness identification
testimony does not disclose a strong probability that a
different verdict would be reached if a new trial is
granted. While Dr. Goodsell’s testimony and opinions
did not exist in 1998, and his opinions could not have
been discovered in the exercise of due diligence before
trial, there is no reasonable probability that had Dr.
Goodsell’s 2012 opinions been disclosed or available in
1998 the result of the trial would have been different.
During the 1998 trial, counsel for the Defendant
cross-examined the two eyewitnesses or the majority
of the weaknesses raised by Dr. Goodsell. Prade, 2014Ohio-1035, ¶128. The ‘Ninth District Court held, “the
jury, therefore, was well aware of the possible
problems with the identifications of the respective
eyewitnesses and chose, nonetheless, to believe them.”
Id. The defendant’s theory at trial was that the
eyewitnesses’ testimony was unreliable based on the
timing of when they came forward, the ability to see
Margo Prade’s killer, as well as the accuracy of their
description of the suspect. Dr. Goodsell’s opinions are
merely cumulative of the answers he Defendant’s trial
attorney elicited during cross examination of the two
eyewitnesses during he 1998 trial and further, only
tend impeach and/or contradict the testimony of the

47a
two eyewitnesses. Simply stated, Dr. Goodsell’s
testimony is similar to evidence that was presented n
1998 by a different expert and therefore this Court
finds Dr. Goodsell’s expert opinions are not newly
discovered evidence and clearly fails the Petro test.
BITE MARK EVIDENCE
This Court previously limited the hearing on the
Motion for New Trial to the newly discovered DNA
evidence and Y-STR testing procedures but provided
the parties the opportunity to address the bite mark
evidence by written briefs subsequent to the
November 4, 2015 hearing.
As background, the 1998 jury trial included expert
testimony from Dr. Lowell Levine an Dr. Thomas
Marshall (experts in forensic odontology/dentistry for
the State) and Dr. Peter Baum (a maxillofacial
prosthodontist for the Defendant). Prade, 2014-Ohio1035, ¶63–70. The Ninth District Court of Appeals
held:
As for the dental experts, the jury was
essentially presented with the entire spectrum of
opinions on the bite mark at trial. That is, one
expert testified that Prade was the biter, one
testified that the bite mark was consistent with
Prade’s dentition, but that there was not enough
there to make any conclusive determination, and
the third testified that Prade lacked the ability to
bite anything.
Moreover, the expert who
definitively said Prade was the biter, Dr.
Marshall, also said that the expert who
determined a definitive inclusion could not be
made (Dr. Levine) was “one of the leading bite
mark experts in the country.” The jury also heard

48a
testimony during cross-examination that dental
experts often disagree and that bite mark
testimony has led to wrongful convictions.
Prade, 2014-Ohio-1035, ¶129.
In support of his Motion for New Trial and a request
for hearing, the Defendant argues that the
developments in bite mark science that have occurred
since 1998 completely discredit the State’s reliance on
the bite mark evidence at trial to link the Defendant
to the crime. Defendant asserts that multiple highly
credible authorities have since concluded that “the
fundamental scientific basis for bite mark analysis
[has never been established]” − citing:


1 Paul Giannelli & Edward Inwinkelreid,
Science Evidence §13.04 (4th ed. 2007);
 National Academy of Sciences’ 2009 Report
titled “Strengthening Forensic Science in the
United States: A Path Forward”;
 11 separate studies from 2009 to 2012 authored
by Dr. Mary Bush and her testimony at the
October 2012 hearing;
 Letter posted on the American Board of Forensic
Odontology’s website; and Dr. Wright’s
testimony at the October 2012 hearing;
 Professor Iain Pretty’s 2015 Construct
Validation Study; and
 Video recording of the February 12, 2016
meeting of the Texas Forensic Science
Commission.
In October 2012, Dr. Mary Bush, an expert in
forensic odontology research, testified for the
Defendant, and Dr. Franklin Wright, Jr., also an
expert in forensic odontology, testified on behalf of the

49a
State. Both experts were completely at odds with each
other as to the reliability o: bite mark evidence at trial.
The Defendant maintains that Dr. Bush’s expert
testimony on bite mark identification is far more
credible and better grounded in science than that of
Dr. Wright, especially when Dr. Wright conceded at
the October 2012 hearing that the numerous questions
raised in the National Academy of Sciences’ (NAS)
2009 Report regarding the basis for bite mark
identification have not been answered in the
affirmative.
Dr. Bush testified that, based upon her studies on
cadavers, skin has not been “scientifically established
as an accurate recording medium of the biting
dentition.” On the other hand, Dr. Wright testified
that, based upon his review of hundreds of actual bite
marks throughout his career, that human dentition is
unique and capable of transferring to human skin.
Both experts also admitted to certain shortcomings in
their own research. Dr. Bush admitted: 1) that
cadavers differ from real people in certain respects
related to her testing, and 2) that she did not have a
statistician determine a rate of error for the placement
of the dots on the bite mark molds. Dr. Wright
admitted: 1) that although bite mark evidence is
generally accepted within the scientific community,
that an opinion regarding the evidence is only as good
as the bite mark evidence available and the subjective
interpretation of the analyst examining the evidence,
and 2) that there have been instances where bite mark
testimony has helped to convict individuals who were
later exonerated based upon other evidence such as
DNA. See also generally, Prade, 2014 Ohio-1035, ¶92–
101.

50a
In analyzing everything before the Court, this Court
finds that the bite mark evidence does not disclose a
strong probability that a different verdict would be
reached if a new trial is granted, and that while the
opinions of Dr. Bush and Dr. Wright did not exist in
1998 and could not have been discovered before trial,
the only thing newly discovered is the Defendant’s
awareness of these particular experts. The new bite
mark opinions are not material to the issues since
there is no reasonable probability that had these
differing opinions from 2012 been disclosed or
available in 1998, the result of the trial would have
been different. The expert opinions of Dr. Bush and
Dr. Wright, while differing between each other,
address many of the various differences that were
testified to by Dr. Levine, Dr. Marshall and Dr. Baum
during the 998 trial. In light of those differing
opinions, the 1998 jury still found the Defendant
guilty.
The reliability of bite mark evidence has been a
matter of contention for decades – long before the 1998
trial. Even though new possible guidelines, published
articles, and other studies critical of the use of bite
mark evidence have arisen since the Defendant’s trial
in 1998, those name basic criticisms existed at the
time of trial. The Defendant’s theory at trial was that
the bit mark identification was unreliable. This Court
finds Dr. Bush’s opinion post-trial, the other abolished
articles and studies, as well as the affidavit of Dr. Iain
Alastair Pretty along with the proposed changes to the
American Board of Forensic Odontology (AFBO) are
nothing more than emulative evidence to what was
previously presented on the subject at trial through
the testimony of Dr. Levine, Dr. Marshall and

51a
Dr. Baum—different experts with the same opinions,
e.g. State v. Graff, 8th Dist. No. 102073, 2015-Ohio1650, ¶12; and Johnson, at ¶25 (“this is not a case
where advancements in scientific research allow
evidence to be disproved”).
In conclusion, while there has been a sea of
changing opinions in the science of bite mark
identification, the evidence submitted by the
Defendant is merely additional criticisms and/or
impeachment of the testimony presented at trial in
1998. The bite mark evidence clearly fails the Petro
test, and therefore is not newly discovered evidence.
Y-STR DNA EVIDENCE – POST TRIAL
The Defendant argues that Y-STR DNA testing
completed in 2012 is newly discovered evidence and
that the existence of male DNA at or near the bite
mark of the lab coat conclusively excludes the
Defendant as the contributor, and as such, he should
be granted a new trial. The defendant asserts that one
of the more significant partial male profiles from
19.A.1 and 19.A.2 must be that of Margo Prade’s killer
and that no other male DNA was found on other parts
of the lab coat.
While the State concedes that Y-STR DNA testing
was not available at the time of trial, maintains that
the Defendant was excluded as a possible DNA
contributor in the 1998 trial, and that the new Y-STR
test results did not bring about a different result.
Alternatively, the State argues that even if the Court
determines that Y-STR DNA testing and results are
newly discovered evidence, the DDC test results
relating to the bite-mark section of the lab coat are
meaningless due to contamination, transfer or touch

52a
DNA, and/or analytical error. In support, the State
asserts that the male DNA found on the bite mark
section included extremely low level of trace DNA, i.e.
from 19.A.1 (3–5 cells) and 19.A.2 (approximately 10
cells), from possibly two up to five male persons, and
that how or when that male DNA was deposited is
unknown.
The State argues that no expert who testified at the
October 2012 and November 2015 hearings could
opine with any certainty as to when these new DNA
profiles were deposited on the swatch of the lab coat,
rather, each side merely provided expert opinions in
support of their respective positions and against the
opposing experts’ positions.2 Thus, the State argues,
at best, the DNA bite-mark evidence testing results
provide inconclusive results, not new evidence to
support the Defendant’s request for a new trial.
DNA Diagnostic Center (DDC) performed the initial
Y-STR DNA testing from extracts of a large cutting
from the center of the bite-mark section of the lab coat
(around where the FBI previously had taken two of the
three cuttings from 1998), which became DDC 19.A.1;
and from three additional cuttings within the bitemark section of the lab coat that were then combined
with the remaining extract from DDC 19.A.1 to make
DDC 19.A.2. It is undisputed that (1) DDC’s testing of
19.A.1 identified a single, partial male DNA profile; (2)
2

Dr. Julie Heinig, the Assistant Laboratory Director for
Forensics for DNA Diagnostic Center (DDC) and Dr. Richard
Staub, prior Director for the Forensic Laboratory for Orchid
Cellmark, testified for the Defendant; and both Dr. Lewis Maddox
and Dr. Elizabeth Benzinger from the BCI&I testified for the
State.

53a
DDC’s testing of 19.A.2 identified a mixture that
included partial male profiles of a least two men; and
(3) that both 19.A.1 and 19.A.2 conclusively excluded
the Defendant (and also Timothy Holston − Margo’s
then current boyfriend) from having contributed male
DNA in these two samples. Also it is undisputed that
these DNA exclusions of both the Defendant and
Timothy Holston as contributors to the partial DNA
profiles obtained from the bite-mark area of the lab
coat were not expressed in terms of probabilities; but
rather in certainties.
A second laboratory, Ohio Bureau of Criminal
Identification & Investigation (BCI&I), performed
further Y-STR testing on additional material – one
new cutting from the bite-mark section of the lab coat;
swabs from the sides of the lab coat; cuttings from the
right and left underarm, left sleeve, and back of the
lab coat; buttons from the lab coat; fingernail
clippings; and a piece of metal from Margo Prade’s
bracelet − all at the State’s request. From all the item
tested by BCI&I the Defendant was also excluded as a
source of the male DNA.
This Court has performed an independent review of
the Y-STR DNA testing and results. The testimony of
Dr. Staub, Dr. Heinig, Dr. Benzinger, and Dr. Maddox
and all admitted exhibits from October 2012 hearing
before Judge Hunter, as well as the testimony from the
same four experts and all newly admitted exhibits
from this Court’s two-day hearing in November 2015.3

3

As this Court had the benefit of reviewing the prior
transcripts and exhibits from the 2012 hearing in advance of the

54a
First, this Court finds that Y-STR DNA testing was
not in existence at the time of the 1998 trial, and
therefore, the Defendant could not in the exercise of
due diligence have discovered it before trial. State v.
Prade, 126 Ohio St.3d 27, 2010-Ohio-1842, 22 and 29;
and Prade, 2014-Ohio-1035, ¶¶7–8.
Second, this Court finds that the Y-STR DNA test
results conclusively exclude the Defendant as a
contributor of the DNA on the “bite mark” − the same
exclusion as in the 1998 criminal trial. During the
1998 trial and post trial hearings no expert ever
testified or indicated that the Defendant’s DNA was
ever found anywhere on the lab coat including at or
near the bite mark.
Third, with respect to the meaning of the Y-STR
DNA results as it relates to whether the two other
partial males DNA profiles are that of Margo Prade’s
killer, this Court finds that the results remain
inconclusive. None of the four experts could opine
with any degree of certainty as to when these two
partial male profiles were deposited on the fabric
swatch. This well worn lab coat and swatches traveled
at various times to at least five different laboratories
and were handle by an undetermined number of
individuals. This Court therefore concludes that more
likely that the existence of the two partial male DNA
profiles occurred due to incidental transfer and/or
contamination rather than containing the true DNA
from Margo Prade’s killer.

November 2015 hearing, it was well cognizant of the complexity
of the issues at hand.

55a
Although the Ninth District Court of Appeals
addressed the Y-STR testing results along with the
testimony from the Defendant and State’s experts
under the “clear and convincing/actual innocence”
standard found in R.C. 2953.21 (A)(1)(b) and the other
“available admissible evidence” standard found in R.C.
2953.21(A)(1)(b) and R.C. 2953.23(A)(2), their
observations, as well as their methodology and
analysis of the evidence with respect to the Y-STR
testing results, remain instructive and pertinent
herein.
In the Ninth District Court’s analysis and
conclusion section of that decision, it determined that
“while the results of the post-1998 DNA testing appear
at first glance to prove Prade’s innocence, the results,
when viewed critically and taken to their logical end,
only serve to generate more questions than answers.”
Prade, 2014-Ohio-l035, ¶112. The Court went on to
state:
Without a doubt, Prade was excluded as a
contributor of the DNA that was found in the bite
mark section of Margo’s lab coat. The DNA
testing, however, produced exceedingly odd
results. Of the testing performed on the bite
mark section, one sample (19.A.1) produced a
single partial male profile, another sample
(19.A.2) produced at least two partial male
profiles, and a third sample (111.1) failed to
produce any male profile. All of the foregoing
samples were taken from within the bite mark,
some directly next to each other, but each sample
produced
completely
different
results.
Meanwhile, the testing performed on four other

56a
areas of the lab coat also failed to produce any
male profiles.
There was a great deal of testimony at the
PCR hearing that epithelial cells from the mouth
are generally plentiful. Indeed, Dr. Maddox
testified that buccal swabs from the mouth are
the preferred method for obtaining DNA
standards from people due to the high content of
cells in the mouth and that, because a buccal
swab typically contains millions of cells, it is
usually necessary for BCI to either take a smaller
cutting or to dilute a sample so that its testing
equipment can handle the amount of DNA that is
being inputted for testing.
Dr. Benzinger
testified that the ideal amount of cells for DNA
testing is about 150 cells and that the threshold
amount for testing is about four cells. There is no
dispute that the testing that occurred here was
at or near the threshold amount. Specifically, Dr.
Benzinger testified that 19.A.1 only contained
about three to five cells and 19.A.2 only contained
about ten cells. Thus, despite the fact that there
are usually millions of cells present when the
source of DNA is a person’s mouth, the largest
amount of DNA located here was ten cells.
Moreover, those ten cells were not from the same
contributor.
When DDC tested 19.A.2, it discovered at
least two partial male profiles.
More
importantly, the major profile that had emerged
when DDC tested 19.A.1, was different than the
major profile that emerged when DDC tested
19.A.2. While the results from 19.A.1 showed a
15 allele at the DYS437 locus, the results from

57a
19.A.2 showed a 14 allele at the DYS437 locus,
with the 15 shifting to a minor allele position that
fell below DDC’s reporting threshold. Thus, in
addition to the fact that two different partial
profiles emerged in DDC’s tests, the major profile
that emerged was not consistent. It cannot be
said, therefore, that even though multiple
profiles were uncovered, there was one
consistent, stronger profile that emerged as the
profile of the biter.
The inconsistency in the major profile in
DDC’s tests calls into question several of the
conclusions that Prade’s DNA experts made. For
instance, Dr. Heinig stated:
[B]ased on everything that I’ve testified
[to], I believe that the major DNA that we
obtained from [19.A.2] is very likely from
the saliva, and that if there is
contamination the minor alleles, for
instance, could be from contact from
another individual or more than one
individual * * *.
Because the minor allele in 19.A.2 was the
major allele in 19.A.1, however, it is difficult to
understand how Dr. Heinig could distinguish
between the two and rely on one as “the major
DNA” while attributing the other to
contamination. Similarly, Dr. Staub testified
that he felt “that the biting activity should leave
a lot more cellular material than touch would;
and, therefore, if they’re getting any result, now
certainly some of that should be from the biting
event.” Yet, DDC did not find “a lot more cellular

58a
material” from one profile. Instead, it uncovered
inconsistent major profiles within an extremely
low amount of DNA cells.
Another significant reality about the bite
mark section of Margo’s lab coat is that amylase
testing resulted in a negative test result. Even
back in 1998, therefore, it was determined that
no amylase (saliva) was present on the bite mark
section. That fact rebuts any assertion that there
was a “slobbering killer.” It also undercuts the
assumption made by both the defense witnesses
and the trial court that there had to be DNA from
the biter on the lab coat due to the large amount
of DNA in saliva. Quite simply, there was never
a shred of evidence in this case that the killer
actually deposited saliva on the lab coat. Even
back in 1998, Dr. Callaghan testified that “if
someone bites someone else or that fabric, they
may have left DNA there. It can be of such a low
level that it’s not detected. Or they may have left
no DNA there” (Emphasis added.) The only
enzyme test conducted to determine whether
saliva was present, the amylase test, was
negative. And while the preliminary test showed
probable amylase activity, Dr. Benzinger
specified: “[i]f the confirmatory test is negative,
then your results are negative.”
Although the trial court rejected the State’s
contamination theories as “highly speculative
and implausible,” the results of the DNA testing
speak for themselves. The fact of the matter is
that, while it is indisputable that there was only
one killer, at least two partial male profiles were
uncovered within the bite mark. Even Dr. Heinig

59a
admitted that, for that to have occurred, there
had to have been either contamination or
transfer. And, while the lab coat itself was not
contaminated, as evidenced by the negative
results obtained on the four other locations cut
from the coat, the inescapable fact, once again, is
that the bite mark section itself produced more
than one partial male profile. Whatever the
explanation for how more than one profile came
to be there, the fact of the matter is that the
profiles are there.
Both the defense experts and the trial court
concluded that the only logical explanation for
the low amount of DNA found in the bite mark
section was that a substantial amount of the
biter’s DNA was lost due to the various testing
that occurred over the years and/or the DNA
simply degraded with time. Dr. Straub, in
particular, deemed it “somewhat far-fetched and
illogical” to suggest that all of the partial profiles
DDC discovered came from people other than the
biter. To conclude that one of the partial profiles
DDC discovered belonged to the biter, however,
one also must employ tenuous logic. That is
because the three to five cells from 19.A.1
uncovered one major profile, and the ten cells
from 19.A.2 uncovered a different major profile
and at least one minor profile. The total amount
of cells for each major profile, therefore, had to be
very close in number. For one of those major
profiles to have been the biter, that DNA would
have had to either degrade at exactly the right
pace or have been removed in exactly the right
amount
to
make
it
mirror
the

60a
transfer/contamination DNA attributable to the
other partial profile(s) DDC found. It is no more
illogical to conclude that all the partial profiles
DDC
discovered
were
from
transfer/contamination DNA, than it is to
conclude that degradation or cellular loss
occurred to such a perfect degree. The former
conclusion also comports with both Drs. Maddox
and Benzinger’s opinion that “[t]he presence of
multiple low-level sources of DNA is most easily
explained by incidental transfer.”
As previously noted, there is no dispute that
Trade was definitively excluded as the source of
the partial male profiles that DNA testing
uncovered. The problem is, if none of the partial
male profiles came from the biter, that exclusion
is meaningless. Having conducted a thorough
review of the DNA results and the testimony
interpreting those results, this Court cannot say
with any degree of confidence that some of the
DNA from the bite mark section belongs to
Margo’s killer. Likewise, we cannot say with
absolute certainty that it does not. For almost 15
years, the bite mark section of Margo’s lab coat
has been preserved and has endured exhaustive
sampling and testing in the hopes of discovering
the true identity of Margo’s killer. The only
absolute conclusion that can be drawn from the
DNA results, however, is that their true meaning
will never be known. A definitive exclusion
result has been obtained, but its worth is wholly
questionable. Moreover, that exclusion result
must be taken in context with all of the other

61a
“available admissible evidence” related to this
case. R.C. 2953.21(A)(1)(b); R.C. 2953.23(A)(2).
Prade, 2014-Ohio-1035, ¶113–120 (emphasis therein).
Thus, this Court concludes that the Y-STR DNA
results are not material to the issues since there is not
a strong probability that had the two partial male YSTR DNA profiles been disclosed or available at trial
the result of the trial would have been different. While
the Y-STR DNA results are not cumulative as to the
discovery of the two male partial DNA profiles, the
results are cumulative as to the exclusion of the
Defendant as a contributor to either of the partial
profiles. In fact, the jury heard expert testimony at
trial that DNA from an unknown third person was
found on the bite mark of the lab coat and the jury still
found the Defendant guilty of aggravated murder. The
Defendant has failed to introduce any new evidence
that the jury had tot already considered during the
1998 trial.
OVERWHELMING “OTHER CIRCUMSTANTIAL
EVIDENCE”
Finally, when analyzing the overwhelming other
circumstantial evidence in this case, this Court is
firmly convinced that when considering the
Defendant’s alleged motive, i.e. his financial problems,
the impending divorce, his jealousy as evidenced by
the taped conversations of Dr. Prade, as well as
testimonial
statements
from
Dr.
Prade’s
acquaintances, the Defendant has failed to meet his
burden of proving a strong probability exists that the
eyewitness expert opinions, bite mark expert opinions
and the Y-STR DNA test results would change the

62a
result if a new trial is granted. As succinctly stated by
the Ninth District Court of Appeals:
“The amount of circumstantial evidence that
the State presented at trial in support of Prade’s
guilt was overwhelming. The picture painted by
that evidence was one of an abusive, domineering
husband who became accustomed to a certain
standard of living and who spiraled out of control
after his successful wife finally divorced him,
forced him out of the house, found happiness with
another man, and threatened his dwindling
finances. The evidence, while all circumstantial
in nature, came from numerous, independent
sources and provided answers for both the means
and the motive for the murder.”
Prade, 2014-Ohio-l035, ¶21.
CONCLUSION
In conclusion, the Defendant has failed to
demonstrate that the alleged new bite mark an
eyewitness evidence establishes a strong probability
that it would change the result (verdict) had to been
available and/or presented at trial. From a review of
the 2012 testimony “...each of the defense’s experts
had critical things to say about the experts and
eyewitnesses who testified at trial.” Prade, 2014Ohio1035, ¶128.4 Therefore, this testimony is
cumulative of the other testimony presented during
the 1998 trial and, if introduced at a new trial, would
4

The Court further noted that witness and expert credibility
determinations and the weight to afford those determinations fall
within the province of the jury as they are in the best position to
weigh said issues. Prade, 2014-Ohio-1035, ¶112 & 128.

63a
merely impeach or contradict the evidence presented
at the original trial. Furthermore, in considering all
of the other evidence presented during the 1998 trial,
this Court finds that the bite mark evidence was not
the sole basis for the jury’s guilty verdicts. Therefore,
the Defendant has failed to demonstrate a strong
probability that the introduction of any “new” expert
testimony regarding the bite mark and eye witness
evidence would change the result (verdict) if a new
trial was granted.
After analyzing the DNA evidence presented at the
original criminal trial in 1998, this Court concludes
the Defendant was excluded as the source of the DNA
that was found on the three cuttings from the bite
mark section of the lab coat.
In analyzing the Y-STR test results post-trial, the
bite mark area of the lab coat was the most focused on
portion of the lab coat from the time of Margo Prade’s
death until 2012. The fact that the only male DNA
found on the lab coat was near the bite mark and not
anywhere else in the lab coat demonstrates that
neither of the two partial male DNA profiles are that
of the killer but more likely the product of incidental
transfer and/or contamination, rendering those
profiles meaningless.
In considering the significance of the above
mentioned Y-STR DNA evidence, and strong
probability that the existence of two partial male
profiles is from incidental transfer and/or
contamination in conjunction with the enormity of the
remaining circumstantial evidence presented at the
1998 trial, this Court finds the Defendant has failed to
demonstrate a strong probability that the introduction

64a
of the Y-STR DNA test results would change the result
(verdict) if a new trial was granted.
Based on the foregoing, the Defendant’s Motion for
New Trial is not well taken and is denied on all
grounds.

IT SO ORDERED,

JUDGE CHRISTINE CROCE

cc: Attorney David Alden
Attorney Mark Godsey
Assistant Prosecutor Brad Gessner
Assistant Prosecutor Richard Kasay

65a

APPENDIX E

IN THE COURT OF APPEALS
NINTH JUDICIAL DISTRICT
STATE OF OHIO
COUNTY OF SUMMIT
STATE OF OHIO,
Appellee,
v.
DOUGLAS PRADE,
Appellant.

)
)ss:
)
)
)
)
C.A. No. 27323
)
)
JOURNAL ENTRY
)
)
)

The State of Ohio has moved this Court for leave to
appeal the trial court’s January 29, 2013, order which
conditionally granted Douglas Prade’s motion for new
trial. Mr. Prade has responded in opposition. This is
the State’s second attempted appeal of this order. This
Court previously determined in C.A. No. 26814 that
the order is conditional and, therefore, not final and
appealable. This Court’s determination is the law of
the case with respect to this proceeding.
In its order, the trial court considered Mr. Prade’s
petition for postconviction relief and alternatively, his
motion for new trial. The trial court granted the

66a
petition for postconviction relief. In the decisional
portion of the order, it also decided to grant his motion
for new trial. However, at the conclusion of the entry
where the trial court set forth the actual order of the
court, it unequivocally granted the petition for
postconviction relief and granted the motion for a new
trial on a conditional basis as follows:
Therefore, the Defendant’s Petition for
Post-conviction Relief for aggravated murder
with a firearms specification is approved. In the
alternative, should this Court’s order granting
post-conviction relief be overturned pursuant to
appeal, then the Motion for New Trial is granted.
Given the above, the trial court essentially granted the
motion for new trial in its decision but then did not
enter a final order consistent with its decision.
Instead, it conditioned its order upon the occurrence of
a future event, namely, this Court’s reversal of the
trial court’s granting of postconviction relief. Thus,
the trial court did not actually enter a final order with
respect to the motion for new trial.
It appears that the trial court may have taken this
step because it recognized in its analysis of the new
trial motion that its order granting the new trial could
become moot if, on appeal, this Court affirmed its
grant of the petition for postconviction relief.
However, the trial court could have unconditionally
granted the motion for new trial and, on appeal,
assuming that the grant of postconviction relief was
affirmed, that portion of the appeal contesting the
propriety of granting the motion for a new trial would
have been rendered moot.

67a
As this Court previously determined, the trial
court’s conditional order is not sufficient to constitute
a final judgment or order that the State may appeal
pursuant to R.C. 2945.67. See Goering v. Schille, 1st
Dist. No. C-110525, 2012-Ohio-3330. Thus, in order to
make its decision to grant the motion for new trial a
final order, the trial court must simply reenter its
order granting the motion for new trial on an
unconditional basis.
Accordingly, the motion for leave to appeal is
denied. The appeal is dismissed. Costs are taxed to
appellant.
The clerk of courts is ordered to mail a notice of
entry of this judgment to the parties and make a
notation of the mailing in the docket, pursuant to
App.R. 30, and to provide a certified copy of the order
to the clerk of the trial court. The clerk of the trial
court is ordered to provide a copy of this order to the
judge who presided over the trial court action.

________________________
Judge
Concur:
Whitmore, J.
Moore, J.

68a

APPENDIX F

IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO

STATE OF OHIO
Plaintiff,
v.
DOUGLAS PRADE
Defendant

)
)
)
)
)
)
)
)
)

Case No.:
1998-02-0463
Judge Judy Hunter

ORDER ON
DEFENDANT’S
PETITION FOR
POST-CONVICTION
RELIEF OR MOTION
)
FOR NEW TRIAL
)

–––––
This matter comes before the Court on Defendant
Douglas Prade’s Petition for Post-conviction Relief, or
alternatively, Motion for New Trial. The Court has
reviewed the Petition/Motion; amicus curiae, response,
reply, and post-hearing briefs; the extensive expert
testimony and exhibits at hearing over the course of
four days in October of 2012; this Court’s September
23, 2010, Order granting the Defendants Application
for Post-conviction DNA Testing; and applicable law.
FACTS AND PROCEDURAL HISTORY
On November 26, 1997, Dr. Margo Prade was fatally
shot in the front seat of her van parked outside of her

69a
medical office in Akron, Ohio. She died from multiple
gunshot wounds to her chest. In February of 1998, her
ex-husband, Akron Police Captain Douglas Prade, was
indicted for aggravated murder, a firearms
specification, wiretapping, and possession of criminal
tools. Prade raised an alibi defense at trial. On
September 24, 1998, then sitting Judge Mary Spicer
sentenced Prade to life in prison after he was found
guilty by jury of aggravated murder, among the other
counts. Prade is currently incarcerated and has
consistently maintained his innocence. On August 23,
2000, Defendant’s conviction was affirmed on appeal.
State v. Prade (2000), 139 Ohio App.3d 676. Later that
year, the Ohio Supreme Court declined a discretionary
review of his conviction. State v. Prade (2000), 90 Ohio
St.3d 1490.
In 2004, Defendant filed his first Application for
Post-conviction DNA Testing pursuant to a newly
enacted Ohio DNA testing statute, R.C. 2953.71. On
May 2, 2005, Judge Spicer denied his Motion, in part,
finding that DNA testing had been done before trial
that had excluded him as the source of the DNA
samples taken from the victim. As such, the Court
determined that Prade did not qualify for DNA testing
because a prior definitive DNA test had previously
been conducted. The Ninth District Court of Appeals
dismissed his appeal of this denial as untimely. State
v. Prade (June 15, 2005), 9th Dist. C.A. No. 22718.
Defendant did not appeal this denial to the Ohio
Supreme Court.
In 2008, Defendant filed his Second Application for
Post-conviction DNA Testing based on the Ohio DNA
testing statute, as amended in 2006. On June 2, 2008,
Judge Spicer again denied his Application, finding

70a
that he did not qualify because (1) prior definitive
DNA testing had been conducted and (2) he failed to
show that additional DNA testing would be outcome
determinative. The Ninth District Court of Appeals
affirmed this Court’s decision. State v. Prade, 9th Dist.
C.A. No. 24296, 2009 Ohio 704. (Prade, 9th Dist.). On
May 4, 2010, the Ohio Supreme Court overturned both
the trial Court and Court of Appeals, finding that new
DNA methods have become available since 1998, and
that, as such, the prior DNA test was not “definitive”
within the meaning of R.C. 2953.74(A), i.e., new DNA
testing methodology could detect information that
could not have been detected by the prior DNA test.
State v. Prade, 126 Ohio St.3d 27, 2010 Ohio 1842,
syllabus number one. (Prade, S.Ct.) Based on initial
DNA testing, the Ohio Supreme Court determined
that Prade’s exclusion was “meaningless”: the 1998
testing methods have limitations because the victim’s
own DNA overwhelmed the killer’s DNA. Id., at ¶ 19.
Upon remand, this Court determined that the results
of new Y-STR DNA testing would have been outcome
determinative at the underlying trial, pursuant to the
current DNA testing statute.
Since the remand, the parties initially utilized the
services of DNA Diagnostics Lab to test numerous
items, including:
1. A piece of metal and swab from Dr. Prade’s
bracelet (DDC # 01.1 and 01.2),
2. Cutting from Dr. Prade’s blouse (DDC # 02),
3. Bite mark swabs (DDC # 05, 22 and 23),
4. Swabs from Dr. Prade’s right cheek (DDC # 06,
21, and 24),

71a
5. Microscope slides and vial specimens (DDC #
07.1 – 10.11),
6. Saliva samples from Timothy Holsten
(Dr. Prade’s fiance) and Defendant (DDC # 13
and 14),
7. Three buttons from Dr. Prade’s lab coat (DDC #
18),
8. Cuttings from the lab coat (DDC # 19 - 20),
9. Fingernail clippings from Dr. Prade (DDC # 25),
10. DNA extracts, blood tubes, and blood cards from
Dr. Prade, the Defendant, and Timothy Holsten
(DDC # 27 – 33, 37 and 38),
11. DNA extracts from LabCorp (the original DNA
Testing facility from the underlying case) (DDC
# 34, 35, and 39), and
12. Aluminum foil with DQA cards (DDC # 36).
At the State’s request, BCI&I subsequently tested
the following additional items:
1. A piece of metal from Dr. Prade’s bracelet (BCI
Item 102.1),
2. Three buttons from Dr. Prade’s lab coat (BCI
Items 105.1 – 105.3),
3. 10 fingernail clippings from Dr. Prade (BCI
Items 106.1 – 106.10),
4. An additional cutting from the bite mark area
from the lab coat (BCI Item 111.1),
5. Swabbing samples taken from the bite mark
area (BCI Items 111.2 and 111.3),
6. Samples taken from outside of the bite mark
area of the lab coat (BCI Items 114.1 – 114.4).

72a
The DNA testing is now complete. The parties
disagree about the meaning/outcome of the test results,
particularly results concerning the cuttings from the
bite mark area of the lab coat - DDC #19.A.1 and
19.A.2. The Court will address these test results and
their meaning below.
PETITION FOR POST-CONVICTION RELIEF
Defendant seeks to have his conviction for
aggravated murder vacated and to be released from
prison pursuant to his Petition for Post-conviction
Relief.1 Under R.C. 2953.23(A), a petitioner may seek
post-conviction relief under only two limited
circumstances:
(1) The petitioner was either “unavoidably
prevented from discovery of the facts upon which the
petitioner must rely to present the claim for relief,” or
“the United States Supreme Court recognized a new
federal or state right that applies retroactively to
persons in the petitioner’s situation,” and “[t]he
petitioner shows by clear and convincing evidence that,
but for the constitutional error at trial, no reasonable
factfinder would have found the petitioner guilty of the
offense of which the petitioner was convicted.”
(2) The petitioner was convicted of a felony * * *
and upon consideration of all available evidence
related to the inmate’s case * * *, the results of the
DNA testing establish, by clear and convincing
1

Defendant’s convictions on six counts of interception of
communications and one count of possession of criminal tools are
not affected by either the Petition for Post-conviction Relief or
Motion for New Trial as these convictions are not in any way
related to the DNA evidence. Mr. Prade has now served the
sentence imposed on these crimes.

73a
evidence, actual innocence of that felony offense* * *.”
(Emphasis added.)
“Actual innocence” under R.C. 2953.21(A)(l)(b)
“means that, had the results of the DNA testing * * *
been presented at trial, and had those results been
analyzed in the context of and upon consideration of
all available admissible evidence related to the
inmate’s case * * * no reasonable factfinder would have
found the petitioner guilty of the offense of which the
petitioner was convicted * * *. (Emphasis added.)
Although
R.C.
2953.71(L),
the
outcomedeterminative test for granting an application for postconviction DNA testing, and R.C. 2953.21(A)(l)(b), the
actual innocence test for granting a petition for postconviction relief, do resemble each other, they are not
the same. State v. King, 8th Dist. No. 97683, 2012 Ohio
4398, P13. R.C. 2953.71(L) requires only a “strong
probability” that no reasonable factfinder would have
found the defendant guilty, while R.C. 2953.21(A)(l)(b)
requires that “no reasonable factfinder would have
found the defendant guilty, without exception.” Id.
Furthermore, the trial court’s statements in its
findings of fact and conclusions of law for a defendant’s
application for post-conviction DNA testing are not
binding on the court’s later determination regarding
the petition for post-conviction relief. Id.
The Court will now address the Defendant’s
conviction for aggravated murder and the available
admissible evidence, including the new Y-STR DNA
evidence.
The available evidence includes the
evidence at the underlying trial. The law of the case
applies with respect to subsequent proceedings,
including hearings to determine whether the

74a
defendant has proven actual innocence based upon the
new Y-STR DNA test results.2 King, at P16–17.
DNA EVIDENCE
In the underlying trial, a number of items were
tested for DNA, including Dr. Prade’s fingernail
clippings, fabric from the sleeve of Dr. Prade’s lab coat
in the area surrounding the bite mark, and a broken
bloodstained bracelet. Prade (S.Ct.), at P16. Of this
evidence, the most significant was the fabric from the
lab coat where the bite mark occurred because it
contained “the best possible source of DNA evidence as
to her [Dr. Prade] killer’s identity.” Id., at Pl 7 (quoting
Dr. Thomas Callaghan, the State’s DNA testing
expert). Dr. Callaghan tested several cuttings from
the cloth from the lab coat, including one from the bitemark area on the sleeve in the biceps area. Id., at P18.
Within the bite-mark area, he analyzed the cutting in
three samples – the right side, the left side, and the
center of the bite mark. Id. Dr. Callaghan testified
that, if the biter’s tongue came into contact with this
area, some skin cells from the biter’s lips or tongue
may have been left on the fabric of the lab coat. Id.
Ultimately, the Defendant was excluded as a
contributor to the DNA that was typed in this case. Id.
Worth noting at the onset of this analysis is that the
Defendant’s exclusion in the underlying trial as a
contributor to the DNA found on the bite mark or
anywhere else on Dr. Prade’s lab coat is “meaningless”:
“[T]he testing excluded defendant only in the
sense that DNA found was not his, because it was
2

The law of the case is considered a rule of practice rather
than a binding rule of substantive law. King, at P16.

75a
the victim’s.
But the “exclusion” excluded
everyone other than the victim in that the
victim’s DNA overwhelmed the killer’s DNA due
to the limitations of the 1998 testing methods.”
Prade, at P20 (Emphasis therein.)
Testing is now complete on the above list of items,
using Y-Chromosome Short Tandem Repeat Testing
(Y-STR Testing), a testing procedure that was not
available in 1998. Significantly, the Defendant has
been excluded as the DNA contributor on all the tested
items, including the samples from the bite-mark areas
of the lab coat, by use of the Y-STR Testing method.
The Court heard four days of expert testimony
relating to the meaning/outcome of the DNA test
results and related issues. Defendant’s experts were
Dr. Julie Heinig, Assistant Laboratory Director for
Forensics for DNA Diagnostic Center (DDC), and
Dr. Richard Staub, Director for the Forensic
Laboratory for Orchid Cellmark (until very recently).
The State’s experts were Dr. Lewis Maddox and
Dr. Elizabeth Benzinger from the Ohio Bureau of
Criminal Identification & Investigation (BCl&I). All
are well qualified experts in their fields. The primary
focus of the tests and testimony from these experts
related to the bite-mark cuttings from the lab coat.
The Court also has in its possession letters from Jim
Slagle, Criminal Justice Section Chief for the Ohio
Attorney General, and from Dr. Benzinger, each
providing an independent review of the evidence
relating the Defendant’s request for post-conviction
DNA testing.
For this Court’s analysis, it is undisputed that (1)
Dr. Prade’s killer bit her on the left underarm hard

76a
enough to leave a permanent impression on her skin
through two layers of clothing; (2) her killer is highly
likely to have left a substantial quantity of DNA on her
lab coat over the bite mark when he bit Dr. Prade; (3)
the recent testing identified male DNA on the lab coat
bite-mark section; and (4) none of the male DNA found
is the Defendant’s DNA.
DDC performed the initial Y-STR testing of DNA
extracts from a large cutting from the center of the
bite-mark section of the lab coat (around where the
FBI previously had taken two of the three cuttings
from 1998), which became DDC 19.A.1; and from three
additional cuttings within the bite-mark section of the
lab coat that were then combined with the remaining
extract from DDC 19.A.1 to make DDC 19.A.2. It is
undisputed that (1) DDC’s testing of 19.A.l identified
a single, partial male DNA profile; (2) DDC’s testing of
19.A.2 identified a mixture that included partial male
profiles of a least two men; and (3) that both 19.A.1
and 19.A.2 conclusively excluded Defendant (and also
Timothy Holston) from having contributed the DNA
from these two samples. Also undisputed is that these
DNA exclusions are not expressed in terms of
probabilities; they are certainties – both Defendant
and Timothy Holston are excluded as contributors to
the partial DNA profiles obtained from the bite-mark
area of the lab coat.
A second laboratory at BCI&I performed further
Y-STR testing on additional material - one new cutting
from the bite-mark section of the lab coat; swabs from
the sides of the lab coat; cuttings from the right and
left underarm, left sleeve, and back of the lab coat;
buttons from the lab coat; fingernails clippings; and a
piece of metal from the bracelet — all at the State’s

77a
request. It remains undisputed that the Defendant
can be excluded as a source of the male DNA from all
items tested from BCI&I.
The State argues that the DDC test results relating
to the bite-mark section are meaningless due to
contamination, transfer touch DNA, or analytical
error. In support, the State asserts that the male DNA
found on the bite mark section included extremely low
levels of trace DNA, i.e. from 19.A.1 (3–5 cells) and
19.A.2 (approximately 10 cells), from possibly two up
to five male persons, and that how or when that male
DNA was deposited is unknown. As such, the State
argues that the testing of the DNA bite-mark evidence
provided at best inconclusive results that in no way
bear on the Defendant’s claims for exoneration.
Defendant argues the opposite – that the more
significant partial male profiles from 19.A.1 and
19.A.2 are more likely than not the DNA from
Dr. Prade’s killer. Each side provides expert opinion
in support of its positions and against the opposing
positions.
Upon review, the Court makes the following
findings of fact relating to bite-mark evidence from the
lab coat:
(1) Because saliva is a rich source of DNA material,
while touch DNA is a weak source of DNA
material, it is far more plausible that the male
DNA found in the bite-mark section of the lab
coat was contributed by the killer rather than by
inadvertent contact;
(2) The Y-STR DNA testing of various areas of the
lab coat other than the bite-mark section was
expressly designed by the State to test for

78a
contamination or for touch DNA and that testing
failed to find any male DNA, thereby suggesting
a low probability of contamination or touch DNA;
(3) The ways in which the State suggested that the
bite-mark section of the lab coat could have been
contaminated with stray male DNA are highly
speculative and implausible;
(4) The small quantity of male DNA found on DDC
19.A.1 and 19.A.2 does not mean that the Y-STR
profiles obtained from these samples are invalid
or unreliable;
(5) Earlier testing and treatment of the bite-mark
section of the lab coat by the FBI and SERI from
1998 explains the small quantity of male DNA
remaining from the crime, and the simple
passage of time causes DNA to degrade; and
(6) The Defendant has been conclusively excluded
as the contributor of the male DNA on the bite
mark section of the lab coat or anywhere else.
BITE MARK IDENTIFICATION EVIDENCE
As this Court previously found in its September 23,
2010 Order:
Forty-three witnesses testified for the State at
trial. Lay witnesses provided detail concerning
the relationship between the decedent and the
Defendant. Police officers testified concerning
the results of their investigation. No weapon or
fingerprints were found. Nobody witnessed the
killing. Bite mark evidence, however, provided
the basis for the guilty verdict on the count for
aggravated murder. State v. Prade, 2010 Ohio
1842, ¶¶ 3 and 17. (emphasis added).

79a
To obtain conviction on the murder charge at
trial, the State focused on convincing the jury
that Defendant Prade bit the victim so hard
through two layers of clothing that he left an
impression of his teeth on her skin. Such
evidence was crucial because no other physical,
non-circumstantial evidence existed to suggest
Prade’s guilt. In support of this theory, the State
offered testimony from two dentists with training
in forensic odontology, Dr. Marshall and
Dr. Levine. In refutation, the Defense called
Dr. Baum, a maxillofacial prosthodontist. The
respective opinions of these three experts covered
the spectrum. To sum up, Dr. Marshall believed
the bite mark was made by Prade; Dr. Levine
testified there was not enough to say one way or
another; and Dr. Baum opined that such an act
was a virtual impossibility for Prade due to his
loose denture.3
Several explanations exist for the disparate
opinions. First, the autopsy photographs depict
a bite mark impression without clear edge
definition.
Obviously,
the
experts’
interpretations of the observed patterns of the
dental impression depended on the clarity and
quality of the bite mark image. Further, the
experts’ opinions were not only based on differing
methodologies but also were without reference to
scientific studies to support the validity of the
respective opinions. And this is to say nothing of
3

Marshall trial transcript, page 1406
Levine trial transcript, page 1219
Baum trial transcript, page 1641

80a
the potential for expert bias. Surely the jury
struggled assigning greater weight to the
testimony of these witnesses. (Order, pages 10 –
11).
While not nearly as dramatic as with DNA testing
procedures, some advancement in protocol for bitemark identification analysis has occurred since the
trial. In fact, the Court has recently heard testimony
from two new experts relating to the field of Forensic
Odontology – Dr. Mary Bush for the Defendant and
Dr. Franklin Wright for the State. Neither Dr. Bush
nor Dr. Wright rendered an opinion on whether the
Defendant’s dental impression was or was not the
source of the bite mark on Dr. Prade’s lab coat or arm.
Dr. Bush, D.D.S., a tenured professor at the School
of Dental Medicine, State University of New York at
Buffalo, testified about the original scientific research
that she, working with others, has published in peerreviewed scientific journals concerning two general
issues: namely, (1) the uniqueness of human dentition;
and (2) the ability of that dentition, if unique, to
transfer a unique pattern to human skin to maintain
that uniqueness.
Dr. Wright, D.D.S., a practicing family dentist who
is also a forensic odontologist, the past president of
and a Diplomate in the American Board of Forensic
Odontology (ABFO), and author of several literature
reviews and scientific articles addressing dental
photography, testified on behalf of the State.
In addition, excerpts from authorities on bite-mark
identification analyses were admitted into evidence at
these proceedings by stipulation of the parties,
specifically excerpts from Paul Giannelli & Edward

81a
Imwinkelreid, Scientific Evidence (4th ed. 2007)
(Giannelli & Imwinkelreid) and from the National
Academy of Sciences, Strengthening Forensic Science
In The United States, A Path Forward (2009).
In 2007, Giannelli & Imwinkelreid stated that “the
fundamental scientific basis for bitemark analysis
ha[s] never been established.” Similarly, the 2009
National Academy of Sciences (NAS) Report observed:
“(1) The uniqueness of the human dentition has not
been scientifically established. (2) The ability of the
dentition, if unique, to transfer a unique pattern to
human skin and the ability of the skin to maintain
that uniqueness has not been scientifically established.
(i) The ability to analyze and interpret the scope or
extent of distortion of bite mark patterns on human
skin has not been demonstrated. (ii) The effect of
distortion on different comparison techniques is not
fully understood and therefore has not been
quantified.” According to the 2009 NAS Report: “Some
research is warranted in order to identify the
circumstances within which the methods of forensic
odontology can provide the probative value.”
As detailed below, Drs. Bush and Wright hold
differing opinions regarding the scientific foundation
for bite-mark identification evidence. Specifically,
Dr. Bush’s view is that the scientific basis for bitemark identification has not been established and,
further, that the existing scientific record shows that
it likely cannot be, while Dr. Wright’s view is that,
although it admittedly is subjective and prone to
evaluator error, bite-mark identification evidence can
be useful adjunctive evidence in limited circumstances
(i.e., a closed population of 2 or 3 potential biters where
the bite mark has individual characteristics and the

82a
potential biters’ dentitions are not similar), so long as
the conclusions are appropriately qualified.
Dr. Bush testified that her original scientific
research relating to bite-mark identification was, in
general, exploring areas that the 2009 NAS Report
identified as requiring research.
She testified
concerning the results of eleven studies that she (with
others) has conducted concerning the issues identified
in the 2009 NAS Report, all of which were published
in peer-reviewed scientific journals.
None of
Dr. Bush’s research detailed above was available at
the time of Douglas Prade’s 1998 trial. Dr. Bush
testified that her research shows that human
dentition, as reflected in bite marks, is not unique and
that human dentition does not reliably transfer
unique impressions to human skin through biting. In
Dr. Bush’s opinion, “these scientific studies raise deep
concern over the use of bitemark evidence in legal
proceedings.”
Conversely, Dr. Wright expressed criticisms of and
reservations about Dr. Bush’s original scientific
research. Dr. Wright testified that, in his view,
Dr. Bush’s practice of using stone dental models
attached to vise grips and applying them to human
cadavers, rather than living skin, does not accurately
replicate how bite marks leave imprints on human
skin during violent crimes. Dr. Wright’s view is that
it is impossible to meaningfully study bite marks as
they occur in violent crimes in a rigorous, controlled,
and scientific manner.
While the Court appreciates Dr. Bush’s efforts to
study the ability of human dentition to transfer unique
patterns to human skin, the Court finds the premises

83a
and methodology of her studies problematic. Rather,
the Court agrees with Dr. Wright’s view that it is
impossible to study in controlled experiments the
issues that the NAS Report says need more research.
Nonetheless, both experts’ opinions call into serious
question the overall scientific basis for bite-mark
identification testimony and, thus, the overall
scientific basis for the bite-mark identification
testimony given by Drs. Marshall and Levine in the
1998 trial.
Although the Court finds Dr. Wright to be an expert
in the current field of bite-mark identification,
Dr. Wright admitted at the hearing that in his view
bite-mark inclusions or exclusions (1) are
appropriately based on observation and experience,
which necessarily entails subjectivity and a lack of
reproducibility under controlled scientific conditions,
and (2) are to be used in a very limited set of
circumstances – closed populations of biters with
significantly different dentitions.
Furthermore,
Dr. Wright was unable to reconcile the 2009 National
Academy of Sciences (NAS) Report finding that
unresolved scientific issues remain. These issues
require more research before the basis for bite-mark
identification can be scientifically established. Lastly,
Dr. Wright’s testimony raises serious questions about
the reliability of the specific bite-mark opinions that
Drs. Marshall and Levine offered in the 1998 trial, as
they both provided opinions that are not consistent
with the ABFO guidelines.4
4

Dr. Levine’s opinion on bite mark evidence has been
subsequently discredited in the case of Burke v. Town of Walpole,
405 F.3d 66 (1st Cir. 2005) where Dr. Levine’s identification ofa

84a
In light of the testimony from Drs. Bush and Wright,
the bite-mark evidence in the 1998 trial, as in State v.
Gillispie, “is now the subject of substantial criticism
that would reasonably cause the fact-finder to reach a
different conclusion,” in that “the new research and
studies cast serious doubt to a degree that was not able
to be raised by the expert testimony presented at the
original determination of guilt by the fact-finder.”
State v. Gillispie, 2d Dist. No. 22877, 2009-Ohio-3640,
P150. Bottom line, forensic odontology is a field in flux,
and the new evidence goes to the credibility and the
weight of the State’s experts’ testimony at the
underlying trial.
As previously stated in this Court’s September 23,
2010 Order, “[u]pon hearing from a forensic analyst
describing updated and reliable methodology used to
determine that Douglas Prade was not a contributor
to the biological material from skins cells (lip and
tongue) found on the sleeve of Dr. Prade’s lab coat, the
jurors would reconsider the credibility of the
respective bite mark experts’ testimony.” (Order, page
11). This statement remains true today.
EYEWITNESS EVIDENCE
In this Court’s Order from September 23, 2010, the
Court expressed some skepticism concerning the
reliability of the testimony from the State’s two key
eyewitnesses – Mr. Robin Husk and Mr. Howard
Brooks - who both purportedly placed the Defendant
near the scene at around the time of the murder.
defendant as the biting perpetrator in a criminal case was shown
to be erroneous, based upon subsequent DNA testing.

85a
Mr. Husk, who worked for the car dealership next to
the crime scene, testified at trial that he saw the
Defendant in Dr. Prade’s office parking lot in the
morning of the murder. However, Mr. Husk did not
come forward with this information to the police until
nine months after the murder and only after months
of press coverage that featured the Defendant’s photo.
Prade, 9th Dist., at P4. Mr. Brooks, a patient of
Dr. Prade’s, testified that as he was standing at the
edge of the parking lot and heard a car “peeling off.”
Brooks testified that the car that exited the parking
lot contained a man with a mustache and wearing a
Russian-type hat, and a big-chested passenger.
Mr. Brooks did not identify the Defendant as the
suspected killer until his third police interview. Id.
At hearing, Defendant presented the testimony of
Dr. Charles Goodsell, an expert in the area of
eyewitness memory and identification. Dr. Goodsell
testified regarding the three stages of memory –
encoding, storage, and retrieval; several factors that
can affect memory; and the accuracy of eyewitness
identifications.
Based upon his review of the two witnesses’
testimony at trial, he determined that a number of
factors could have had an adverse impact on the
accuracy of Mr. Husk’s and Mr. Brooks’ identification
of the Defendant.
Dr. Goodsell testified that
Mr. Husk’s admittedly brief casual encounter at the
dealership prior to the murder, and the significant
delay in time between the encounter and his coming
forward with the information to the police, all the
while seeing the Defendant’s image on television and
in the newspapers, are factors that may have affected

86a
the accuracy and/or altered Mr. Husk’s memory of the
man he saw.
Dr. Goodsell testified that he found Mr. Brooks’
statements to be contradictory - he “didn’t pay it [the
encounter] no attention,” yet was able to provide
specific details of the people in the car that was
“peeling off.” Further, he was not able to identify the
Defendant until his third police interview. Both
factors could have adversely affected the accuracy of
Mr. Brooks’ memory of the driver.
Lastly, Dr. Goodsell testified that a person’s
confidence level can be unduly influenced by
comments from the police or repeated exposure to the
suspect’s image in the media, thereby calling into
question the accuracy of this testimony. The State
counters that Dr. Goodsell did not consider the
possible reasons for Mr. Husk’s and Mr. Brooks’ delay
in coming forward to the police, including not wanting
to get involved, and their certainty that the Defendant
was the person they saw at Dr. Prade’s office on the
morning of the murder.
In its September 23, 2010 Order, this Court initially
questioned the reliability and accuracy of Mr. Husk’s
and Mr. Brooks’ testimony at trial with respect to
seeing the Defendant at the murder scene.
Dr. Goodsell’ s testimony and affidavit with respect to
memory and accuracy of witness identifications in
general, and his opinion as to factors that could have
a negative effect on the accuracy and/or memory of
Mr. Husk’s and Mr. Brooks’ identification of the
Defendant, support this Court’s initial concerns.
Based upon the Y-STR DNA test results, and after
reviewing Dr. Goodsell’ s testimony and affidavit, the

87a
Court believes that a reasonable juror would now
conclude that these two witnesses were mistaken in
their identification of the Defendant.
OTHER CIRCUMSTANTIAL EVIDENCE
The State asserts that other circumstantial
evidence from the trial remains admissible and
relevant for this Court’s determination whether
Defendant has met his burden of proving actual
innocence. The State points to evidence relating to the
Defendant’s alleged motive – his financial problems,
the impending divorce, his jealousy as evidenced by
the taped conversations of Dr. Prade – as well as
testimonial
statements
from
Dr. Prade’s
acquaintances.
To review, Brenda Weeks, a friend of Dr. Prade’s,
testified concerning her efforts to convince Margo to
leave home with her daughters. Annalisa Williams,
Dr. Prade’s
divorce
attorney,
recounted
the
Defendant’s tone of voice and statements that he made
about Margo, namely, calling her a “slut.” Al Strong, a
former boyfriend of Dr. Prade’s, testified that Margo
became very upset over a telephone call she received
regarding the Defendant’s daughters and his current
girlfriend, and that Margo resolved to take more
extreme action with regard to divorce proceedings.
Timothy Holston, Dr. Prade’s fiancé, testified that
Margo became upset after receiving a phone call while
they were away on a Las Vegas trip and learning that
the Defendant had not only entered her house, but
stayed with their daughters. Dr. Prade had recently
changed the door locks to her house and installed a
security system. Lastly, Joyce Foster, Dr. Prade’s
office manager, testified that Margo was afraid of the

88a
Defendant. (State’s Post hearing brief, pages 7 – 8,
State v. Prade (2000), 139 Ohio App.3d. 676, 690 – 694).
The Court notes that statements from two other
individuals were admitted in error. Prade, 139 Ohio
App.3d, supra at 694.
The Court does not want to
minimize the meaning of this evidence and testimony
at trial. That said, this Court’s experience is that
friction, turmoil, and name calling are not uncommon
during divorce proceedings.
The Court next considers evidence relating to the
Defendant’s alibi and the motive for murder. The
State argues that Defendant provided a faulty alibi at
trial. When the Defendant initially arrived on the
scene of the murder at 11:09 a.m., having been paged
by his girlfriend and fellow police officer Carla Smith
and subsequently informed of the murder, officers on
the scene interviewed him. Prade, 139 Ohio App.3d, at
698. The Defendant initially told the police officers
that he had gone to the gym at his apartment complex
to work out at 9:30 a.m. Id. At trial, he attempted to
show as his alibi that he was working out at the time
of the murder between 9:10 a.m. and 9:12 a.m. Id., at
699. One alibi witness at trial confirmed seeing him
in the workout room the morning of the murder but
was unable to establish the specific time. Id. The
other alibi witness denied ever seeing the Defendant
in the workout room on any date. Id. Also, when the
Defendant arrived at the scene he was very calm and
appeared to have just stepped out of the shower,
arguably not the appearance of someone who had left
the gym and rushed to the crime scene. Id., at 698.
Lastly, both the interviewing officer and Dr. Prade’s
mother testified that the Defendant had a scratch on
his chin the day of the murder. Id.

89a
The State also argues that the Defendant’s serious
financial problems and debts were motives for the
murder. A detective testified at trial that a bank
deposit slip belonging to the Defendant was found
during a search of financial documents allegedly
hidden at his girlfriend’s home. Id., at 699. The
deposit slip was dated October 8, 1997, a month and a
half before the murder. Id. On the back of the slip
was a list of handwritten calculations that tallied the
approximate amounts the Defendant allegedly owed
creditors in October, the sum of which was subtracted
from $75,000, the amount of life insurance policy
proceeds for Dr. Prade. Id. The Defendant was still
listed as the beneficiary of the policy at that time. Id.
The Defendant counters twofold – first, that the
amounts listed on the back of the deposit slip do not
add up to the amounts owed in October of 1997, but
rather, more accurately, add up to amounts owed in
the months following the murder; and second, that
other evidence casts doubt on the notion that the
Defendant had money problems at that time.
Upon review, it is clear that the State presented
evidence at trial that finds fault with the Defendant’s,
and that support’s the Defendant’s motive for murder
– the life insurance policy. To what extent the jury
was swayed by this circumstantial evidence this Court
does not know. Suffice it to say that Ninth District
discussed this evidence on appeal as part of sufficiency
of the evidence assignment of error. Prade, 139 Ohio
App.3d., at 698–699.
DEFENDANT’S BURDEN HEREIN
The Court will now address the two requirements
that the Defendant must prove in order to obtain post-

90a
conviction relief: the petition must be timely, and the
Defendant must show by clear and convincing
evidence that, upon consideration of all available
evidence, including the results of the recent Y-STR
DNA testing, he is actually innocent of the felony
offense of aggravated murder.
The Ohio Supreme Court initially remanded this
matter to this Court to determine whether new Y-STR
DNA testing would have been outcome determinative
at the underlying trial, pursuant to his Second
Application for Post-conviction DNA Testing. The
Defendant’s Motion was granted within this Court’s
September 23, 2010 Order. The Y-STR test results are
now back.
R.C. 2953.23(A) governs the timeliness of postconviction petitions. It provides that a DNA-testingbased petition for post-conviction relief is timely when
“the results of the DNA testing establish, by clear and
convincing evidence, actual innocence of that felony
offense.” Based upon this Court’s determination below
that the new DNA testing establishes by clear and
convincing evidence his actual innocence of the felony
offense of aggravated murder, the Defendant’s
Petition for Post-conviction Relief is timely.
This Court had previously determined that the
evidence at trial (the bite-mark evidence, the primary
basis for the guilty verdict, as opined to by State’s trial
experts Dr. Marshall and Dr. Levine; and the
eyewitness testimony by Mr. Husk and Mr. Brooks)
would be compromised should the DNA tests come
back excluding the Defendant as the killer of
Dr. Prade. This finding remains true today.

91a
The parties presented expert testimony at hearing
regarding the field of Forensic Odontology – Dr. Mary
Bush for the Defendant and Dr. Franklin Wright for
the State. As previously stated, neither Dr. Bush nor
Dr. Wright rendered an opinion on whether the
Defendant’s dental impression was or was not the
source of the bite mark on Dr. Prade’s lab coat or arm.
The Court does not find that Dr. Wright’s opinions on
the field of forensic odontology in any way bolster the
State’s case with respect to the opinions of
Dr. Marshall or Dr. Levine in the underlying trial.
Dr. Wright admitted at the hearing that in his view
bite-mark inclusions or exclusions (1) are
appropriately based on observation and experience,
which necessarily entails subjectivity and a lack of
reproducibility under controlled scientific conditions,
and (2) are to be used in a very limited set of
circumstances – closed populations of biters (obviously,
not the situation in the matter) with significantly
different dentitions.
The other circumstantial evidence remains tenuous
at best when compared to the Y-STR DNA evidence
excluding the Defendant as the contributor of the male
DNA on the bite mark section of the lab coat or
anywhere else. The accuracy of the two eyewitnesses’
testimony at trial remains questionable.
The
remaining evidence – the testimony by friends and
family of Dr. Prade’s that she was in fear and/or
mistreated by the Defendant, the arguably faulty alibi
and the deposit slip — is entirely circumstantial and
insufficient by itself to support inferences necessary to
support a conviction for aggravated murder.
Lastly and most important, the Y-STR DNA test
results undisputedly exclude the Defendant as the

92a
contributor of the male DNA found in the bite-mark
section of the lab coat or under Dr. Prade’s fingernails.
The State’s new experts opined that the test results
are meaningless due to contamination, transfer touch
DNA, or analytical error. This Court is not convinced.
The Court concludes that the more probable
explanations for the low level of trace male DNA found
on the bite-mark section of the lab coat are due to
natural deterioration over the years, and to the testing
of the saliva DNA from the bite-mark section of the lab
coat back in 1998. The saliva from those areas was
consumed by the testing procedure, and unfortunately,
these areas cannot be retested at this time.
What are we left with now that the Defendant has
been conclusively excluded as the male DNA
contributor on Dr. Prade’s lab coat and elsewhere? We
have bite-mark identification testimony from
Drs. Marshall and Levine that has been debunked; the
eyewitness testimony of Mr. Husk and Mr. Brooks
that is highly questionable; the testimony from
Dr. Prade’s acquaintances that Margo was afraid of
the Defendant and that friction existed between the
two pending their divorce; the arguably faulty alibi;
and the controversy concerning the October 8, 1997,
deposit slip as it relates to the Dr. Prade’s life
insurance policy.
The Court is not unsympathetic to the family
members, friends, and community who want to see
justice for Dr. Prade. However, the evidence that the
Defendant presented in this case is clear and
convincing. Based on the review of the conclusive YSTR DNA test results and the evidence from the 1998
trial, the Court is firmly convinced that no reasonable
juror would convict the Defendant for the crime of

93a
aggravated murder with a firearm.
The Court
concludes as a matter of law that the Defendant is
actually innocent of aggravated murder. As such, the
Court overturns the Defendant’s convictions for
aggravated murder with a firearms specification, and
he shall be discharged from prison forthwith. The
Defendant’s Petition for Post-conviction relief is
granted.
MOTION FOR NEW TRIAL
Alternatively, Defendant seeks a new trial for
aggravated murder. Under Rule 33 of the Ohio Rules
of Civil Procedure, “[a] new trial may be granted on
motion of the defendant...[w]hen new evidence
material to the defense is discovered which the
defendant could not with reasonable diligence have
discovered and produced at trial.” Crim.R. 33(A)(6).
“To warrant the granting of a motion for a new trial
in a criminal case, based upon the ground of newly
discovered evidence, it must be shown that the new
evidence (1) discloses a strong probability that it will
change the result if a new trial is granted, (2) has been
discovered since the trial, (3) is such that could not in
the exercise of due diligence have been discovered
before the trial, (4) is material to the issues, (5) is not
merely cumulative to former evidence, and (6) does not
merely impeach or contradict the former evidence.”
State v. Petro (1947), 148 Ohio St. 505, syllabus.
Evidence is “material” if the there is a “reasonable
probability” that, had the evidence been disclosed or
been available, the result of the trial would have been
different. State v. Roper, 9th Dist. C.A. No. 22494, 2005
Ohio 4796, P22. “Reasonable probability” of a different
trial result is demonstrated by showing that the

94a
omission of new evidence would “undermine the
confidence in the outcome of the trial.” Id.
The State asserts that “probability” means
something greater than 50% chance (citing a civil
decision from the 10th Appellate District), and as such,
the Court must side with the Defendant’s expert
testimony over the State’s in order to grant the Motion
for New Trial. (Post-hearing Brief, page 2). This
Court notes two fold. First, neither Crim.R. 33 itself,
nor any criminal case decisions interpreting Crim.R.
33, define “probability” as “over 50%.” Second, the
newly discovered evidence is not looked at in a vacuum
– the Court must look at the new evidence in
conjunction with evidence from the underlying trial in
order to determine whether the new evidence would
change the outcome of the trial.5
The State also asserts that Crim.R. 33 is not a
substitute for R.C. 2953.21. Crim.R. 33 appears to
exist independently from R.C. 2953.21. State v. Lee,
10th Dist. No. 05AP-229, 2005 Ohio 6374, P13; State v.
5

“While the granting of a new trial based on newly discovered
evidence obviously involves consideration of newly discovered
evidence, the requirement that there be a strong probability of a
different result less obviously requires consideration of the
evidence adduced at trial. In general, the stronger the evidence
of guilt adduced at trial, the stronger the newly discovered
evidence would have to be in order to produce a strong probability
of a different result. Conversely, the weaker the evidence of guilt
at trial, the less compelling the newly discovered evidence would
have to be in order to produce a strong probability of a different
result. In view of the beyond-a-reasonable- doubt burden of proof,
newly discovered evidence need not conclusively establish a
defendant’s innocence in order to create a strong probability that
a jury in a new trial would find reasonable doubt.” State v.
Gillispie, 2nd Dist. No. 24556, 2012 Ohio 1656, P35.

95a
Georgekopoulos, 9th Dist. C.A. No. 21952, 2004 Ohio
5197; and Roper, at P14. R.C. 2953.21 is a collateral
civil attack on a criminal judgment as “a means to
reach constitutional issues that would otherwise be
impossible to reach because the trial court record does
not contain evidence supporting those issues.” Lee, at
¶ 11. Under Crim.R. 33, a motion for new trial exists
with or without constitutional claims. Id. at P13.
Crim.R. 33 merely requires a determination that
prejudicial error exists to support the motion basically newly discovered evidence exists that could
not with reasonable diligence have been discovered
and produced at trial. Id.
The Court will now address the two requirements
that the Defendant must prove in order for him to
obtain a new trial – the Motion must be timely and the
Defendant must show that the new evidence, here the
DNA test results, in conjunction with the other
evidence from the underlying trial, would show a
strong probability or reasonably probability that the
result of a new trial would be different, is material, not
cumulative, and does not merely impeach or contradict
the trial evidence. The State has stipulated to the
timeliness of the Motion for New Trial. Needless to
say the Y-STR DNA evidence and test results are
newly discovered and could not have been ascertained
at trial.
With respect to the substantive matter of the Motion,
this Court has previously determined, bite-mark
evidence aside, that the evidence of guilt at trial
lacked strength – it was largely circumstantial and, of
course, then-available DNA testing did not link the
Defendant to the bite mark on Dr. Prade’s lab coat, her
bracelet, or fingernail scrapings. The Y-STR DNA test

96a
results are now complete and, significantly, exclude
the Defendant as the contributor of the DNA found on
those items.
The Court’s findings of fact as stated above relating
to the Defendant’s petition for post-conviction relief
are also relevant for the Court’s analysis with respect
to the Defendant’s Motion for New Trial and the,
analysis is incorporated herein. Upon review, the
Court concludes as a matter of law that the Defendant
is entitled to a new trial under Crim.R. 33 for
aggravated murder and the related firearms
specification.
The Y-STR DNA test results are
material, not cumulative, and do not merely impeach
or contradict the circumstantial evidence available in
the underlying trial; rather, they exclude the
Defendant as the contributor of the newly tested male
DNA. Thus, a strong probability exists that had these
new Y-STR DNA test results been available in the
1998 trial, that the trial results would have been
different – the Defendant would not have been found
guilty of aggravated murder.
This Court is cognizant that, should the Defendant’s
Petition for Post-conviction Relief be upheld on appeal,
this Court’s ruling on the Defendant’s Motion for New
Trial will be rendered moot. On the other hand,
should this Court’s ruling on the Defendant’s Petition
be overturned, then this Court’s analysis and ruling on
the Defendant’s Motion will be pertinent.
CONCLUSION
At trial, jurors are instructed that they are the sole
judges of the facts, the credibility of the witnesses, and
the weight to be assigned to the testimony of each
witness and the evidence. Introduction of additional

97a
expert testimony indicates that new Y-STR DNA test
results exclude Douglas Prade as a contributor to DNA
collected from the lab coat at the area of the bite mark
and other places. This new evidence necessarily
requires a re-evaluation of the weight to be given to
the evidence presented at trial. Jurors would be
prompted to reconsider, as set forth above, the
credibility of the key trial witnesses and the
forcefulness of their testimony in the underlying trial,
along with the other circumstantial evidence.
The Court finds that no reasonable juror, when
carefully considering all available evidence in the
underlying trial in light of the new Y-STR DNA
exclusion evidence, would be firmly convinced that the
Defendant Douglas Prade was guilty of aggravated
murder with a firearm. Given such a scenario, the
outcome of the deliberation on these offenses would be
different – the verdict forms would be completed with
a finding of not guilty.
Based primarily upon the test results excluding the
Defendant Douglas Prade as the contributor of the YSTR DNA in the area of the bite mark and elsewhere,
the Court finds Defendant’s Petition for Postconviction Relief, and alternatively, his Motion for
New Trial, both well taken.
Therefore, the
Defendant’s Petition for Post-conviction Relief for
aggravated murder with a firearms specification is
approved. In the alternative, should this Court’s order
granting post-conviction relief be overturned pursuant
to appeal, then the Motion for New Trial is granted.
This is a final and appealable under in accordance
with R.C. 2953.23(B) and Crim.R. 33. There is no just
reason for delay.

98a
SO ORDERED.

JUDGE JUDY HUNTER
cc:
Attorney David Alden
Attorney Mark Godsey
Attorney Michele Berry, amicus curiae
Attorney Michael de Leeuw, amicus curiae
Chief Counsel, Summit County Prosecutor’s Office
Mary Anne Kovach
Ohio Attorney General Mike Dewine

99a

APPENDIX G

THE CONSTITUTION OF THE
UNITED STATES
***
Amendment XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
Section 2. Representatives shall be apportioned
among the several States according to their
respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed.
But when the right to vote at any election for the
choice of electors for President and Vice President
of the United States, Representatives in Congress,
the Executive and Judicial officers of a State, or the
members of the Legislature thereof, is denied to any
of the male inhabitants of such State, being twentyone years of age, and citizens of the United States,
or in any way abridged, except for participation in
rebellion, or other crime, the basis of representation

100a
therein shall be reduced in the proportion which the
number of such male citizens shall bear to the whole
number of male citizens twenty-one years of age in
such State.
Section 3. No person shall be a Senator or
Representative in Congress, or elector of President
and Vice President, or hold any office, civil or
military, under the United States, or under any
State, who, having previously taken an oath, as a
member of Congress, or as an officer of the United
States, or as a member of any State legislature, or
as an executive or judicial officer of any State, to
support the Constitution of the United States, shall
have engaged in insurrection or rebellion against
the same, or given aid or comfort to the enemies
thereof. But Congress may by a vote of two-thirds of
each House, remove such disability.
Section 4. The validity of the public debt of the United
States, authorized by law, including debts incurred
for payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against
the United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5. The Congress shall have power to enforce,
by appropriate legislation, the provisions of this
article.
***

101a

APPENDIX H

OHIO RULES OF CRIMINAL PROCEDURE
***
RULE 33. New Trial
(A) Grounds. A new trial may be granted on
motion of the defendant for any of the following causes
affecting materially his substantial rights:
(1) Irregularity in the proceedings, or in any order
or ruling of the court, or abuse of discretion by the
court, because of which the defendant was
prevented from having a fair trial;
(2) Misconduct of the jury, prosecuting attorney,
or the witnesses for the state;
(3) Accident or surprise which ordinary prudence
could not have guarded against;
(4) That the verdict is not sustained by sufficient
evidence or is contrary to law. If the evidence shows
the defendant is not guilty of the degree of crime for
which he was convicted, but guilty of a lesser degree
thereof, or of a lesser crime included therein, the
court may modify the verdict or finding accordingly,
without granting or ordering a new trial, and shall
pass sentence on such verdict or finding as modified;
(5) Error of law occurring at the trial;
(6) When new evidence material to the defense is
discovered which the defendant could not with

102a
reasonable diligence have discovered and produced
at the trial. When a motion for a new trial is made
upon the ground of newly discovered evidence, the
defendant must produce at the hearing on the
motion, in support thereof, the affidavits of the
witnesses by whom such evidence is expected to be
given, and if time is required by the defendant to
procure such affidavits, the court may postpone the
hearing of the motion for such length of time as is
reasonable under all the circumstances of the case.
The prosecuting attorney may produce affidavits or
other evidence to impeach the affidavits of such
witnesses.
(B) Motion for new trial; form, time. Application
for a new trial shall be made by motion which, except
for the cause of newly discovered evidence, shall be
filed within fourteen days after the verdict was
rendered, or the decision of the court where a trial by
jury has been waived, unless it is made to appear by
clear and convincing proof that the defendant was
unavoidably prevented from filing his motion for a new
trial, in which case the motion shall be filed within
seven days from the order of the court finding that the
defendant was unavoidably prevented from filing such
motion within the time provided herein.
Motions for new trial on account of newly discovered
evidence shall be filed within one hundred twenty days
after the day upon which the verdict was rendered, or
the decision of the court where trial by jury has been
waived. If it is made to appear by clear and convincing
proof that the defendant was unavoidably prevented
from the discovery of the evidence upon which he must
rely, such motion shall be filed within seven days from

103a
an order of the court finding that he was unavoidably
prevented from discovering the evidence within the
one hundred twenty day period.
(C) Affidavits required. The causes enumerated
in subsection (A)(2) and (3) must be sustained by
affidavit showing their truth, and may be controverted
by affidavit.
(D) Procedure when new trial granted. When a
new trial is granted by the trial court, or when a new
trial is awarded on appeal, the accused shall stand
trial upon the charge or charges of which he was
convicted.
(E) Invalid grounds for new trial. No motion for
a new trial shall be granted or verdict set aside, nor
shall any judgment of conviction be reversed in any
court because of:
(1) An inaccuracy or imperfection in the
indictment, information, or complaint, provided
that the charge is sufficient to fairly and reasonably
inform the defendant of all the essential elements of
the charge against him.
(2) A variance between the allegations and the
proof thereof, unless the defendant is misled or
prejudiced thereby;
(3) The admission or rejection of any evidence
offered against or for the defendant, unless the
defendant was or may have been prejudiced
thereby;
(4) A misdirection of the jury, unless the
defendant was or may have been prejudiced
thereby;

104a
(5) Any other cause, unless it affirmatively
appears from the record that the defendant was
prejudiced thereby or was prevented from having a
fair trial.
(F) Motion for new trial not a condition for
appellate review. A motion for a new trial is not a
prerequisite to obtain appellate review.
***

105a

APPENDIX I

IN THE SUPREME COURT OF OHIO
STATE OF OHIO,

)
)
Plaintiff)
Appellee,
)
)
v.
)
)
DOUGLAS PRADE,
)
)
Defendant- )
Appellant. )

Supreme Court Case
No. 2019-_____
On Appeal From The
Summit County Court of
Appeals Ninth Appellate
District
Court of Appeals Case
No. 28193
Filed January 07, 2019

APPELLANT DOUGLAS PRADE’S
MEMORANDUM IN SUPPORT OF
JURISDICTION
***

106a
THIS CASE PRESENTS ISSUES OF PUBLIC
AND GREAT IMPORTANCE
This case presents two important issues relating to
the seminal decision setting forth the requirements
that criminal defendants in Ohio must satisfy when
seeking a new trial based on newly discovered
evidence—State v. Petro, 148 Ohio St. 505, 76 N.E.2d
370 (1947), syllabus. First, Petro established a
daunting burden of proof—a “strong probability” that,
in a new trial, the defendant would be acquitted. Id.
A “strong probability” burden of proof is “one of clear
and convincing evidence.” State v. Ayers, 185 Ohio
App.3d 168, 2009-Ohio-6096, 923 N.E.2d 654, ¶ 21
(8th Dist.). But the burden of proof set forth in Petro
was dictum that, in turn, relied on dictum from State
v. Lopa, 96 Ohio St. 410, 117 N.E. 319 (1917). There,
without analysis or comment, the court elevated the
burden of proof from “probable” to a “strong
probability.” Compare Gandolfo v. State, 11 Ohio St.
114, 119 (1860). Today, no other U.S. jurisdiction—
federal or state—applies a burden of proof in this
context that is higher than a preponderance (see n.2 &
n.3 infra at page 11). Thus, except in Ohio, defendants
are granted a new trial when newly discovered
evidence make it more likely than not that, in a new
trial where a jury would hear all of the admissible
evidence, there would be reasonable doubt. Ohio’s
elevated burden of proof is unfair, illogical, and a
denial of fundamental fairness and Due Process.
Second, courts confronted with advances in forensic
science showing that material opinions offered by trial
experts are groundless or would be inadmissible have
taken widely divergent approaches when assessing
whether, under Petro, this type of new evidence is

107a
merely cumulative of, impeaches, or contradicts
evidence admitted at trial. The Second District found
that a new trial may be warranted “where subsequent
research and studies demonstrate that the expert
testimony admitted at trial should not have been
admitted or is now the subject of substantial criticism
that would reasonably cause the fact-finder to reach a
different conclusion.” State v. Gillispie, 2d Dist.
Montgomery No. 22877, 2009-Ohio-3640, ¶ 150. The
courts below, however, dismissed post-trial advances
in scientific knowledge that show that the State’s key
forensic expert opinions tying the bite mark on the
victim’s arm to Mr. Prade’s teeth would be
inadmissible today, characterizing them as “merely
cumulative of the trial testimony or merely serv[ing]
to impeach or contradict portions of it.” State v. Prade,
2018-Ohio-3551, 107 N.E.3d 1268, ¶ 53 (9th Dist.)
(“Prade II”); see also 3/11/16 Order at 10.
Fundamental fairness and Due Process require that,
when post-trial scientific advances prove trial experts’
opinions to be false or inadmissible, those scientific
advances are not merely cumulative, impeaching, or
contradicting under Petro and, instead, may warrant
a new trial.
Further, the court should accept jurisdiction here
because these issues were central to the wrongful
denial of former Akron Police Captain Prade’s new
trial motion. Both lower courts premised their rulings
on the rigorous “strong probability” burden of proof.
Moreover, Mr. Prade has presented compelling new
evidence of his innocence; namely, (1) male DNA over
the killer’s bite mark from which Mr. Prade was
definitively excluded and (2) new research and
professional standards that bar the trial experts’ bite

108a
mark opinions tying Mr. Prade to the bite on
Dr. Prade’s arm—opinions without which the actual
jurors said they would not have convicted. Thus, while
the State’s 1998 closing argued that the bite mark
“[a]bsolutely” was Mr. Prade’s and that “[b]ecause
Douglas Prade did the biting, Douglas Prade did the
killing” (TT 2302:7–17), the bite mark—the State’s key
physical evidence at trial—now points to innocence,
not guilt.
The new evidence here convinced a judge that there
is clear and convincing evidence that Mr. Prade is
innocent. It prompted The Plain Dealer, the Akron
Beacon Journal, and Dr. & Mr. Prade’s children to call
for a new trial.1 “The people of Ohio and [Mr.] Prade
are entitled to a fair trial . . . [t]hat still has not
happened, and it should.” State ex rel. Prade v. Ninth
Dist. Ct. App., 151 Ohio St.3d 252, 2017-Ohio-7651, 87
N.E.3d 1239, ¶¶ 31–33 (O’Neill, J., dissenting).
STATEMENT OF THE CASE AND FACTS
A.

Dr. Prade’s Murder And Mr. Prade’s Trial
And Conviction

On November 26, 1997, Dr. Margo Prade was
fatally shot in her van outside her Akron medical
1

The Plain Dealer (Aug. 1, 2014) (https://www.cleveland.com/
opinion/index.ssf/2014/08/douglas_prade_should_not_go_ba.
html) (last visited Dec. 29, 2018); Akron Beacon Journal (Aug. 15,
2015) (available at https://www.ohio.com/akron/editorial/
logic-of-a-new-trial-for-douglas-prade
https://www.ohio.com/
akron/editorial/logic-of-a-new-trial-for-douglas-prade)
(last
visited Dec. 29, 2018); Akron Beacon Journal (Jan. 4, 2016)
(https://www.ohio.com/akron/news/top-stories-news/douglasprade-s-daughters-stand-by-their-father-as-he-fights-for-newtrial-in-1997-murder-of-his-ex-wife-dr-margo-prade) (last visited
Dec. 29, 2018).

109a
offices. No one witnessed the murder. The gun was
not found. But, during the struggle, Dr. Prade’s killer
bit her arm so hard that, through two layers of
clothing—her lab coat and blouse—his teeth left a bite
mark impression on her skin. (TT 1164:3–1165:8;
1211:10–17).
In February 1998, Dr. Prade’s ex-husband, Akron
Police Captain Douglas Prade, was charged with
Dr. Prade’s murder. At his September 1998 trial,
much of the State’s case focused on the Prades’
difficult relationship before and after their April 1997
divorce. In terms of direct physical evidence, the
State’s DNA testing expert agreed that the small area
of the lab coat over the killer’s bite mark was “the best
possible source of DNA evidence as to [Dr. Prade’s]
killer’s identity.” (TT 1125:13–22). A defense dental
expert testified that the killer “probably slobbered all
over” the lab coat over the bite mark. (TT 1629:5–10).
This testimony was confirmed by both a positive test
for amylase—an enzyme in saliva—and microscopic
observation of human epithelial cells on the bite mark
section of the lab coat. But, in 1998, DNA testing
technology could not identify trace amounts of one
person’s DNA within large quantities of another
person’s DNA, and, here, Dr. Prade’s lab coat was
soaked with her blood, which meant that the 1998
DNA test results yielded no information about the
killer.
“The key physical evidence at trial” was testimony
from the State’s two forensic dentists—odontologists—
about “the bite mark that the killer made on
Dr. Prade’s arm through her lab coat and blouse.”
State v. Prade, 126 Ohio St.3d 27, 2010-Ohio-1842, 930
N.E.2d 287, ¶ 3 (“Prade I”). One testified that the

110a
killer’s bite mark “was made by Captain Prade.” (TT
1406:12–14). The other said the mark was “consistent
with” Mr. Prade’s teeth. (TT 1219:5–10). The State
argued in closing that Mr. Prade “[a]bsolutely” made
the bite mark and “[b]ecause Douglas Prade did the
biting, Douglas Prade did the killing.” (TT 2302:7–17).
Jurors interviewed on television said they could not
have convicted without the bite mark.
The State also offered testimony from two eye
witnesses. One testified that he saw Mr. Prade near
the murder scene before the murder, but admitted
that, although he learned of the murder the day it
occurred, he only came forward nine months later
after months of press coverage that had featured
Mr. Prade’s picture. (TT 1263:4–1265:17; 1273:7–23;
1278:9–22). Another was in the parking lot as the
killer’s car “peel[ed] off” and, while he “didn’t pay it no
attention” and could not identify anyone when
interviewed shortly after the murder, identified
Mr. Prade months later.
(TT 1058:24–1059:22;
1424:14–1426:1; 1791:6–1792:11). An alibi witness
testified that Mr. Prade was exercising at about the
time of the murder. (TT 1527:2–22). The jurors
interviewed after the trial said they dismissed the
eyewitnesses’ testimony.
The jury convicted and, on direct appeal, the Ninth
District affirmed, noting at length testimony from one
of the State’s forensic bite mark experts that
purportedly “established that the bite mark . . . was
made by defendant” in its findings on the weight and
sufficiency of the evidence. State v. Prade, 139 Ohio
App.3d 676, 699–700, 745 N.E.2d 475 (9th Dist. 2000).

111a
B.

Post-Trial Advances In Forensic Science

There have been two major advances in forensic
science that are relevant here. First, the DNA testing
method that yielded only meaningless results at the
time of Mr. Prade’s 1998 trial has been replaced by
Y-chromosome STR or “Y-STR” testing, which has an
“unparalleled ability . . . to exonerate the wrongly
convicted.” Maryland v. King, 569 U.S. 435, 442, 133
S.Ct. 1958, 186 L.Ed.2d 1 (2013) (citation omitted).
Y-STR DNA testing technology detects only the male
Y-chromosome and, thus, can provide information
about male DNA within large quantities of female
DNA, such as the male DNA on Dr. Prade’s lab coat
over her killer’s bite mark.
Second, odontology—the “science” underlying the
State’s experts’ opinions tying Mr. Prade to
Dr. Prade’s killer’s bite mark—has been proven to be
highly unreliable at matching biters to bite marks on
skin, and the scope of permissible bite mark
identification opinions has been dramatically
narrowed.
The National Academies of Science
concluded in 2009 for the first time that a basis for bite
mark identification “has not been scientifically
established.” NAS, Strengthening Forensic Science in
the United States: A Path Forward, at 175 (2009).
Specifically, odontology’s scientific premises—that
(1) dentition is unique and (2) human skin records
dental impressions with enough sensitivity to be
accurately matched to an individual—are “not
supported by foundational research” and “the only
rigorous studies are recent—and undercut the
technique’s validity.” Paul Giannelli, “Forensic
Science: Daubert’s Failure,” 68 Case W. Res. L. Rev.
869, 878 (2018) (footnotes omitted). Texas imposed a

112a
moratorium on bite mark evidence in 2016. See id. at
880–81. A study of experts certified by the American
Board of Forensic Odontology (“ABFO”)—the only
accrediting entity in the field—found that their bite
mark opinions did not agree with one another over
95% of the time. (10/15/15 Iain Pretty Aff. at ¶ 13
(hereafter “Pretty Aff.”) (Ex. A to Def s Mot. to Supp.
Record (filed 10/26/15)).
Significantly, ABFO’s
guidelines now bar the bite mark opinions presented
at Mr. Prade’s 1998 trial. (Id. at ¶ 23). Indeed, they
“prohibit[] individualization testimony entirely.” Ex
parte Chaney, No. WR-84, 091-01, 2018 Tex. Crim.
App. LEXIS 1243, at *32 (Dec. 19, 2018).
C.

Newly Discovered Evidence In
Mr. Prade’s Case And The Rulings Below

On February 5, 2008, Mr. Prade filed an application
for new DNA testing under R.C. 2953.72. The trial
court denied the application because the 1998 DNA
testing over the killer’s bite mark purportedly was a
“prior definitive DNA test” that barred new DNA
testing under R.C. 2953.74(A). The court of appeals
affirmed, but this court reversed because the DNA test
results using outdated methods were “meaningless”
and did not bar new testing that might “provide new
information that [previously] was not able to be
detected.” Prade I, 2010-Ohio-1842, ¶¶ 19, 23. This
court remanded for a determination of whether “new
DNA testing would be outcome-determinative” under
R.C. 2953.74(B)(2). Id. at ¶ 28.
On remand, Common Pleas Judge Judy Hunter
found that new DNA test results could be “outcome
determinative” and directed that new DNA testing
should go forward. DNA Diagnostics Center then

113a
tested samples from a small cutting from Dr. Prade’s
lab coat over the killer’s bite mark that had been
excised by the FBI’s forensic laboratory in early 1998
and then stored in an evidence envelope. A sample
from the center of the bite mark revealed a single,
partial male DNA profile from which Mr. Prade was
definitively excluded. Another sample consisting of
the remaining extract from the first sample and
extract from three other areas within the bite mark
showed two partial male DNA profiles from which,
again, Mr. Prade was definitively excluded. At the
State’s request, Judge Hunter then directed Ohio
BCI&I to test samples from the lab coat outside the
killer’s bite mark to determine if the lab coat was
contaminated with stray male DNA. Ohio BCI&I
found no traces of stray, contaminating DNA.
On June 29, 2012, Mr. Prade filed a petition for
postconviction relief or, in the alternative, a motion for
a new trial. In a November 2012 evidentiary hearing
before Judge Hunter, two defense DNA experts
testified that Dr. Prade’s killer is the most likely
source of the newly discovered male DNA over the bite
mark, which would mean that Mr. Prade is innocent.
The State’s DNA experts testified that, although the
newly discovered male DNA may be the killer’s, which
would mean that Mr. Prade is innocent, they thought
it was better explained as contamination. A defense
dental expert testified that her then-recent, peerreviewed scientific articles demonstrate that bite
mark identification lacks a scientific basis, and a
forensic odontologist called by the State testified that,
while bite mark identification can be useful in some
circumstances, then-current professional standards
would not permit either of the bite mark identification

114a
opinions given at Mr. Prade’s trial. In a January 29,
2013, order, Judge Hunter found the State’s
circumstantial evidence at trial—evidence the actual
jurors said they largely dismissed—to be “tenuous at
best when compared to the Y-STR DNA evidence.”
(1/29/13 Order at 20). She concluded that the newly
discovered evidence clearly and convincingly showed
that Mr. Prade is actually innocent (the “Exoneration
Order”) and, as alternative relief, granted Mr. Prade’s
motion for a new trial. (Id. at 21, 25). He was released
from prison that day.
The State appealed the Exoneration Order, and the
Ninth District (1) rejected the defense DNA experts’
opinions that the killer was a likely source of the male
DNA found over his bite mark; (2) excused the
admission of the now-inadmissible bite mark
identification evidence because the jury was
“presented with the entire spectrum of opinions;”
(3) weighed the circumstantial evidence and, unlike
the actual jurors and Judge Hunter, found it
compelling; and (4) reversed. State v. Prade, 2014Ohio-1035, 9 N.E.3d 1072, ¶¶ 18, 112, 121, 129, 130
(9th Dist.), rev. denied, 139 Ohio St.3d 1483, 2014Ohio-3195, 12 N.E.3d 1229. After over 17 months of
freedom, Mr. Prade was reincarcerated. The State
then appealed Judge Hunter’s new trial order, but the
Ninth District dismissed the appeal sua sponte
because, although there was no contingency, the order
purportedly was conditional. State v. Prade, 9th Dist.
Summit No. 27323, 8/14/14 J.E. at 2, rev. denied, 142
Ohio St.3d 1449, 2015-Ohio-1591, 29 N.E.3d 1004.
Judge Hunter retired and was succeeded by Judge
Christine Croce who, after Judge Hunter’s
Exoneration Order was reversed and her new trial

115a
order was deemed non-final, reconsidered the new
trial motion. In an October 2015 hearing, the four
DNA experts who testified before Judge Hunter
provided the same opinions they previously had
provided.
Further, and contrary to the Ninth
District’s finding in the exoneration appeal that “there
was never a shred of evidence . . . that the killer
actually deposited saliva on the lab coat,” 2014-Ohio1035, ¶ 117, they agreed that, in 1998 testing of the
lab coat over the bite mark, both the enzyme in saliva
and human epithelial cells were identified. Judge
Croce also considered the bite mark testimony from
the November 2012 hearing and an affidavit from an
odontologist, Dr. Iain Pretty, describing his recent bite
mark research and explaining that, today, ABFO
guidelines do not permit the bite mark opinions
offered at Mr. Prade’s 1998 trial. (Pretty Aff. at ¶¶ 13,
23).
In a March 11, 2016, order, Judge Croce, applying a
“strong probability” burden of proof (at 3,4, 9, 16, 17,
18) over objection, denied the new trial motion that
Judge Hunter had granted. (Id. at 18). She found that
the new DNA test results excluding Mr. Prade from
male DNA found over the killer’s bite mark were “the
same exclusion as in the 1998 criminal trial” and that
the fact that the DNA testing elsewhere on the lab coat
was negative somehow showed that the male DNA
over the bite mark was mere contamination. (Id. at
12, 18). Ignoring the request that she analyze the
admissibility of the trial bite mark opinions in light of
the new scientific understanding and professional
standards, she determined that the “sea of changing
opinions in the science of bite mark identification” was

116a
“merely additional criticism[] and/or impeachment of
the testimony presented at trial.” (Id. at 10).
In a September 5, 2018, decision and journal entry
and a November 26, 2018, ruling denying a motion for
reconsideration, the Ninth District affirmed. Prade II,
2018-Ohio-3551, ¶ 1; 11/26/18 J.E. As to the new DNA
evidence, the Ninth District emphasized the burden of
proof, observing that “Mr. Prade has not shown that
there is a strong probability the new results would lead
to a different outcome if introduced at a new trial.”
2018-Ohio-3551, at ¶ 41 (emphasis in original); id. at
¶ 44 (same). As to the new research showing that the
trial bite mark opinions have no scientific basis and
the new bite mark guidelines that prohibit them, the
court agreed with Judge Croce that they were the
“merely cumulative of the trial testimony or merely
served to impeach or contradict portions of it.” Id. at
¶ 53.
ARGUMENT IN SUPPORT OF PROPOSITIONS
OF LAW
In 1947, this court outlined the requirements that
newly discovered evidence must satisfy to warrant a
new criminal trial in State v. Petro, 148 Ohio St. 505,
76 N.E.2d 370 (1947):
[I]t must be shown that the new evidence
(1) discloses a strong probability that it will
change the result if a new trial is granted, (2) has
been discovered since the trial, (3) is such as
could not in the exercise of due diligence have
been discovered before the trial, (4) is material to
the issues, (5) is not merely cumulative to former
evidence, and (6) does not merely impeach or
contradict the former evidence. (State v. Lopa, 96

117a
Ohio St. 410, 117 N.E. 319 (1917), approved and
followed.)
Syllabus (emphasis added). The first issue here
focuses on Petro’s first element—the “strong
probability” burden of proof—while the second focuses
on Petro’s, last two elements—when newly discovered
evidence is “merely cumulative” or “merely
impeach[es] or contradict[s].”
Proposition of Law No. 1: The burden of proof
when a criminal defendant seeks a new trial
based on newly discovered evidence under
Crim.R. 33 should be a preponderance of the
evidence, not a strong probability.
Under Petro, newly discovered evidence warrants a
new trial only when it “discloses a strong probability
that it will change the result if a new trial is granted.”
Id. (emphasis added). A “strong probability” burden
of proof is “one of clear and convincing evidence.” State
v. Ayers, 185 Ohio App.3d 168, 2009-Ohio-6096, 923
N.E.2d 654, ¶ 21 (8th Dist.). As Justice Stewart
observed when she sat on the Eighth District, it is
“more than a preponderance of the evidence and less
than beyond a reasonable doubt—in other words,
functionally equivalent to the clear and convincing
evidence standard.” State v. King, 8th Dist. Cuyahoga
No. 97683, 2012-Ohio-4398, ¶ 39 (Stewart, J.,
dissenting) (citations omitted). Courts use the “strong
probability” and “clear and convincing” burdens
interchangeably or together. E.g., State v. Anderson,
10th Dist. Franklin No. 13AP-831, 2014-Ohio-1849,
¶ 16; State v. Vinzant, 2d Dist. Montgomery No.
22383, 2008-Ohio-4399, ¶ 9; State v. Dejohn, 8th Dist.

118a
Cuyahoga No. 69297, 1996 Ohio App. LEXIS 2353, *18
(June 6, 1996).
But the burden of proof was neither at issue nor
analyzed in Petro, and Petro’s listing of requirements
for a new trial based on newly discovered evidence
followed and approved State v. Lopa, 96 Ohio St. 410,
411, 117 N.E. 319 (1917). Lopa—another case where
the burden of proof was neither at issue nor
analyzed—asserted that it “has been frequently
announced by this court” that, to grant a new trial
based on newly discovered evidence, the trial court
must find, among other things, “a strong probability
that the newly discovered evidence will result in a
different verdict.” Id. Lopa, however, cited no
authority for this proposition, which is not surprising
because there was none. This court previously had
applied a lower, “probable” burden of proof. Gandolfo
v. State, 11 Ohio St. 114, 119 (1860). Thus, Ohio’s
“strong probability” burden of proof for granting a
criminal defendant a new trial based on newly
discovered evidence (1) rests on dictum in a decision
issued shortly after World War II—Petro—(2) that
relied on dictum in a decision issued during World
War I—Lopa—(3) where,
without
comment
or
explanation, the court elevated the burden of proof
from “probable” to a “strong probability.”
Today, Ohio stands alone as the only U.S.
jurisdiction that applies a burden of proof higher than
a preponderance of the evidence to new trial motions
based on newly discovered evidence in criminal cases.
Federal courts uniformly apply a preponderance of the

119a
evidence burden of proof.2 Likewise, every other state
applies a burden of proof in this context that equates
to either a preponderance or a still-lower burden.3
2

E.g., United States v. Flores-Rivera, 787 F.3d 1, 15 (1st Cir.
2015) (new evidence “will probably result in an acquittal upon
retrial of the defendant”) (quotation marks and citation omitted);
United States v. Chapman, 851 F.3d 363, 381 (5th Cir. 2017)
(same); see generally, 3 C.A. Wright et al., Fed. Prac. & P.: Crim.
§ 584 (4th ed. Thomson Reuters 2018) (new evidence must be such
that it “would probably produce an acquittal”) (footnote omitted).
3

Five states apply burdens lower than a preponderance—a
reasonable probability, substantial possibility, or substantial risk
of a different verdict. MA: Commonwealth v. Moore, 109 N.E.3d
484, 504 (Mass. 2018); MD: Thompson v. State, 985 A.2d 32, 43–
44 (Md. Ct. App. 2009); MT: State v. Clark, 197 P.3d 977, 980
(Mont. 2008); OK: Underwood v. State, 252 P.3d 221, 254–5
(Okla. Crim. App. 2011); WI: State v. McAllister, 911 N.W.2d 77,
86 (Wis. 2018). All remaining states except Ohio apply a
preponderance standard of proof—probable, probably, likely,
ought to, or should have. AL: Banks v. State, 845 So. 2d 9, 16
(Ala. Crim. App. 2002); AK: Hensel v. State, 604 P.2d 222, 231
(Alaska 1979); AR: Johnson v. State, 515 S.W.3d 116, 118 (Ark.
2017); AZ: State v. Valenzuela, 426 P.3d 1176, 1193–94 (Ariz.
2018); CA: People v. O’Malley, 365 P.3d 790, 844 (Cal. 2016); CO:
Farrar v. People, 208 P.3d 702, 707 (Colo. 2009); CT: Asherman
v. State, 521 A.2d 578, 581 (Conn. 1987); DE: Hicks v. State, 913
A.2d 1189, 1194 (Del. 2006); FL: Sweet v. State, 248 So. 3d 1060,
1068 (Fla. 2018); GA: Anthony v. State, 807 S.E.2d 891, 896 (Ga.
2017); HI: State v. Caraballo, 615 P.2d 91, 93 (Haw. 1980); IA:
Moon v. State, 911 N.W.2d 137, 151 (Iowa 2018); ID: State v.
Drapeau, 551 P.2d 972, 978 (Idaho 1976); IL: State v. Molstad,
461 N.E.2d 398, 402 (Ill. 1984); IN: Kubsch v. State, 934 N.E.2d
1138, 1145 (Ind. 2010); KS: Beauclair v. State, 419 P.3d 1180,
1189 (Kan. 2018); KY: Commonwealth v. Clark, 528 S.W.3d 342,
344–45 (Ky. 2017); LA: State v. McKinnies, 171 So. 3d 861, 868
(La. 2014); ME: State v. Twardus, 72 A.3d 523, 531–32 (Me.
2013); MI: People v. Grissom, 821 N.W.2d 50, 63 (Mich. 2012);
MN: State v. Fort, 768 N.W.2d 335, 344 (Minn. 2009); MO: State
v. Taylor, 589 S.W.2d 302, 305 (Mo. 1979); MS: Roach v. State,

120a
Thus, criminal defendants in Ohio state courts, unlike
those in any other U.S. jurisdiction, are denied a new
trial even when new evidence that could not have been
discovered before trial makes it “likely,” makes it
“probable,” or creates a “reasonable probability” that,
in a new trial with a complete record including the new
evidence, there would be reasonable doubt and they
would be acquitted. That is a denial of fundamental
fairness and Due Process because “[t]he near-uniform
application of a [burden of proof] that is more
protective of the defendant’s rights than a . . . clear
and convincing [standard] supports [the] conclusion
that the heightened standard offends a principle of
justice that is deeply ‘rooted in the traditions and
conscience of our people.’” Cooper v. Oklahoma, 517
U.S. 348, 362, 116 S.Ct. 1373, 134 L.Ed.2d 498 (1996)
116 So. 3d 126, 131 (Miss. 2013); NC: State v. Rhodes, 743 S.E.2d
37, 39 (N.C. 2013); ND: Kovalevich v. State, 915 N.W.2d 644, 646
(N.D. 2018); NE: State v. Oldson, 884 N.W.2d 10, 69 (Neb. 2016);
NH: State v. Breest, 155 A.3d 541, 549 (N.H. 2017); NJ: State v.
Herrerra, 48 A.3d 1009, 1030 (N.J. 2012); NM: State v. Garcia,
125 P.3d 638, 640 (N.M. 2005); NV: Sanborn v. State, 812 P.2d
1279, 1284-85 (Nev. 1991); NY: State v. Marino, 99 A.D.3d 726,
730, 951 N.Y.S.2d 740 (2012); OR: State v. Arnold, 879 P.2d 1272,
1276 (Ore. 1994); PA: Commonwealth v. Pagan, 950 A.2d 270,
292 (Pa. 2008); RI: State v. Drew, 79 A.3d 32, 38 (R.I. 2013); SC:
State v. Mercer, 672 S.E.2d 556, 565 (S.C. 2009); SD: State v.
Corean, 791 N.W.2d 44, 51 (S.D. 2010); TN: State v. Nichols, 877
S.W.2d 722, 737 (Tenn. 1994); TX: State v. Arizmendi, 519
S.W.3d 143, 148–49 (Tex. Crim. App. 2017); UT: State v. Pinder,
114 P.3d 551, 564 (Utah 2005); VA: Avent v. Commonwealth, 688
S.E.2d 244, 261 (Va. 2010); VT: State v. Schreiner, 944 A.2d 250,
257 (Vt. 2007); WA: State v. Mullen, 259 P.3d 158, 171 (Wash.
2011); WV: State v. Daniel M., No. 17-0714, 2018 W. Va. LEXIS
759, *17 (Nov. 19, 2018); WY: Lindstrom v. State, 368 P.3d 896,
899 (Wyo. 2016).

121a
(citation omitted); see Schad v. Arizona, 501 U.S. 624,
640, 111 S.Ct. 2491, 115 L.Ed.2d 555 (1991) (a “widely
shared practice” is one of the “concrete indicators of
what fundamental fairness and rationality require”).
This court should align Ohio law with the law in every
other U.S. jurisdiction.
Moreover, this court should accept jurisdiction
because the burden of proof mattered in this case. It
is undisputed that there was male DNA over the
killer’s bite mark that was not Mr. Prade’s. Both lower
courts relied on the rigorous “strong probability”
burden of proof in denying Mr. Prade a new trial, with
the Ninth District italicizing that burden for emphasis
when explaining its affirmance of the lower court’s
rejection of the new DNA evidence. Prade II, 2018Ohio-3551, ¶ 41 (“Mr. Prade has not shown that there
is a strong probability the new results would lead to a
different outcome if introduced at a new trial.”) (Ninth
District’s emphasis); see also id. at ¶ 44; 3/11/16 Order
at 3, 4, 9, 16, 17, 18.
Indeed, the new DNA and bite mark identification
evidence here convinced Judge Hunter not only that
Mr. Prade deserves a new trial, but that he is
innocent. (1/29/13 Order at 25, rev’d, 2014-Ohio-1035,
9 N.E.3d 1072 (9th Dist.)). Three trial jurors said on
national television that they would not have convicted
without the now-inadmissible bite mark identification
evidence. Editorials in The Plain Dealer and Akron
Beacon Journal called for Mr. Prade to have a new
trial, as have the Prades’ children. (See n.l supra at
page 2). And a member of this court had “no doubt
that this case needs to go to a new jury” and observed
that Mr. Prade is “entitled to a fair trial . . . [t]hat still
has not happened, and it should.” State ex rel. Prade

122a
v. Ninth Dist. Ct. App., 151 Ohio St.3d 252, 2017-Ohio7651, 87 N.E.3d 1239, ¶¶ 31–33 (O’Neill, J.,
dissenting).
Proposition of Law No. 2: New evidence of major
post-trial
scientific
developments
demonstrating that material forensic evidence
admitted at trial lacks a scientific basis or would
be prohibited by current professional standards
should not be disqualified as “merely”
cumulative, impeaching or contradicting
evidence under State v. Petro, 148 Ohio St. 505,
76 N.E.2d 370 (1947), syllabus, and may warrant
a new trial.
Ohio courts confronted with new trial motions based
on new scientific evidence that severely undermines or
requires the exclusion of material forensic trial
evidence have taken divergent approaches when
considering if that evidence is “merely” cumulative,
impeaching, or contradictory under Petro. Mr. Prade
submits that the correct approach is the one set forth
in State v. Gillispie, 2d Dist. Montgomery No. 22877,
2009-Ohio-3640, ¶¶ 148–150. Gillispie noted that, of
course, “expert testimony may not be considered newly
discovered for purposes of a new trial motion simply
because recent studies may lend more credibility to
expert testimony that was or could have been
presented at trial.” Id. at ¶ 148. But Gillispie
distinguished situations where, as here, new scientific
evidence is “qualitatively different” and “subsequent
research and studies demonstrate that the expert
testimony admitted at trial should not have been
admitted or is now the subject of substantial criticism
that would reasonably cause the fact-finder to reach a
different conclusion.” Id. at ¶¶ 149, 150; see State v.

123a
Hill, 11th Dist. Trumbull No. 2016-T-0099, 2018Ohio-4800, ¶ 86 (trial court assumed “the validity of
[the defendant’s] bite mark evidence and proceeded on
the assumption that his evidence would have
precluded the admission of the State’s evidence at
trial”). And Gillispie also distinguished situations
where, as here, “the results of subsequent research
and studies demonstrate significant jumps in our
knowledge or skills (e.g., the improvements in DNA
analysis), such that the new research and studies cast
serious doubt to a degree that was not able to be raised
by the expert testimony presented at the original
determination of guilt by the fact-finder.” 2009-Ohio3640, ¶ 150.
Thus, under Gillispie, new evidence in the form of
“subsequent research and studies demonstrat[ing]
that the expert testimony admitted at trial should not
have been admitted or is now the subject of substantial
criticism” is not merely impeaching, cumulative, or
contradictory under Petro (id. at ¶¶ 48, 150) and,
instead, may require a new trial. This is consistent
with approaches taken elsewhere, including in cases
like this one involving no-longer-admissible and nolonger-accurate bite mark opinions. E.g., Ex parte
Chaney, No. WR-84, 091-01, 2018 Tex. Crim. App.
LEXIS 1243, at *32 (Dec. 19, 2018) (overturning
conviction based on bite mark evidence where current
ABFO guidelines would bar trial bite mark opinions);
State v. Richards, 371 P.3d 195 (Cal. 2016)
(overturning conviction based on bite mark evidence
where scientific advances showed that trial bite mark
opinions were unreliable).
Here, although Mr. Prade asked them to apply
Gillispie, the lower courts concluded that scientific

124a
advances showing that bite mark identification has no
scientific basis were the “same basic criticisms”
presented at trial and, under Petro, were “merely
cumulative of the trial testimony or merely served to
impeach or contradict portions of it.” State v. Prade,
9th Dist. Summit No. 28193, 2018-Ohio-3551, ¶ 53;
3/11/16 Order at 10. Importantly, they ignored the
fact that, today, professional guidelines do not allow
the opinions provided at trial that tied Mr. Prade to
the killer’s bite mark (Pretty Aff. at ¶ 23)—opinions
the jurors said were central to the conviction. New
evidence showing that important forensic evidence
introduced at trial is scientifically unfounded or now
would be inadmissible plainly is not merely
cumulative, impeaching, or contradictory. And the
issue is not limited to bite marks, as there have been
similar, major advances in other forensic sciences.
E.g., State v. Webb, 12th Dist. Clermont No. CA201401-013, 2014-Ohio-2894, ¶¶ 45–50 (fire science); State
v. Johnson, 8th Dist. Cuyahoga No. 93635, 2010-Ohio4117, ¶¶ 30–31 (contamination science); State v.
Glover, 8th Dist. Cuyahoga No. 93623, 2010-Ohio4112, ¶ 26 (gun short residue science).
When, as here, post-trial scientific developments
show that material trial expert testimony was
unfounded (and, in that sense, false) or would be
inadmissible under current professional standards,
those developments are not merely impeaching,
cumulative, or contradicting; instead, they warrant a
new trial in appropriate circumstances. The court
should endorse Gillispie’s framework for dealing with
new trial motions based on major post-trial scientific
advances.

125a
CONCLUSION
The Court should accept jurisdiction.
January 7,2019

David B. Alden (Bar
#6,143) (Counsel of
Record)
Lisa B. Gates
(Bar #40,392)
Michael P. Koslen
(Bar #95,564)
JONES DAY
North Point, 901
Lakeside Avenue
Cleveland, Ohio 44114
Mark Godsey (Bar
#74,484)
Brian C. Howe (Bar
#86,517)
OHIO INNOCENCE
PROJECT
Post Office Box 210040
Cincinnati, Ohio 45221
Attorneys For
Appellant Douglas
Prade
***

126a

APPENDIX J

IN THE COURT OF APPEALS
NINTH JUDICIAL DISTRICT
SUMMIT COUNTY, OHIO

)
)
Appellant, )
)
v.
)
)
State of Ohio,
)
Appellee. )
)
)
)
)
Douglas Prade,

2017OCT-4
AM10:13

Court of Appeals Case
No. 28193
Appeal From The Summit
County
Court of Common Pleas
The Honorable Christine
Croce
Common Pleas Case
No. CR 98 02 0463
ORAL ARGUMENT
REQUESTED

BRIEF OF APPELLANT DOUGLAS PRADE
***

127a
IV. LAW AND ARGUMENT
A. Legal Standards.
A defendant seeking a new trial based on newly
discovered evidence must show that new evidence “(1)
discloses a strong probability that it will change the
result if a new trial is granted, (2) has been discovered
since the trial, (3) is such as could not in the exercise
of due diligence have been discovered before the trial,
(4) is material to the issues, (5) is not merely
cumulative to former evidence, and (6) does not merely
impeach or contradict the former evidence.” State v.
Petro, 148 Ohio St. 505, 76 N.E.2d 370 (1947),
syllabus. Although Captain Prade has met the “strong
probability” standard, “reasonable probability” is the
correct standard. See State v. Siller, 8th Dist. No.
90865, 2009-Ohio-2874, ¶ 45.
This Court reviews a ruling on a motion for a new
trial for abuse of discretion. State v. Schiebel, 55 Ohio
St.3d 71, 564 N.E.2d 54 (1990), paragraph one of the
syllabus. A trial court abuses its discretion when it (1)
“d[oes] not engage in a ‘sound reasoning process,’”
State v. Darmond, 135 Ohio St.3d 343, 2013-Ohio-966,
986 N.E.2d 971, ¶ 34 (citations omitted); (2) ignores
evidence, Dietrich v. Dietrich, 9th Dist. Summit No.
26919, 2014-Ohio-4782, ¶ 18; or (3) commits legal
error. Menke v. Menke, 9th Dist. Summit No. 27330,
2015-Ohio-2507, ¶ 8.
***

128a

APPENDIX K

IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO
STATE OF OHIO,
Plaintiff,
v.
DOUGLAS PRADE,
Defendant.

)
)
)
)
)
)
)
)

2015DEC-7
AM 9:52

Case No. CR 98 02-0463
Judge Christine Croce

DEFENDANT DOUGLAS PRADE’S
POST-HEARING BRIEF ON DNA EVIDENCE
***

129a
II. GOVERNING LAW
A. Standard For Granting A New Trial
A Court may order a new trial “[w]hen new evidence
material to the defense is discovered which the
defendant could not with reasonable diligence have
discovered and produced at trial.” Crim.R. 33(A)(6).
“To warrant the granting of a motion for a new trial in
a criminal case, based on the ground of newly
discovered evidence, it must be shown that the new
evidence: (1) discloses a strong probability that it will
change the result if a new trial is granted, (2) has been
discovered since the trial, (3) is such as could not in
the exercise of due diligence have been discovered
before the trial, (4) is material to the issues, (5) is not
merely cumulative to former evidence, and (6) does not
merely impeach or contradict the former evidence.”
State v. Petro, 148 Ohio St. 505, 76 N.E.2d 370 (1947),
syllabus; see also State v. Johnson, 8th Dist. Cuyahoga
No. 93635, 2010-Ohio 4117, ¶ 22 (same).
With respect to the second and third Petro
requirements—both of which address the “newness” of
the evidence—“‘new evidence’ is that which has been
discovered since trial was held and could not in the
exercise of due diligence have been discovered before
that.” State v. Lather, 6th Dist. Ottawa No. OT-03041, 2004-Ohio-6312, ¶ 11 (citing Petro, 149 Ohio St.
505). Here, the State has stipulated that: “(a) the new
DNA testing results . . . are ‘newly discovered evidence’
for purposes of Rule 33, (b) the defendant may file a
motion for new trial under Rule 33 without first
obtaining a Court order finding that the defendant
was unavoidably prevented from filing a motion for a
new trial within the time provided under the rule, (c)

130a
any objections as to the timeliness of the motion for a
new trial under Rule 33 are waived, and (d) the State
will not object to the motion for a new trial as untimely
under Rule 33.” (DE-66 at 2 (7/2/12 Letter from Gates
to Kovach)). Accordingly, the second and third Petro
requirements are satisfied.
The
first
Petro
requirement—the
“strong
probability” standard1—is the major focus here.2 “In
view of the beyond-a-reasonable-doubt burden of
1 As detailed below, the new evidence presented here easily
satisfies the “strong probability” standard set forth in The
Supreme Court of Ohio’s 68-year-old decision in Petro. To the
extent the Court finds that Mr. Prade has not satisfied Petro’s
“strong probability” standard, however, Mr. Prade objects to that
standard and submits that, for the reasons explained in State v.
Siller, 8th Dist. Cuyahoga No. 90865, 2009-Ohio-2874, ¶ 49, the
appropriate standard for a new trial under Crim.R. ¶ 33(A)(6)
based on newly discovered evidence is whether the new evidence
creates a reasonable probability of a different outcome or a
probability that undermines confidence in the outcome of the
trial. See State v. Osie, 140 Ohio St. 3d 131, 2014-Ohio-2966, 16
N.E.3d 588, ¶¶ 153, 215 (showing a Brady violation requires “a
‘reasonable probability’ that the result of the trial would have
been different had the evidence been disclosed,” which means “a
probability sufficient to undermine confidence in the outcome”;
showing ineffective assistance of counsel requires “a reasonable
probability that but for counsel’s errors, the proceeding’s result
would have been different” (italics added) (citations and internal
quotation marks deleted)), cert. denied, 135 S. Ct. 1562 (2015).
2

The fourth, fifth, and sixth Petro requirements—materiality,
non-cumulativeness, and not impeaching former evidence—all
are easily satisfied. Specifically, the new DNA evidence plainly
is material if the defense experts’ opinions about its source are
credited, it is not cumulative of evidence previously presented (as
no evidence of male DNA was presented at Mr. Prade’s trial), and
it does not merely impeach or contradict evidence previously
presented.

131a
proof, newly discovered evidence need not conclusively
establish a defendant’s innocence in order to create a
strong probability that a jury in a new trial would find
reasonable doubt.” State v. Gillispie, 2012-Ohio-2942,
985 N.E. 2d 145, ¶ 35 (2d Dist.). Indeed, because a
criminal conviction requires the jury to both (1) find
guilt beyond reasonable doubt and (2) decide
unanimously, “chang[ing] the result if a new trial is
granted” means only that the new evidence “may have
been just enough to create a reasonable doubt as to the
[defendant’s] guilt in the mind of at least one juror.”
State v. Irwin, 184 Ohio App. 3d 764, 2009-Ohio-5271,
922 N.E.2d 981, ¶ 191 (7th Dist.); accord Gillispie,
2012-Ohio-2942, ¶ 46; State v. Burke, 10th Dist.
Franklin No. 06AP-686, 2007-Ohio-1810, ¶ 38 (new
trial required where new evidence meant that “[a]
reasonable juror could conclude the state[] . . . fail[ed]
to demonstrate” an element of the crime); State v.
Elliott, 7th Dist. Columbiana No. 01 CO 24, 2003Ohio-1426, ¶ 44 (new trial required when new
evidence “would create reasonable doubt”).
***

132a

APPENDIX L

IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO
State of Ohio
Plaintiff,
v.
Douglas Prade,
Defendant.

)
2015JUN-5
)
)
) Case No. CR 98 02-0463
)
) Judge Christine Croce
)
)
)

DEFENDANT DOUGLAS PRADE’S
SUPPLEMENTAL MEMORANDUM IN
SUPPORT OF PETITION FOR
POSTCONVICTION RELIEF AND, IN THE
ALTERNATIVE, MOTION FOR A NEW TRIAL
***

133a
II.

ARGUMENT

MR. PRADE IS ENTITLED TO A NEW TRIAL
A. A New Trial Is Required When New Evidence
May Create Reasonable Doubt In The Mind
Of At Least One Juror.
A court should order a new trial based on newly
discovered evidence when two conditions are satisfied.
First, there must be “clear and convincing proof that
the defendant was unavoidably prevented from the
discovery of the evidence upon which he must rely,
such motion shall be filed within seven days from an
order of the court finding that he was unavoidably
prevented from discovering the evidence within the
one hundred twenty day period.” Crim.R. 33(B).
Here, the new DNA and bite mark identification
evidence could not have been discovered at the time of
trial because they did not exist, and the State has
stipulated that it is not contesting the timeliness of the
new trial motion. (1/29/13 Order at 23; see also L.
Gates Letter to M. Kovach & Acknowledgement (Ex. U
to Defense Reply)).
Second, the new evidence must “disclose[ ] a strong
probability that it will change the result if a new trial
is granted.”1 State v. Petro, 148 Ohio St. 505, 76
1

As detailed below, the new evidence presented here easily
satisfies the “strong probability” standard set forth in The
Supreme Court of Ohio’s 68-year-old decision in Petro. To the
extent that the Court finds that Mr. Prade has not satisfied
Petro’s “strong probability” standard, however, Mr. Prade objects
to that standard and submits that, for the reasons explained in
State v. Siller, 8th Dist. Cuyahoga No. 90865, 2009-Ohio-2874,
¶ 49, the appropriate standard for a new trial under
Crim.R. 33(A)(6) based on newly discovered evidence is whether
the new evidence creates a reasonable probability of a different

134a
N.E.2d 370 (1947), syllabus; see also State v. Hawkins,
66 Ohio St. 3d 339, 350, 612 N.E.2d 1227 (1993)
(same); State v. Johnson, 8th Dist. Cuyahoga
No. 93635, 2010-Ohio 4117, ¶ 22 (same). Because a
criminal conviction requires the jury to both (1) find
guilt beyond reasonable doubt and (2) decide
unanimously, “chang[ing] the result if a new trial is
granted” means only that the new evidence “may have
been just enough to create a reasonable doubt as to the
[defendant’s] guilt in the mind of at least one juror.”
State v. Irwin, 184 Ohio App. 3d 764, 2009-Ohio-5271,
922 N.E.2d 981, ¶ 191 (7th Dist.); accord State v.
Gillispie, 2012-Ohio-2942, 985 N.E. 2d 145, ¶ 46 (2d
Dist.); State v. Burke, 10th Dist. Franklin No. 06AP686, 2007-Ohio-1810, ¶ 38 (new trial required where
new evidence meant that “[a] reasonable juror could
conclude the state[ ]. . . fail[ed] to demonstrate” an
element of the crime); State v. Elliott, 7th Dist.
Columbiana No. 01 CO 24, 2003-Ohio-1426, ¶ 44 (new
trial required when new evidence “would create
reasonable doubt”). “The issue . . . [i]s not whether the
original jury verdict was correct. The issue [is]
whether ‘in light of all of the newly discovered
evidence, considered cumulatively, . . . there is a
outcome or a probability that undermines confidence in the
outcome of the trial. See State v. Osie, 140 Ohio St. 3d 131, 2014Ohio-2966, 16 N.E.3d 588, ¶¶ 153, 215 (showing a Brady
violation requires “a ‘reasonable probability’ that the result of the
trial would have been different had the evidence been disclosed,”
which means “a probability sufficient to undermine confidence in
the outcome;” showing of ineffective assistance of counsel
requires “a reasonable probability that but for counsel’s errors,
the proceeding’s result would have been different” (italics added)
(citations and internal quotation marks deleted)), cert. denied,
135 S. Ct. 1562 (2015).

135a
strong probability that a jury would have reasonable
doubt of [the defendant’s] guilt in a new trial at which
the newly discovered evidence were presented.’”
Gillispie, 2012-Ohio-2942, ¶ 46 (citations omitted).
***
D. Should His Motion For New Trial Be Denied,
Mr. Prade Objects and Reserves His Right To
Assert Due Process Violations.
“[H]abeas review is available to check violations of
federal laws when the error qualifies as ‘a
fundamental defect which inherently results in a
complete miscarriage of justice [or] an omission
inconsistent with the rudimentary demands of fair
procedure.’” Reed v. Farley, 512 U.S. 339, 348 (1994)
(quoting Hill v. United States, 368 U.S. 424, 428
(1962)); see also 28 U.S.C. § 2254 (setting forth
standards). If his motion for a new trial is denied,
Mr. Prade can show due process violations arising out
of: (1) the new scientific evidence relating to bitemark
identification that debunks the State’s expert
testimony at trial; and (2) the fundamental procedural
defect that allowed the trial court’s final verdict
exonerating Mr. Prade to be appealed by the State and
reversed by the Ninth District. In addition, Mr. Prade
reserves his rights to assert due process violations
based on the newly discovered evidence showing his
actual innocence, or any other due process violations
that may be identified in connection with these
proceedings.

136a
1. If His Motion For New Trial Is Denied,
Mr. Prade Would Be Able to Show A Due
Process Violation Based On The New
Scientific Evidence Relating To Bite
Mark Identification That Debunks the
State’s Expert Testimony At Trial.
The burden of showing a due process violation for
federal habeas corpus purposes is met when new
scientific evidence erodes the scientific pillars on
which the verdict rests. Lee v. Glunt, 667 F.3d 397,
403 (3d Cir. 2012).
The issue is whether the
petitioner’s
“continued
incarceration
is
unconstitutional because his convictions are
predicated on what new scientific evidence has proven
to be fundamentally unreliable expert testimony, in
violation of due process.” Id.
As discussed, the jury convicted because of expert
testimony offered by the State that purported to match
the bitemark on Dr. Prade’s skin to Mr. Prade’s teeth.
Due to advances in the science of bitemark
identification, the State’s evidence has been
debunked. Should the motion for new trial be denied,
Mr. Prade can show a due process violation because he
was convicted based on scientific evidence that is no
longer valid.

137a
2. If His Motion For New Trial Is Denied,
Mr. Prade Would Be Able to Show A Due
Process Violation Based On The
Fundamental Procedural Defect That
Allowed The Final Verdict Acquitting
Him To Be Appealed By The State And
Reversed By The Ninth District.
“Unless permitted by statute, the weight of
authority in this country is against the right of the
government to bring error in a criminal case.” State v.
Simmons, 49 Ohio St. 305, 307, 31 N.E. 34 (1892). The
trial court’s exoneration order was a non-appealable
“final verdict” under R.C. 2945.67, and there is no
other statute allowing the State to appeal it.
Accordingly, it violated Mr. Prade’s due process rights
for the State to appeal (and for the Ninth District to
exercise jurisdiction over and reverse) the trial court’s
final verdict of acquittal.
3. If His Motion For New Trial Is Denied,
Mr. Prade Would Be Able To Show A Due
Process Violation Because He Will Be
Unconstitutionally Deprived Of The
Liberty Interest That Was Conferred
When Judge Hunter Conditionally
Granted The New Trial Motion.
Judge Hunter already granted Mr. Prade’s motion
for a new trial in the event her exoneration order was
overturned on appeal. For reasons demonstrated in
connection with prior proceedings on the conditional
new trial order, that order was valid under Ohio law.
Further, the new trial order conferred a liberty
interest to which Mr. Prade cannot be deprived
without due process of law. Here, if the new trial

138a
motion is denied, Ohio courts will have ignored their
own laws and procedures to deprive Mr. Prade of his
liberty interest, which would violate Mr. Prade’s due
process rights.
4. If His Motion For New Trial Is Denied,
Mr. Prade Reserves The Right To Assert
A Due Process Violation Based On The
Newly Discovered Evidence That Shows
His Actual Innocence, Or Any Other Due
Process Violations That May Be
Identified In Connection With These
Proceedings.
Although “freestanding” claims of actual innocence
presently are not recognized as an independent basis
for federal habeas corpus review, “[w]hether such a
federal right [to be released upon proof of actual
innocence] exists is an open question.” Dist. Attorney’s
Office for the Third Judicial Dist. v. Osborne, 557 U.S.
52, 53 (2009) (citations omitted).
As Judge Hunter determined, the newly discovered
evidence is compelling proof of Mr. Prade’s actual
innocence. In the event his new trial motion is denied,
Mr. Prade asserts an actual innocence claim.
Mr. Prade also reserves the right to assert other due
process violations that may be identified in connection
with these proceedings.
III.

CONCLUSION

For the foregoing reasons, the Court should grant
Mr. Prade a new trial.
***

139a

EXHIBIT A

140a
EXCERPT FROM DATELINE JUROR
INTERVIEW
Beginning at 50 minutes, 35 seconds—
INTERVIEWER: They looked at the eyewitness’
testimony, the man who put Prade behind the
wheel of the getaway car. But they didn’t give
it much weight.
JUROR 1:

You almost had to dismiss it.

INTERVIEWER: Rather than be confused by it, just
set it aside.
JUROR 1: Exactly.
Just kind of set it aside,
[unintelligible] It doesn’t convict and it doesn’t
exonerate.

141a
EXCERPT FROM DATELINE JUROR
INTERVIEW
Beginning at 55 minutes, 47 seconds—
Interviewer: If [the killer] had not bitten Margo, do
you think you would have had that verdict?
Juror 1:
There’s no way I could have convicted
him without the bite mark.
Interviewer: The bite mark was it. You all agree?
[All three jurors nod affirmatively.]
Juror 3:
Yeah, without the bite mark, I don’t know
if I ever would have voted guilty. I really don’t.

142a
EXCERPT FROM DATELINE JUROR
INTERVIEW
Beginning at 50 minutes, 20 seconds—
Interviewer: Did you wonder if the State was making
its case too strongly here? Were they arguing a
divorce case rather than a murder?
[Simultaneously:]
Juror 1:

Yeah. [difficult to discern]

Juror 2:

(Laughs)

Juror 3:
After the very first day we got the point.
She was a very nice person, she was a sweet
person, she was a good doctor, and she had no
clue she was being tape recorded. End of
statement.

143a
[DVD/CD]

144a

APPENDIX M

IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO
STATE OF OHIO,
Plaintiff,
v.
DOUGLAS E. PRADE,
Defendant.

) Case No. CR 98-02-0463
)
) Judge Christine Croce
)
)
)
)
)
)

AFFIDAVIT OF IAIN ALASTAIR PRETTY
1. My name is Iain Alastair Pretty. I am a
qualified dental surgeon and a Professor of Public
Health Dentistry at the University of Manchester in
England. I make this affidavit in support of Defendant
Douglas Prade’s Motion to Supplement the Record
with Updated Information on Forensic Bitemark
Analysis.
2. I obtained my dental qualification, BDS (Hons),
in 1998 from the University of Newcastle upon Tyne.
I have obtained a further qualification in forensic
dentistry, MSc, from the University of British
Columbia, Vancouver, BC, Canada, a doctoral degree
(PhD) from the University of Liverpool and a Masters
of Public Health (MPH) from the University of

145a
Manchester. I am a member of the American Society
of Forensic Odontology, a fellow of the American
Academy of Forensic Sciences (AAFS) and immediate
past-president of the Odontology section of AAFS, a
fellow of the Forensic Science Society, a member of the
British Association of Forensic Odontology and the
British Academy of Forensic Science. I am a Fellow of
the Royal College of Surgeons of Edinburgh. I have
published numerous articles and several book
chapters on various aspects of forensic dentistry, in
particular bitemark injuries and their analysis. I have
been actively practicing forensic odontology for sixteen
years. A copy of my curriculum vitae is attached as
Exhibit A.
3. I have been retained on a pro bono basis by
Innocence Project attorneys representing Mr. Douglas
Prade. In particular, I have been asked to explain the
following: (1) changes since October 2012 in the
scientific understanding of the foundation, reliability
and methodology of forensic bite mark analysis;
(2) changes since October 2012 to the standards
established by the American Board of Forensic
Odontology (“ABFO”) for forensic bitemark analysis;
and (3) how applying the current ABFO standards
would affect any bitemark evidence heard by the jury
in this case.
4. I have been provided with the following
materials relating to this case: (1) transcripts from
the evidentiary hearing held in October 2012; (2) three
close-up photographs of what appears to be a bitemark
on the underside of the upper left arm of the victim,
Dr. Margo Prade; and (3) the trial court’s decision of
January 29, 2013.

146a
5. By way of background, the ABFO is the only
board certifying body for forensic odontologists. The
individuals that the ABFO trains, certifies and, after
a certain period, recertifies, are called Diplomates.
Guidelines for forensic odontology practice and
testimony are promulgated by the ABFO in the ABFO
Reference Manual, the most recent edition of which is
dated March 2015 and is attached as Exhibit B (the
“Manual”).
6. As additional background, in 2009, the National
Academy of Sciences undertook a review of the
scientific basis for many forensic disciplines, including
bitemarks. This review culminated in the publication
of the report Strengthening Forensic Science in the
United States: A Path Forward (“NAS Report”). The
NAS Report was the subject of testimony by experts
for both the defense and the State at the October 2012
evidentiary hearing in this case. In short, the NAS
concluded that forensic odontologists lack “the
capacity to consistently, and with a high degree of
certainty, demonstrate a connection between evidence
and a specific individual or source.” NAS Report at 7;
see also id. at 175 (“[T]he scientific basis is insufficient
to conclude that bitemark comparisons can result in a
conclusive match.”). The NAS Report challenges the
two fundamental premises underlying bitemark
analysis, specifically, whether human dentition is
unique and, if so, whether human skin is a reliable
medium for recording its unique features.
7. The NAS Report prompted further research
regarding forensic bitemark analysis. For example,
research has been undertaken to investigate the
legitimacy of the two primary premises for analysis
noted above, including research by Dr. Mary Bush,

147a
about which she testified at the October 2012
evidentiary hearing.
Changes In Scientific Understanding
Bitemark Analysis Since October 2012

Of

8. As a result of the NAS Report, I was involved in
a research study with the objective of showing that the
ABFO’s basic “decision tree” for forensic bitemark
analysis provided a scientifically legitimate
framework for the opinions given by ABFO
Diplomates. Dr. Adam Freeman (Vice President of the
ABFO’s Executive Committee) and I undertook the
study. In designing the research, we sought views
from ABFO members including David Senn, another
ABFO member and a proponent of bitemark analysis.
At each stage of the study design, the approach and
methodology was approved by the ABFO. Our study,
entitled Construct Validity Bitemark Assessments
Using the ABFO Bitemark Decision Tree (“Construct
Validity Study”), was presented at a meeting of the
American Academy of Forensic Science held in
Orlando, Florida in February 2015.
9. The Construct Validity Study was designed to
evaluate the reliability of opinions by Diplomates
using the ABFO decision tree, and not to assess
whether their conclusions were actually correct. The
first stage in assessing the validity of a method is to
determine if, given the same evidence, do examiners of
similar training and experience (in this case those who
have passed the ABFO exam), reach the same
conclusions.
10. As part of the Construct Validity Study,
photographs of 100 patterned injuries (sourced from
case files of ABFO members and approved by the

148a
ABFO as suitably representative) were shown to
ABFO board-certified Diplomates.
In total 38
Diplomates completed the entire study.
11. Among other questions, the Diplomates were
asked whether, if the injury was a human bitemark,
the injury had distinct, identifiable arches and
individual tooth marks. This question essentially
sought information about whether the mark contained
enough distinguishing features to be of value for
comparison purposes.
12. Again, we did not examine the results for
correctness but, rather, for agreement between and
among the Diplomates. We wanted to know whether
there was consensus because bitemark matching
relies on subjective analysis and not quantifiable data.
The level of consensus would show whether the results
produced by the decision tree framework have the
necessary predictability and repeatability to be
considered scientifically valid.
13. Significantly, our results showed that the
Diplomates’ opinions on the 100 case studies were not
consistent. There were only three images out of 100
with 100% agreement.
14. The Construct Validity Study raises new and
fundamental doubts regarding the expert bitemark
identification testimony presented by the State at
trial. The level of doubt exposed by the Construct
Validity Study is highly significant and substantially
beyond the doubt already revealed by Dr. Bush’s and
Dr. Wright’s respective testimony at the evidentiary
hearing in October 2012.

149a
Changes To ABFO Guidelines Since October
2012
15. After the results of the Construct Validity
Study were presented, newly-elected ABFO president
Gary Berman, in his 2015 “mid-year message” to
members, expressed concern and recognized the need
to further revise the Manual’s guidelines and decision
tree, providing:
In order to improve the study of bitemarks the
ABFO developed a decision tree to assist
practitioners in the proper selection and
pathways of analysis in bitemark analysis.
Drs. Pretty and Freeman designed a study with
the assistance of some ABFO members providing
the case materials to evaluate the reliability of
Step 1 of a proposed revision to the bitemark
analysis and comparison decision tree. This was
presented at the AAFS meeting in Orlando in
2015.
Statistical analysis of the results of that study
showed poor overall agreement, utilizing Step 1,
among the individuals who participated in the
survey.
*** The ABFO in reaffirming its
commitment to ensure accuracy in bitemark
analysis is currently revising and updating the
terminology used in the decision tree to ensure
reliable
results
by
forensic
dentists.
Drs. Freeman and Pretty will be continuing their
preliminary research after new terminology is
approved the Diplomates of the ABFO.
16. Thus, the ABFO currently is reviewing and
revising its guidelines for issuance by early 2016, and
the new standards are expected to weaken even

150a
further an ABFO Diplomate’s ability to give an opinion
purporting to match an injury to an individual’s
dentition. But even the current ABFO guidelines
reflect fundamental changes since October 2012, when
the Court heard about the then-current ABFO
standards from the State’s expert, Dr. Franklin
Wright.
17. The Manual defines for ABFO Diplomates five
terms they may use “to relate a suspected biter to a
bitemark.” (Id. at 102.) A conclusion of “the Biter”
means that the Diplomate has identified the biter to
the exclusion of all other potential biters (i.e.,
individualization). A Diplomate may also reach four
other conclusions:
“The Probable Biter”, “Not
Excluded as the Biter”, “Excluded as the Biter”, and
“Inconclusive.” (Id.)
18. The ABFO’s Guidelines up until 2013 allowed
Diplomates to reach a conclusion of “The Biter” in any
case. Responding to the criticisms in the NAS Report
that there was no scientific basis to support
individualization, the ABFO significantly changed
their Guidelines in August 2013. The Guidelines now
provide that “The ABFO does not support a conclusion
of “The Biter” in an open population case(s)”. Id.
(emphasis original). Open population cases are those
in which the universe of potential suspects is
unknown.
19. Also new since October 2012 is the ABFO
decision tree, which is set forth in the Manual and
discussed above in the context of the Construct
Validity Study. The current decision tree, which was
not in effect in October 2012 and so not a subject of
Dr. Wright’s testimony, imposes strict limits on the

151a
circumstances in which a Diplomate should even
attempt to compare an injury to an individual’s
dentition. It also cautions against attempting to
differentiate between biters when the discernible
features of the bitemark are indistinct.
How Application Of The Current ABFO
Guidelines Would Affect Any Bitemark Evidence
Heard By The Jury In This Case
20. My opinions about how application of the
current ABFO Guidelines would affect any bitemark
evidence heard by the jury in this case are as follows.
21. As a threshold matter, the forensic significance
of the evidence of the bitemark injury is extremely low.
The photographs show only one arch and indistinct
tooth characteristics without individualization. In
essence the injury is similar in appearance to those
injuries within the Construct Validity Study that
resulted in the highest levels of disagreement between
and among the Diplomates.
22. Given the low forensic value of the evidence, an
ABFO Diplomate following the current guidelines
would conclude that no comparison should be
attempted and/or that any comparison would not allow
any differentiation between individuals.
23. If this case were tried today, there could be no
opinion presented, consistent with ABFO guidelines,
that purports to link the victim’s injury to Mr. Prade’s
(or anyone else’s) dentition. In contrast, the State’s
expert evidence at trial included a definitive opinion
that Mr. Prade was “the biter” and another opinion
that Mr. Prade’s teeth were “consistent with” the
dentition of the biter.

152a
24. If called to testify at a hearing in this matter, I
would testify to the opinions described above and
provide further explanation and detail for my
opinions. If the ABFO establishes new standards prior
to my testifying, it could have an impact on my
opinions.
This concludes my affidavit.

Iain Alastair Pretty
Sworn to before me and subscribed in my presence
on this 15 day of October, 2015.

Witness

153a

APPENDIX N

STRENGTHENING FORENSIC SCIENCE
IN THE UNITED STATES
A PATH FORWARD
Committee on Identifying the Needs of the Forensic
Science Community
Committee on Science, Technology, and Law Policy
and Global Affairs
Committee on Applied and Theoretical Statistics
Division on Engineering and Physical Sciences
NATIONAL RESEARCH COUNCIL OF THE
NATIONAL ACADEMIES
THE NATIONAL ACADEMIES PRESS
WASHINGTON, D.C.
WWW.NAP.EDU
This document is a research report submitted to the
U.S. Department of Justice. This report has not been
published by the Department. Opinions or points of
view expressed are those of the author(s) and do not

154a
necessarily reflect the official position or policies of
the U.S. Department of Justice.
Copyright © National Academy of Sciences. All rights
reserved.
THE NATIONAL ACADEMIES PRESS 500 Fifth
Street, N.W. Washington, DC 20001
NOTICE: The project that is the subject of this report
was approved by the Governing Board of the National
Research Council, whose members are drawn from the
councils of the National Academy of Sciences, the
National Academy of Engineering, and the Institute of
Medicine. The members of the committee responsible
for the report were chosen for their special
competences and with regard for appropriate balance.
This study was supported by Contract No. 2006-DNBX-0001 between the National Academy of Sciences
and the National Institute of Justice. Any opinions,
findings, conclusions, or recommendations expressed
in this publication are those of the author(s) and do not
necessarily reflect the views of the organizations or
agencies that provided support for the project.
Library of Congress Cataloging-in-Publication
Data
Strengthening forensic science in the United States :
a path forward : summary / Committee on Identifying
the Needs of the Forensic Science Community,
Committee on Science, Technology, and Law Policy
and Global Affairs, Committee on Applied and
Theoretical Statistics, Division on Engineering and
Physical Sciences.
p. cm.

155a
Includes index.
ISBN-13: 978-0-309-13135-3 (hardcover)
ISBN-10: 0-309-13135-9 (hardcover)
ISBN-13: 978-0-309-13131-5 (pbk.)
ISBN-10: 0-309-13131-6 (pbk.)
1. Forensic sciences—United States. 2. Criminal
investigation—United
States.
3. Evidence,
Criminal—United States.
I. National Research
Council (U.S.). Committee on Identifying the Needs of
the Forensic Science Community.
II. National
Research Council (U.S.). Committee on Science,
Technology, and Law Policy and Global Affairs.
III. National Research Council (U.S.). Committee on
Applied and Theoretical Statistics.
HV8073.S7347 2009
363.250973—dc22
2009011443
Additional copies of this report are available from the
National Academies Press, 500 Fifth Street, N.W.,
Lockhox 285, Washington, DC 20055; (800) 624-6242
or (202) 334-3313 (in the Washington metropolitan
area); Internet, http://www.nap.edu.
Copyright 2009 by the National Academy of Sciences.
All rights reserved.
Printed in the United States of America
***
173
By contrast, much more research is needed on the
natural variability of burn patterns and damage
characteristics and how they are affected by the
presence of various accelerants. Despite the paucity of

156a
research, some arson investigators continue to make
determinations about whether or not a particular fire
was set. However, according to testimony presented
to the committee,118 many of the rules of thumb that
are typically assumed to indicate that an accelerant
was used (e.g., “alligatoring” of wood, specific char
patterns) have been shown not to be true.119
Experiments should be designed to put arson
investigations on a more solid scientific footing.
FORENSIC ODONTOLOGY
Forensic odontology, the application of the science of
dentistry to the field of law, includes several distinct
areas of focus: the identification of unknown remains,
bite mark comparison, the interpretation of oral
injury, and dental malpractice. Bite mark comparison
is often used in criminal prosecutions and is the most
controversial of the four areas just mentioned.
Although the identification of human remains by their
dental characteristics is well established in the
forensic science disciplines, there is continuing dispute
over the value and scientific validity of comparing and
identifying bite marks.120
Many forensic odontologists providing criminal
testimony concerning bite marks belong to the
118

J. Lentini. Scientific Fire Analysis, LLC. Presentation to
the
committee.
April
23,
2007.
Available
at
www7.nationalacadem
ies.org/stl/April%20Forensic%20Lentini.pdf.
119

NFPA 921 Guide for Explosion and Fire Investigations,
2008 Edition. Quincy, MA: National Fire Protection Association.
120

E.g., J.A. Kieser. 2005. Weighing bitemark evidence: A
postmodern perspective. Journal of Forensic Science, Medicine,
and Pathology 1(2):75-80.

157a
American Board of Forensic Odontology (ABFO),
which was organized in 1976 and is recognized by the
American Academy of Forensic Sciences as a forensic
specialty. The ABFO offers board certification to its
members.121
Sample Data and Collection
Bite marks are seen most often in cases of homicide,
sexual assault, and child abuse. The ABFO has
approved guidelines for the collection of evidence from
bite mark victims and suspected biters.122 The
techniques for obtaining bite mark evidence from
human skin—for example, various forms of
photography, dental casts, clear overlays, computer
enhancement, electron microscopy, and swabbing for
serology or DNA—generally are
174
well established and relatively noncontroversial.
Unfortunately, bite marks on the skin will change over
time and can be distorted by the elasticity of the skin,
the unevenness of the surface bite, and swelling and
healing. These features may severely limit the
validity of forensic odontology. Also, some practical
difficulties, such as distortions in photographs and
changes over time in the dentition of suspects, may
limit the accuracy of the results.123
Analyses
The guidelines of the ABFO for the analysis of bite
marks list a large number of methods for analysis,
121

American Board of Forensic Odontology at www.abfo.org.

122

Ibid.

123

Rothwell, op. cit.

158a
including transillumination of tissue, computer
enhancement and/or digitalization of the bite mark or
teeth,
stereomicroscopy,
scanning
electron
microscopy, video superimposition, and histology.124
The guidelines, however, do not indicate the criteria
necessary for using each method to determine whether
the bite mark can be related to a person’s dentition
and with what degree of probability. There is no
science on the reproducibility of the different methods
of analysis that lead to conclusions about the
probability of a match. This includes reproducibility
between experts and with the same expert over time.
Even when using the guidelines, different experts
provide widely differing results and a high percentage
of false positive matches of bite marks using controlled
comparison studies.125
No thorough study has been conducted of large
populations to establish the uniqueness of bite marks;
theoretical studies promoting the uniqueness theory
include more teeth than are seen in most bite marks
submitted for comparison.
There is no central
repository of bite marks and patterns.
Most
comparisons are made between the bite mark and
dental casts of an individual or individuals of interest.
Rarely are comparisons made between the bite mark
and a number of models from other individuals in
addition to those of the individual in question. If a bite
mark is compared to a dental cast using the guidelines
of the ABFO, and the suspect providing the dental cast
cannot be eliminated as a person who could have made
124

American Board of Forensic Odontology, op. cit.

125

Bowers, op. cit.

159a
the bite, there is no established science indicating
what percentage of the population or subgroup of the
population could also have produced the bite. This
follows from the basic problems inherent in bite mark
analysis and interpretation.
As with other “experience-based” forensic methods,
forensic odontology suffers from the potential for large
bias among bite mark experts in evaluating a specific
bite mark in cases in which police agencies provide the
suspects for comparison and a limited number of
models from which
175
to choose from in comparing the evidence. Bite marks
often are associated with highly sensationalized and
prejudicial cases, and there can be a great deal of
pressure on the examining expert to match a bite mark
to a suspect. Blind comparisons and the use of a
second expert are not widely used.
Scientific Interpretation and Reporting of
Results
The ABFO has issued guidelines for reporting bite
mark comparisons, including the use of terminology
for conclusion levels, but there is no incentive or
requirement that these guidelines be used in the
criminal justice system.
Testimony of experts
generally is based on their experience and their
particular method of analysis of the bite mark. Some
convictions based mainly on testimony by experts
indicating the identification of an individual based on
a bite mark have been overturned as a result of the

160a
provision of compelling evidence to the contrary
(usually DNA evidence).126
More research is needed to confirm the fundamental
basis for the science of bite mark comparison.
Although forensic odontologists understand the
anatomy of teeth and the mechanics of biting and can
retrieve sufficient information from bite marks on skin
to assist in criminal investigations and provide
testimony at criminal trials, the scientific basis is
insufficient to conclude that bite mark comparisons
can result in a conclusive match. In fact, one of the
standards of the ABFO for bite mark terminology is
that, “Terms assuring unconditional identification of a
perpetrator, or without doubt, are not sanctioned as a
final conclusion.”127
Some of the basic problems inherent in bite mark
analysis and interpretation are as follows:
(1) The uniqueness of the human dentition has
not been scientifically established.128
(2) The ability of the dentition, if unique, to
transfer a unique pattern to human skin and
the ability of the skin to maintain that
uniqueness has not been scientifically
established.129
i.

The ability to analyze and interpret the
scope or extent of distortion of bite mark

126

Bowers, op. cit.

127

American Board of Forensic Odontology, op. cit.

128

Senn, op. cit.

129

Ibid.

161a
patterns on human skin has not been
demonstrated.
ii.

The effect of distortion on different
comparison techniques is not fully
understood and therefore has not been
quantified.
176

(3) A standard for the type, quality, and number
of individual characteristics required to
indicate that a bite mark has reached a
threshold of evidentiary value has not been
established.
Summary Assessment
Despite the inherent weaknesses involved in bite
mark comparison, it is reasonable to assume that the
process can sometimes reliably exclude suspects.
Although the methods of collection of bite mark
evidence are relatively noncontroversial, there is
considerable dispute about the value and reliability of
the collected data for interpretation. Some of the key
areas of dispute include the accuracy of human skin as
a reliable registration material for bite marks, the
uniqueness of human dentition, the techniques used
for analysis, and the role of examiner bias.130 The
ABFO has developed guidelines for the analysis of bite
marks in an effort to standardize analysis,131 but there
is still no general agreement among practicing forensic
odontologists about national or international
standards for comparison.
130

Ibid.

131

American Board of Forensic Odontology, op. cit.

162a
Although the majority of forensic odontologists are
satisfied that bite marks can demonstrate sufficient
detail for positive identification,132 no scientific studies
support this assessment, and no large population
studies have been conducted. In numerous instances,
experts diverge widely in their evaluations of the same
bite mark evidence,133 which has led to questioning of
the value and scientific objectivity of such evidence.
Bite mark testimony has been criticized basically on
the same grounds as testimony by questioned
document examiners and microscopic hair examiners.
The committee received no evidence of an existing
scientific basis for identifying an individual to the
exclusion of all others. That same finding was
reported in a 2001 review, which “revealed a lack of
valid evidence to support many of the assumptions
made by forensic dentists during bite mark
comparisons.”134 Some research is warranted in order
to identify the circumstances within which the
methods of forensic odontology can provide probative
value.
***

132

I.A. Pretty. 2003. A Web-based survey of odontologists’
opinions concerning bite mark analyses. Journal of Forensic
Sciences 48(5):1-4.
133

C.M. Bowers. 2006. Problem-based analysis of bite mark
misidentifications:
The role of DNA.
Forensic Science
International 159 Supplement 1:s104-s109.
134

I.A. Pretty and D. Sweet. 2001. The scientific basis for
human bitemark analyses—A critical review. Science and
Justice 41(2):85-92. Quotation taken from the abstract.

163a

APPENDIX O

IN THE COURT OF COMMON PLEAS
COUNTY OF SUMMIT
STATE OF OHIO,
Plaintiff,
v.
DOUGLAS E. PRADE,
Defendant.

) Case No. 98-02-0463
)
) C.A. No.
)
Excerpt of Transcript
)
of Proceedings
)
)
Volume I of I
)
)
***

BE IT REMEMBERED that upon the hearing of the
above-entitled matter in the Court of Common Pleas,
Summit County, Ohio, before the HONORABLE
MARY F. SPICER, Judge Presiding, and commencing
on Monday, August 24, 1998, the following
proceedings were had: (Closing Statements).
***
MARGARET G. WELLEMEYER, RMR, CRR
Official Court Reporter
Summit County Courthouse
Akron, Ohio 44308

164a
***
STATE’S CLOSING STATEMENT
Page 2297
Prade — and this is the issue — Douglas Prade is
sitting in that parking lot for five minutes, from 9:02
on, waiting for Margo Prade to arrive. And for some
reason he becomes impatient, begins to leave, and as
he is leaving Dr. Prade drives in. He drives around,
back to the parking place. Dr. Prade parks. He pulls
into the middle hiding from her behind a vehicle that’s
parked there, gets out of the car and walks to the
passenger side of the van.
The only person that’s interested in doing anything
that is threatened, that she’s afraid of, is Douglas
Prade. When he gets to the passenger side of the van,
he is able to get in. It’s not a stranger. She doesn’t
flee from the van. She either unlocks the doors or
allows him to get in.
And what happens in the van? We don’t know
exactly what happened in the van except for sure we
know this from Dr. Platt, a gun, this .38 caliber
revolver is produced, is pointed at Dr. Prade and
there’s a fight over the gun.
This is in dispute, but — and in the
Page 2298
fight over the gun, the driver is able to grab the gun,
Dr. Prade, and in this struggle she is bitten. And after
she is bitten she is able to jerk away and she is shot.
And we know how it happened. First one she
actually tries to block the shot. It’s futile. It can’t be
done. But it is a reaction that she tried. And she is
shot a total of six times.

165a
And during the course of the shooting — and I
submit to you this is after the first three, which are
three on the right side, to the head, the graze here and
into the shoulder, and then the fatal shot to the breast
— she is pulled back from that driver’s door where she
is leaning lifeless, actually, lab coat fully ripped open,
and shot three more times, one of them entering here
and exiting here, one of them entering here, and one
entering the breast and exiting the top of the breast.
Now, it’s going to be in dispute somewhat from the
medical testimony but that is what happened, six
shots. And Douglas Prade, after shooting her the six
times,
***
Page 2302
spend this windfall $75,000 that he should have never
received in the first place.
Dr. Thomas Marshall tells you without controversy
— no one has suggested otherwise — that the bottom
teeth of Douglas Prade inflicted the bite mark on the
left arm of Margo Prade. Absolutely he did that.
The defense, not being able to bring in someone to
dispute that fact, brings you Dr. Baum.
And
Dr. Baum says he couldn’t have done that because of
his biting ability, is the way I’ll phrase it. But what
he shows you is that what Douglas Prade can do is bite
and when he does the only mark is made with his
lower teeth. Why is there only a lower bite in this
case? Because Douglas Prade did the biting, Douglas
Prade did the killing.
And, finally, let me tell you about alibi here. You’re
going to hear about alibi a lot. What Douglas Prade
says is, “I wasn’t there,” and that’s what alibi means,

166a
I was somewhere else. But he wasn’t somewhere else
as Tim Holston was in Columbus where he could not
have done this. He was six minutes away, and he
produces for you an alibi witness,
***
Page 2364
waits five minutes.
And the first time we played the tape, we let you sit
through those five minutes and it was uncomfortable.
Dr. Kraus, you know, was trying to think of things to
say while he was standing up there. Five minutes is a
very long time when you’re sitting in a car waiting for
your ex-wife in order to kill her. It’s a very long time.
He knew what her plan was, when she would be
arriving. He saw her come in, and he drove around,
parked again and hid the car. She let that person in
her car, in her van. She could have run out the front
door if she wanted to and run inside the parking lot or
scream. She chose not to. She knew that person.
Nothing was stolen. Her purse was not disturbed.
And she was shot and killed. She wasn’t just
threatened. Her van wasn’t stolen. She was — she’s
only five foot tall, just kicked out of the van so she
could be carjacked. She was brutally murdered.
And in the struggle he bit her. And this bite mark
is on her body, on her body,
Page 2365
conclusively shown to be his. There’s no dispute there.
As much as Attorney O’Brien would like to
characterize Lowell Levine’s testifying — testimony as
saying that’s not Doug Prade, that’s not what he said.
He said that bite mark is consistent with Douglas

167a
Prade’s. Every one else is excluded; his is consistent.
The difference is degree. It’s clear, I believe, from
hearing testimony that Dr. Marshall, who was the
odontologist on this case, who spent hours analyzing
those teeth, and Dr. Levine was a corroborative second
opinion.
Howard Brooks identifies him, identifies him.
That’s direct evidence, ladies and gentlemen. I saw
him. It was him. Bottom line. Bottom line. It was
him.
Now, Attorney O’Brien may talk about how these
witnesses wait before they come forward, and perhaps
you might understand in this case why that would
happen. You have an Akron police detective coming
and asking questions about an Akron police captain,
his ex-wife is murdered. Now, gee, mightn’t somebody
be a little nervous about saying,
***
Page 2369
police department. He knew how to commit a crime.
He planned it. He knew how he was going to get rid of
this gun, how he was going to get rid of this car that
couldn’t traced to him, he knew how he could get rid of
his clothes. He planned it for weeks.
What didn’t he plan?
What didn’t he plan on
happening? He didn’t plan on Margo be Prade’s desire
to live. He didn’t plan that the woman for years who
he was able to verbally abuse and put down, that put
up with it, who never officially complained, never in
all those years, he didn’t count on the fact that she was
going to fight it, that the second she saw that gun she
fought and she fought for her life.

168a
He did not plan on that, and he had to bite her. It
was a primitive instinct, something he would never
have chosen to do in his cold and calculating way. But
he didn’t count on the new Margo, the Margo who was
— the Margo who had a reason to live, the Margo who
wanted to fight so she could see her daughters grow up
and become successful that they are destined to be, the
Margo who wanted
***

169a

APPENDIX P

IN THE COURT OF COMMON PLEAS
COUNTY OF SUMMIT
STATE OF OHIO,
Plaintiff,
v.
DOUGLAS E. PRADE,
Defendant.

) Case No. 98-02-0463
)
) C.A. No.
)
Transcript of
)
Proceedings
)
)
Volume VII of XIV
)
)
***

BE IT REMEMBERED that upon the hearing
of the above-entitled matter in the Court of Common
Pleas,
Summit
County,
Ohio,
before
the
HONORABLE MARY F. SPICER, Judge Presiding,
and commencing on Monday, August 24, 1998, the
following proceedings were had:
***

MARGARET G. WELLEMEYER, RMR, CRR
Official Court Reporter
Summit County Courthouse
Akron, Ohio 44308
***

170a
Page 1124
CALLAGHAN - CROSS
of people possibly to wash their hands quite often?
A. Yes.
Q. I have nothing further, Doctor. Thank you very
much.
--REDIRECT EXAMINATION
BY MS. McCARTY:
Q. Okay. I’m — just so we’re clear on this then,
Dr. Callaghan, you’re saying, based on your
analogy of a lot of people in the courtroom, there
are many people that possibly could have
contributed or could not have been excluded from
contributing the DNA underneath Margo Prade’s
fingernails?
A. Correct. And —
Q. And these might even be people that have never
met Margo Prade and never be anywhere around
her but yet they could not be excluded from
contributing the DNA just because of the system
you work with?
A. It’s kind of like saying green eyes. Lots of people
with green eyes.
Q. And if someone had casual contact with Dr. Prade,
either that Monday, Tuesday,
Page 1125
Wednesday, or even the weekend before, it is
possible that she could have had their DNA
underneath her fingernails?

171a
A. It’s possible.
Q. And by saying that Douglas Prade’s DNA was not
found and he was excluded, you’re not saying that
that doesn’t mean he wasn’t at the scene, are you?
A. No, I’m not.
Q. And you’re not saying that Douglas Prade didn’t
bite or kill Margo Prade?
A. I can’t say that, no.
Q. And as a forensic scientist, if you are looking to find
the best source of evidence, if you’re going to
assume that Margo did not bite herself and that the
bite occurred at the time of the homicide, what area
of her body, what source of DNA would you be
looking to as being the best possible source of DNA
evidence as to her killer’s identity?
A. Given those assumptions, the bite mark is very
important.
Q. And your test results do not give you any
information about the killer; the bite mark shows
you Margo Prade’s DNA only?
Page 1126
A. The type that is consistent with Margo Prade is the
only type of blood stain, bite mark.
(Pause.)
MS. McCARTY:

That’s it.

THE COURT:

Anything further?

MR. O’BRIEN:

No recross.

THE COURT:
Dr. Callaghan, thank you
very much. You’re excused.
(Witness excused.)

172a
THE COURT:
Doctor, just raise your right
hand. I’m going to go ahead and swear you in. You
can go ahead and sit down.
--***

173a

APPENDIX Q

IN THE COURT OF COMMON PLEAS
COUNTY OF SUMMIT
STATE OF OHIO,
Plaintiff,
v.
DOUGLAS E. PRADE,
Defendant.

) Case No. 98-02-0463
)
) C.A. No.
)
Transcript of
)
Proceedings
)
)
Volume IX of XIV
)
)
***

BE IT REMEMBERED that upon the hearing
of the above-entitled matter in the Court of Common
Pleas,
Summit
County,
Ohio,
before
the
HONORABLE MARY F. SPICER, Judge Presiding,
and commencing on Monday, August 24, 1998, the
following proceedings were had:
***
MARGARET G. WELLEMEYER, RMR, CRR
Official Court Reporter
Summit County Courthouse
Akron, Ohio 44308
***

174a
Page 1628
BAUM - DIRECT
Q. Doctor, could we see the next slide?
A. That is — that is a picture of the original bite.
That’s —
Q. That was an example of the demonstration that you
just performed; is that correct?
A. Yes.
Q. All right. Are there any more slides, Doctor?
A. No.
Q. Please have a seat.
Doctor, as a result of your second visit with
Mr. Prade, besides taking photo slides and the wax
impression
and
performing
your
own
demonstration then, did you take any other type of
samples?
A. Yes.
Q. What did you take?
A. Well, we have discussed the scenario that this case
revolves around and if there was a bite on a
laboratory coat sleeve. Something that, again, I
run into on a daily, if not hourly basis, with which
I and my assistant constantly struggle against is
that people slobber, especially when you have any
type of fabric in the mouth, and we place those
Page 1629
gauzes in people’s mouth, the saliva comes pouring
out. Saliva is chock-full of antibodies, white blood
cells, and other DNA containing materials.

175a
So it was my supposition that if there was a bite
made on a piece of fabric, whoever did it probably
slobbered all over it, and that if we could obtain a
DNA sample from that fabric, we would be able to
possibly identify or exclude someone.
I mentioned that, and what we did is we agreed,
we immediately took a sample.
Mr. Prade
consented. I placed some gauze in his mouth. We
took a washing of saliva and tissue and we placed
it on one of those sterile bags, and you marked it off
and sent it for analysis.
Q. Doctor, did you take any plaster cast of Mr. Prade’s
mouth?
A. Yes, I did.
Q. And how many casts did you take?
A. Four.
Q. And describe that for me.
A. We made a plaster cast of his upper denture.
Shut that off, I’m sorry. Thank you.
***

